  AUDIT OF THE DEPARTMENT OF
JUSTICE INFORMATION TECHNOLOGY
STUDIES, PLANS, AND EVALUATIONS

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 07-39
              August 2007
                AUDIT OF THE DEPARTMENT OF JUSTICE
                    INFORMATION TECHNOLOGY
                 STUDIES, PLANS, AND EVALUATIONS

                          EXECUTIVE SUMMARY

Background

        This report is the final in a series of three reports prepared by the
Department of Justice (Department) Office of the Inspector General (OIG) in
response to a congressional request included in the Department’s
appropriation for fiscal year (FY) 2006. Specifically, Congress instructed the
OIG to present to the Committees on Appropriations: (1) an inventory of all
major Department information technology (IT) systems and planned
initiatives, and (2) a report that details all research, plans, studies, and
evaluations that the Department has produced, or is in the process of
producing, concerning IT systems, needs, plans, and initiatives. Congress
requested that the OIG include an analysis identifying the depth and scope
of problems the Department has experienced in the formulation of its IT
plans.

      The OIG’s first report, issued in March 2006, presented an unverified
inventory of the Department’s major IT investments based on information
reported to the Office of Management and Budget (OMB) for budget
purposes. The inventory contained 46 major investments, each with
projected costs at or exceeding $15 million for FYs 2005 through 2007.

      The second report, issued in June 2007, presented the refined
inventory of major systems according to criteria developed by the OIG,
reducing the number of major systems to 38. The second report also
examined issues related to verifying cost information about the 38 systems.

       This third and final report addresses the request for the OIG to
prepare a report that details the research, plans, studies, and evaluations
related to the Department’s information technology initiatives. This report
also includes an analysis of problems related to IT planning that have been
identified in previous OIG reports.

       Our work involved the Department’s Office of the Chief Information
Officer and eight of the Department’s components or offices. We generally
focused our audit on the 38 major systems and initiatives that were
identified in the refined OIG inventory. These included the following number
of systems in the chart below for each of the Department’s components
represented in the revised inventory.


                                       i
                                                                               Number of
                                     Component
                                                                                Systems
             Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)             1
             Bureau of Prisons (BOP)                                               1
             Drug Enforcement Administration (DEA)                                  1
                                                                                  6
             Executive Office for Immigration Review (EOIR)                        1
             Federal Bureau of Investigation (FBI)                                21
             Justice Management Division (JMD)                                     6
             Office of the Deputy Attorney General (ODAG)                          1
             Office of Justice Programs (OJP)                                      1
             Total                                                                38
              Source: Department of Justice, Office of the Inspector General

      The types of systems, stages of development, and scopes of the
projects vary widely. The systems include infrastructure acquisitions and
application development projects that are in the early phases of planning
and others that had been operational for several years.

OIG’s Audit Approach

      Our audit objectives were to: (1) identify all research, plans, studies,
and evaluations that the Department has produced, or is in the process of
producing, concerning IT systems, needs, plans, and initiatives; and
(2) analyze the depth and scope of the problems the Department has
experienced in the formulation of its IT plans.

      We identified relevant federal, Department, and component-specific
requirements and standards for IT research, studies, plans, and evaluations,
and merged the various standards into a generic set of documents. We
requested and obtained documents from the components to develop the
inventory, and assessed compliance with the document standards for the
major systems in the inventory. For this audit report, we focused
specifically on studies and research that justified the selection of
investments in the OIG’s revised inventory of major IT systems and projects,
plans that were developed after the investments were authorized, and
evaluations that were performed after systems were implemented.

      1
         In the previously issued OIG report on Identification and Review of the
Department’s Major Information Technology Systems Inventory, which provides information
on the cost of the Department’s major IT systems, we included seven systems for the DEA
and none for the ODAG. The seven systems included the Organized Crime Drug
Enforcement Task Force (OCDETF) Fusion Center System (OFC) because the DEA’s
unobligated funds developed the OFC. However, in this report we include the OFC as part of
the ODAG because the system actually resides in that office.



                                                 ii
      To evaluate problems the Department has experienced in its IT
planning, we analyzed the evaluations obtained for information about
problems the Department has experienced in formulating IT plans. We
reviewed relevant audit and other independent reports, extending the scope
of our audit work to some systems and projects that were not included in
the inventory of major systems. We also asked the components to inform us
of IT projects that had been terminated or had experienced problems.

IT Management

      The Deputy Assistant Attorney General for Information Resources
Management (DAAG/IRM), who reports to the Assistant Attorney General for
Administration, serves as the Department’s Chief Information Officer (CIO).
The CIO’s responsibilities include establishing and implementing
Department-wide IT policies and standards, developing the Department’s IT
Strategic Plan, and reviewing and evaluating the performance of the
Department’s IT programs and projects. In his role as the DAAG/IRM, the
CIO leads the Information Resources Management (IRM) office of the Justice
Management Division (JMD).

      JMD developed and operates many systems that serve more than one
component in the Department. The Department’s other components are
responsible for providing information to the CIO, demonstrating that
resources are being well spent and managed, and using the methodology in
the Department’s standards for information systems. Each of the
components included in the revised inventory has its own CIO, except for
the Office of the Deputy Attorney General.

       Numerous federal, Department, and component guidelines establish
criteria for IT research, studies, plans, and evaluations. The guidelines come
from both IT and budget authorities, and can apply to the Department as a
whole or to individual components, such as the DEA or FBI. The various
standards should complement one another. However, the IT compliance
environment is complex and involves strategic planning, IT development
methodologies, IT investment management, enterprise architecture,
procurement, and budgeting. 2 Additionally, many standards exist as
guidelines rather than requirements, and allow flexibility for variation.


       2
         Enterprise architecture (EA) is a blueprint that explains and guides how an
organization’s IT and information management elements work together to accomplish the
mission of the organization. An EA addresses business activities and processes, data sets
and information flows, applications and software, and technology.



                                            iii
      IT projects can be expected to go through a process of identifying a
business need and alternative solutions for meeting the need, selecting the
best alternative, planning to acquire or build the solution, defining specific
requirements, and designing, building, testing, implementing, and evaluating
the implemented solution. The Department’s Systems Development Life
Cycle Guidance Document (SDLC) describes 10 life-cycle phases with
associated tasks and deliverable products, including specific studies, plans,
and evaluations. For different types of acquisitions and smaller-scope
projects, the life-cycle work pattern can be tailored to reduce the workload
from a full sequential work pattern. Tailoring the work pattern may include
dropping requirements for specific tasks, studies, plans, and evaluations.
Different sets of deliverables are identified in other standards, such as the
Department’s Information Technology Investment Management Guide (ITIM
Guide) and the FBI’s Life Cycle Management Directive (LCMD). 3

      Both the SDLC and ITIM tasks and deliverables generally follow the
progression of IT projects chronologically. Under both, studies and research,
such as alternatives analyses, feasibility studies, risk analyses, and market
research for possible solutions, are performed early in the life of a system as
the basis for selecting the best alternative and preparing the business case
for the project. Major plans of all types, such as project management plans
and quality assurance plans, are developed after the selected approach has
been authorized. Post-implementation reviews, in-process review reports,
and user satisfaction reviews are types of evaluations that occur after an IT
system has been implemented or a project has been terminated. We used
this chronological approach to identify and organize the studies, research,
plans, and evaluations that are addressed in this audit.

       This chronological approach is qualified by the evolutionary nature of
the entire life-cycle process. As projects evolve to become more defined
over time, plans should also become more defined. The life cycle of
identifying business needs, selecting best alternatives, determining which IT
investments should be added to and continued in the Department’s portfolio,
acquiring and building solutions, and evaluating the results is intended to be
iterative and ongoing. Both the SDLC and ITIM also require various types of
ongoing evaluations to occur regularly as decision points are reached during
the course of IT projects.



       3
          ITIM processes help identify needed IT projects, select new projects, and track
and oversee project costs and schedules. The LCMD is the FBI’s systems development life
cycle guidance defining IT project management procedures and documentation
requirements.



                                            iv
Department IT Studies, Plans, and Evaluations

        Two comprehensive IT plans for the Department are required by Office
of Management and Budget (OMB) standards: the Department’s IT Capital
Plan and IT Strategic Plan. The IT Capital Plan, Agency IT Investment
Portfolio, described in the second of the OIG’s three IT reports, represents
the Department’s inventory of major IT investments. For this audit, we
reviewed the Department’s IT Strategic Plan, which is described in Finding 1
of this report. Components are also allowed to develop their own IT
strategic plans, as long as they are consistent with the Department’s plan. 4
Five of the components we reviewed had developed their own IT strategic
plans. The IT strategic plans are listed in Appendix III of this report. All
other documents described in Finding 1, “Studies, Plans, and Evaluations,”
were prepared in response to standards associated with each system or
initiative.

       Studies required by the various standards for IT activities and
documents associated with each IT system or project are generally prepared
early in the life cycle of an IT project to identify and evaluate possible
alternative solutions to meet a business need. The studies include market
research, alternative analyses, feasibility studies, cost-benefit analyses (or
benefit-cost analyses), risk analyses, and privacy impact assessments.

      The plans specified by the Department’s SDLC for each IT system or
project include many types that are developed after an alternative solution
has been selected. These include the following plans.

    •       risk management                        •   validation and verification
    •       acquisition                            •   testing
    •       project management                     •   conversion
    •       system security                        •   implementation
    •       systems engineering management         •   training
    •       configuration management               •   contingency
    •       quality assurance                      •   disposition

      For evaluations, we requested reports of evaluations specified in the
SDLC, such as post-implementation review reports, in-process review
reports, and user satisfaction review reports. Post-implementation reviews
are conducted after a system has been in production for a period of time and
are used to evaluate the effectiveness of the system development. The


        4
         DOJ Order 2880.1B, Information Resources Management Program, allows, but
does not require, components to develop their own IT strategic plans.



                                          v
review should determine whether the system does what it was designed to
do, supports users as required, and was successful in terms of functionality,
performance, and cost benefit. It should also assess the effectiveness of the
development activities that produced the systems. The review results
should be used to strengthen the systems as well as system development
procedures. In-process reviews are performed during operations and
maintenance to assess system performance and user satisfaction, and
should occur repeatedly after a system has been implemented to ensure the
system continues to meet needs and perform effectively.

        Components submitted more than 800 items that we accepted as
responsive to our requests. Of the 800 items, 494 were entire documents
we categorized as studies, plans, and evaluations, which we included in our
list of documents. The other items submitted by components were artifacts
or other products of the system development and acquisition process.
Artifacts included items such as briefing slides, spreadsheets showing
schedules and work breakdown structures, and various progress reports.
The studies, plans, and evaluations are listed in Appendix V to this report.

      While many of the documents specified in various guidelines were
produced, significant gaps existed between the studies, plans, and
evaluations described in the guidelines and what was prepared by the
components. Only seven post-implementation evaluations were obtained, of
which four did not reflect lessons learned in terms of project planning and
management.

      We found the highest levels of compliance in the areas of business
case documents, which become part of the Department’s annual budget
process and are required to obtain funding for each system or project, and
security plans, which are required for projects to obtain authorization to
operate. The components provided at least one business case document for
36 of the 38 systems in the inventory. The two exceptions, the FBI’s
Investigative Data Warehouse (IDW) and Secure Compartmented
Information Operational Network (SCION), are included in an “umbrella”
business case that represents the Department’s consolidated enterprise
infrastructure (CEI). The business case document represents the single
document type for which we found 100 percent compliance.

       System security plans also had a high level of compliance. We
obtained system security plans for 32 of the 38 projects. The six other
projects were either too early in the life cycle for preparation of this
document, or a draft security plan was undergoing review. Components also
demonstrated a high level of compliance with privacy impact assessments
(PIA), and we found acceptable explanations for the projects that did not


                                     vi
submit a PIA. Components provided project management plans for 29 of the
38 projects, and explained all but one of those exceptions.

       However, we found compliance in the areas of systems engineering
management, configuration management, quality assurance, validation and
verification, and training plans was significantly lower. The components
cited several different reasons for not providing documents relating to these
issues that we requested. The reasons included: (1) the requirement was
not applicable to the investment; (2) a waiver to the requirement had been
granted; (3) planning for the system pre-dated FY 2000 and the
documentation was not available; (4) the system was purchased
commercially off-the-shelf eliminating the need for certain processes; and
(5) the investment had not reached the applicable point in the life cycle.

      Department oversight is designed to focus on the capital planning and
investment control (CPIC) process concerned with selecting and prioritizing
IT investments. According to JMD officials and DOJ Order 2880.1b,
Department oversight is not designed to enforce policies and procedures on
documentation. 5 JMD officials told us they do not perform independent
reviews of the other components’ IT projects, nor do they receive major
studies, plans, and evaluations from the components to review. The
Department-level oversight of major IT projects is performed through
presentations to the Department’s Investment Review Board, the CIO’s
Dashboard report, and through the OMB exhibit 300s, all of which are
described in the second report in this series. This allows some tracking of
actual performance against scheduled milestones and costs, but does not
involve JMD officials in the details of IT documentation for individual
projects.

      Based on the limited number of certain types of plans and evaluations
produced on these major systems and projects, we recommend that the CIO
evaluate why project teams do not prepare certain plans and evaluations,
reassess the utility of those documents, and consider revising the standards
for producing IT studies, plans, and evaluations for individual IT projects.

       Many standards exist that define the types of studies, plans, and
evaluations that should be performed for individual projects. The standards
allow significant flexibility through waivers of document requirements and
tailoring of the processes. For example, the SDLCs and FBI’s LCMD
encourage tailoring the documentation standards to the size and complexity
of the project. Although the SDLCs specify many studies, plans, and

      5
          The CIO does have specific responsibilities to enforce security standards.



                                             vii
evaluations for all types of projects in the tailoring guidelines, we found that
many Department projects have not generated these “required” documents.
It is possible that the standards are not necessarily appropriate to different
types of projects or acquisitions and should be revised. The Department
should exercise increased oversight of the tailoring being done, and consider
revising the guidelines for tailoring the work pattern for specific types of
projects.

IT Planning Problems

       To identify problems the Department has experienced in planning for
IT systems and projects, we reviewed previous OIG audits and other reports.
We also reviewed the evaluations we obtained from the components to help
identify problems the Department has experienced in planning for IT
systems.

      We asked components for information on IT projects that had failed or
been terminated. Other than one portion of the FBI’s Trilogy project and the
FBI’s Laboratory Information Management System (LIMS) project, the
components told us they were not aware of failed or terminated projects.
The OIG found during work on the second report in this series that JMD’s
Justice Consolidated Office Network (JCON) project had experienced a
project termination sometime before FY 2002 prior to the current project.
JMD, however, was not able to provide any information about the failure.
The fact that no evaluation was performed to assess reasons for the failure
suggests a serious gap in standards for evaluations. Terminated projects
should be evaluated to determine the causes of the problems.

       We also found that the Department had produced few evaluations of
project management or success for IT projects in post-implementation
reviews. According to the DOJ SDLC, one purpose of post-implementation
reviews is to assess the effectiveness of the life-cycle development activities
that produced the system. This includes analyzing if proper limits were
established in the feasibility study and if the limits were maintained during
implementation, addressing the reasons for variances between planned and
realized benefits, addressing the reasons for differences between estimated
and actual costs, and evaluating whether training was adequate,
appropriate, and timely. The review results are intended to be used to
strengthen the system development procedures, as well as the system itself.

      The DOJ ITIM Guide calls for continuous monitoring of investments to
assess progress against established cost, schedule, and performance metrics
in order to mitigate any risks or costs on an on-going basis. The DOJ ITIM
Guide also indicates that the activities of the evaluation phase include


                                      viii
applying lessons learned from post-implementation reviews and periodic
operational analyses for ITIM process improvement. The lessons learned for
ITIM process should be incorporated into the select and control phases for
future IT investments.

      The OIG has issued audit and inspection reports about IT systems and
project management that have focused on various IT concerns. These
include the management and progress of individual IT projects, IT
management in general, the performance of individual systems following
implementation, system security, and system controls in financial
management systems. Appendix VII lists prior OIG audits and inspections
on IT issues that we reviewed for this analysis.

      Among the problems that have been described in previous audit
reports related to IT planning were weaknesses in investment and program
management practices, business process re-engineering (BPR), cooperation
between agencies, and contract management. BPR is defined as the
redesign of the organization, culture, and business processes using
technology as an enabler to achieve significant improvements in cost, time,
service, and quality.

      For example, various contracting and program management
weaknesses contributed to the failure of the FBI’s Virtual Case File (VCF)
project. The FBI did not effectively oversee the contract and failed to
establish firm milestones to be achieved before the project could move to
the next phase. In the FBI’s LIMS project, the OIG found that firmly
managed schedule, cost, technical, and performance benchmarks for the
contract would have raised warning signs earlier in the project and perhaps
led to resolution of the problems encountered. 6

      The DOJ System Development Life Cycle Guidance Document indicates
that business process re-engineering (BPR) should be the underpinning of
any new system development or initiative, as part of strategic planning for
information systems, and that agencies should consider BPR before
requesting funding for a new project or system development effort.
However, reviews have raised issues related to weaknesses in business
process re-engineering in the planning of the Department’s IT projects. One
study of the FBI’s terminated VCF project found that senior managers were
not involved in efforts to re-engineer business processes or in rethinking the
FBI’s use of IT, and that while users working on the re-engineering were

      6
        The FBI’s Laboratory Information Management System (LIMS) project contract
was terminated after the FBI determined the system would not be able to meet security
requirements. See the discussion in Finding 2.



                                           ix
experienced agents, none had experience with complex IT development
projects or business process re-engineering.

      Requirements planning is another area that has been cited as weak in
specific audit reports. For example, the LIMS project was terminated in large
part due to problems with the security requirements of the system, which
were not fully defined early in the project. The LIMS Request for Proposal
(RFP) had required security to be part of the system, but the FBI
strengthened its security requirements after the contract award following
high-profile espionage-related security breaches in the FBI. The audit found
that the FBI had failed to document security requirements adequately and,
to the extent the security requirements evolved, did not clarify those
changes through contract modifications.

Conclusion

      This audit sought to identify research, plans, studies, and evaluations
that the Department has produced or is in the process of producing
concerning IT systems, needs, plans, and initiatives. In addition, we
analyzed the depth and scope of the problems the Department has
experienced in the formulation of its IT plans.

      Components submitted 494 documents that we categorized as studies,
plans, and evaluations, related to federal, Department, and component-
specific requirements and standards. Many of the documents specified in
various criteria were produced, but significant gaps existed between the
studies, plans, and evaluations described in criteria and what was prepared.

      We found the highest levels of compliance in the areas of business
case documents, which become part of the Department’s annual budget
process and are required to obtain funding for each system or project, and
security plans, which are required for projects to obtain authorization to
operate. The components provided at least one business case document for
36 of the 38 systems in the inventory. The two exceptions, the FBI’s
Investigative Data Warehouse (IDW) and Secure Compartmented
Information Operational Network (SCION), are included in an “umbrella”
business case that represents the Department’s consolidated enterprise
infrastructure (CEI).

       System security plans also had a high level of compliance. We
obtained security plans for 32 of the 38 projects. The six other projects
were either too early in the life cycle for preparation of this document, or a
draft security plan was undergoing review. Components also demonstrated
a high level of compliance with privacy impact assessments (PIA), and we


                                       x
found acceptable explanations for the projects that did not submit a PIA.
Components also provided project management plans for 29 of the 38
projects, and explained all but one of those exceptions.

       However, we found compliance in the areas of systems engineering
management, configuration management, quality assurance, validation and
verification, and training plans was significantly lower. In addition,
components provided only seven post-implementation review reports.

     Prior OIG reports have identified planning problems on individual
systems and projects that include weaknesses in business process re-
engineering, requirements planning, cooperation between agencies, and IT
program and contract management. These weaknesses have contributed to:

  •   project re-starts, cost increases, and delays in the FBI’s
      implementation of a case management system,

  •   the termination of the FBI’s LIMS project,

  •   delays in implementing an interoperable fingerprint identification
      system that can be used by both the Department and federal
      immigration authorities, and

  •   data integrity problems in the TSC database.

       We originally planned to use evaluations we obtained from
components to identify problems the Department has experienced in
planning for IT systems. This was not possible because the Department has
produced so few evaluations of project management for either successful or
failed IT projects, with the exception of two terminated projects in the FBI.

      In this report, we made five recommendations to the Department,
such as recommending that the Department evaluate why project teams do
not prepare certain plans and evaluations, reassess the utility of those
documents, and consider revising the standards for producing IT studies,
plans, and evaluations for individual IT projects. We also recommend that
the Department consider revising the guidelines for tailoring the work
pattern for specific types of projects. Additional recommendations focus on
improving the evaluation of IT project management in the Department and
improving business process re-engineering, and contract management and
oversight. We believe the Department should ensure that evaluations are
performed on both implemented systems and terminated projects that focus
on lessons learned on planning and project management issues.



                                       xi
i
                                      Table of Contents


INTRODUCTION .................................................................................. 1

  Background ..................................................................................... 1
  Major Systems ................................................................................. 2
  Information Technology Organizations................................................. 4
  Standards for IT Studies, Plans, and Evaluations................................... 7
  IT System Life-Cycle Concepts ......................................................... 11
  Audit Approach .............................................................................. 14

FINDINGS AND RECOMMENDATIONS ................................................... 16

Finding 1: Studies, Plans, and Evaluations ........................................... 16

  Inventory of Studies, Plans, and Evaluations ...................................... 16
  The Department of Justice IT Strategic Plan ....................................... 22
  Component IT Strategic Plans .......................................................... 23
  IT System and Project Documents .................................................... 24
  Studies ......................................................................................... 26
  Plans ............................................................................................ 31
  Evaluations.................................................................................... 40
  Conclusion..................................................................................... 41
  Recommendations .......................................................................... 42

Finding 2: IT Planning Problems ......................................................... 43

  Business Process Re-engineering and Requirements Weaknesses .......... 44
  Cooperation Between Agencies......................................................... 46
  Contract Management Weaknesses ................................................... 48
  IT Program Management ................................................................. 49
  Post-Implementation Evaluations...................................................... 51
  Conclusion..................................................................................... 53
  Recommendations .......................................................................... 53

STATEMENT ON INTERNAL CONTROLS ................................................. 54
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ....................... 55

APPENDIX II - ACRONYMS.................................................................. 57

APPENDIX III - IT STRATEGIC PLANS................................................... 61

APPENDIX IV - COMPLIANCE MATRIX................................................... 62

APPENDIX V - DOCUMENTS AND OTHER ARTIFACTS .............................. 74

APPENDIX VI - SYSTEM SUMMARIES.................................................. 101

APPENDIX VII - PRIOR OIG REPORTS................................................. 161

APPENDIX VIII - DEPARTMENT’S RESPONSE TO THE DRAFT REPORT ...... 165

APPENDIX IX - INSPECTOR GENERAL ANALYSIS AND SUMMARY OF ACTIONS
NECESSARY TO CLOSE REPORT ........................................................ 168
                                   INTRODUCTION

Background

        This report is the final in a series of three reports prepared by the
Department of Justice (Department) Office of the Inspector General (OIG) in
response to a congressional request included in the Department’s
appropriation for fiscal year (FY) 2006. Specifically, Congress instructed the
OIG to present to the Committees on Appropriations: (1) an inventory of all
major Department information technology (IT) systems and planned
initiatives, and (2) a report that details all research, plans, studies, and
evaluations that the Department has produced, or is in the process of
producing, concerning IT systems, needs, plans, and initiatives. Congress
requested that the OIG include an analysis identifying the depth and scope
of problems the Department has experienced in the formulation of its IT
plans.

      The OIG’s first report, issued in March 2006, presented an unverified
inventory of the Department’s major IT investments based on information
reported to the Office of Management and Budget (OMB) for budget
purposes. 7 The inventory contained 46 major investments, each with
projected costs at or exceeding $15 million for FYs 2005 through 2007.

      The second report, issued in June 2007, presented the refined
inventory of major systems according to criteria developed by the OIG,
reducing the number of major systems to 38. 8 The second report also
examined issues related to verifying cost information about the 38 systems.

      This third and final report addresses the request for the OIG to
prepare a report that details the research, plans, studies, and evaluations
related to the Department’s information technology initiatives. We used the
refined inventory of major systems presented in the second report to focus
our work for this current report. This report also includes an analysis of
problems related to IT planning that have been identified in previous OIG
reports.

       7
         Department of Justice, Office of the Inspector General, Inventory of Major
Department of Justice Information System Investments as of Fiscal Year 2006, Audit Report
No. 06-25, March 2006.
       8
         Department of Justice, Office of the Inspector General, Identification and Review
of the Department’s Major Information Technology Systems Inventory, Audit Report
No. 07-37, June 2007.


                                             1
Major Systems

      We generally focused our audit on the 38 major systems and initiatives
that were identified in the refined OIG inventory, which are shown in
Figure 1, listed by the component within the Department that is responsible
for each system. 9 The components are the:

   •   Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF)

   •   Bureau of Prisons (BOP)

   •   Drug Enforcement Administration (DEA)

   •   Executive Office for Immigration Review (EOIR)

   •   Federal Bureau of Investigation (FBI)

   •   Justice Management Division (JMD)

   •   Office of the Deputy Attorney General (ODAG)

   •   Office of Justice Programs (OJP)




       9
         For our analysis of problems the Department has experienced with planning for IT
systems, we included a few additional systems and projects for which we had information
about project termination or other problems. These are introduced in Finding 2.


                                            2
                                    Major Systems and Projects
     Figure 1
                      System or
      Component                                             Full Title
                       Project
           ATF          NIBIN         National Integrated Ballistics Information Network
           BOP           ITS II       Inmate Telephone System II
           DEA         Concorde       Concorde
           DEA          E-Com         Electronic Commerce
           DEA             EIS        El Paso Intelligence Center (EPIC )Information Systems
           DEA         Firebird       Firebird
           DEA           M204         Model 204 Corporate Systems
           DEA          Merlin        Merlin
           EOIR         eWorld        eWorld
            FBI         BRIDG         Biometric Reciprocal Identification Gateway
            FBI       CARTSAN         Computer Analysis Response Team Storage Area Network
            FBI         CODIS         Combined DNA Index System
            FBI           DCS         Digital Collection System
            FBI           DCU         Data Centers Unit
            FBI         EDMS          Electronic Surveillance (ELSUR) Data Management System
            FBI         FTTTF         Foreign Terrorist Tracking Task Force
            FBI          IAFIS        Integrated Automated Fingerprint Identification System
            FBI           IATI        Information Assurance Technology Infusion
            FBI           IDW         Investigative Data Warehouse
            FBI           LEO         Law Enforcement Online
            FBI          NCIC         National Crime Information Center
            FBI         N-DEx         Law Enforcement National Data Exchange
            FBI           NGI         Next Generation Identification
            FBI          NICS         National Instant Criminal Background Check System
            FBI         R-DEx         Regional Data Exchange
            FBI         SCION         Secure Compartmented Information Operational Network
            FBI       SENTINEL        Sentinel
            FBI          SMIS         Security Management Information System
            FBI           TRP         Technical Refreshment Program
            FBI           TSC         Terrorist Screening Center
           JMD           CITP         Classified Information Technology Program
           JMD            IWN         Integrated Wireless Network
           JMD           JCON         Justice Consolidated Office Network
           JMD          LCMS          Litigation Case Management System
           JMD             PKI        Public Key Infrastructure
           JMD          UFMS          Unified Financial Management System
                               10     Organized Crime Drug Enforcement Task Force (OCDETF)
           ODAG          OFC          Fusion Center System
           OJP           JGMS         Justice Grants Management System
      Source: Office of the Inspector General

      10
           In the previously issued OIG report on Identification and Review of the
Department’s Major Information Technology Systems Inventory, which provides information
on the cost of the Department’s major IT systems, we included the OFC as part of the DEA
because the DEA’s unobligated funds developed the OFC. However, in this report we
include the OFC as part of the ODAG because the system actually resides in that office.


                                                 3
        These systems represent a wide range of types of systems and
initiatives, including efforts to acquire infrastructure, implement
communications networks, and build application programs to support
business transactions. For example, the DEA’s Firebird project is providing
infrastructure network equipment which allows DEA staff to use various
automated programs. Its Concorde project is intended to update and
transition older applications that currently run on older hardware and
database platforms to newer platforms. OJP’s Litigation Case Management
System project is a major new development effort designed to build an
enterprise case management system that will serve as an infrastructure for
the sharing of case-related information within and between the Department’s
components and United States Attorneys Offices.

      The systems we reviewed are also in various stages of development
and operation. Some of the systems have been in steady-state operational
status for many years. Others are new development or in a mixed life-cycle
phase, meaning the system is operational with significant modifications or
enhancements being implemented. These variations affect which studies,
plans, and evaluations have been or should have been prepared.

      The OMB budget process grants agencies significant flexibility in
defining what needs to be reported as an “IT investment” for budget
purposes. Most of the system titles in Figure 1 represent single information
systems, but others, such as the DEA’s EIS and the FBI’s FTTTF represent
programs that include multiple information systems. JMD’s Public Key
Infrastructure (PKI) project is an initiative that will affect access to many
other systems in the Department by specifying access controls. A brief
summary on each system or project is found in Appendix VI, along with a list
of the studies, plans, and evaluations we obtained associated with the
project.

Information Technology Organizations

      Our work involved the Department’s Office of the Chief Information
Officer and the eight Department components or offices listed on page 2.




                                     4
Office of the Chief Information Officer (OCIO)

      The Deputy Assistant Attorney General for Information Resources
Management (DAAG/IRM), who reports to the Assistant Attorney General for
Administration, serves as the Department’s Chief Information Officer (CIO).
The CIO’s responsibilities include establishing and implementing
Department-wide IT policies and standards, developing the Department’s IT
Strategic Plan, and reviewing and evaluating the performance of Department
IT programs and projects. In his role as the DAAG/IRM, the CIO leads the
Information Resources Management (IRM) function of the Justice
Management Division (JMD).

Justice Management Division

       JMD provides administrative services to the Department, including
those related to human resources, controller activities, and IT systems and
support. In the area of IT, JMD serves a central role for the Department for
policy, planning, monitoring, and services. DOJ Order 2880.1B, Information
Resources Management Program, September 27, 2005, requires the CIO, in
his role as the DAAG/IRM, to deliver IT services to the Department through
the JMD. 11

       JMD developed and operates many systems that serve more than one
component in the Department, and it owns six of the major systems in our
inventory. JMD is responsible for overseeing the development and
implementation of the Unified Financial Management System, which is
intended to consolidate financial reporting for all of the Department’s
components and replace six different financial management systems. The
Litigation Case Management System will serve seven litigating divisions of
the Department and will implement a common case management
architecture for future projects. The Integrated Wireless Network project is
intended to provide a consolidated, nationwide federal wireless
communications service that will replace standalone systems in various
components. The Justice Consolidated Office Network seeks to provide a
reliable common office automation platform upon which 16 of the
Department’s litigating, management, and law enforcement components
operate mission-critical applications. Under the Classified Information
Technology Program, the Department will develop a classified Enterprise
Architecture, an initial operational infrastructure, and an operations and

       11
          A DOJ Order is a type of directive used to issue Departmental policy and direction
for administrative matters.


                                             5
maintenance model for processing classified information. 12 The Department
has also established a Public Key Infrastructure project to enhance access
security for existing applications and services. The enhanced security will
support communications between Department staff and federal, state, and
local government agencies.

       Within the OCIO, the CIO-DAAG/IRM leads five staffs: (1) Policy and
Planning, (2) Electronic Government Services, (3) Information Technology
Security, (4) Operations Services, and (5) Enterprise Solutions. Of the six
systems and projects in the refined inventory for which JMD is responsible,
five are the responsibility of the OCIO. The following four projects are
assigned to the Enterprise Solutions Staff:

       •    Classified Information Technology Program,

       •    Justice Consolidated Network,

       •    Litigation Case Management System, and

       •    Public Key Infrastructure Project.

The Integrated Wireless Network project is assigned to the Electronic
Government Services Staff. The Office of the Controller, which is not a part
of the IRM office, is responsible for the sixth JMD project, the Unified
Financial Management System.

Component IT Organizations

       Components in the Department are responsible for:

   •   providing information on their investments as requested by the
       Department’s CIO;

   •   demonstrating that resources are being well-spent and managed;

   •   demonstrating that risks are being properly addressed;



       12
            Enterprise Architecture (EA) is a blueprint that explains and guides how an
organization’s IT and information management elements work together to accomplish the
mission of the organization. An EA addresses business activities and processes, data sets
and information flows, applications and software, and technology.


                                             6
   •    developing an acquisition strategy for all major IT projects;

   •    implementing security policies and guidelines, and

   •    using the methodology in the Department’s Systems Development Life
        Cycle Guidance Document for all information systems and applications,
        tailored to individual projects.

      Each of the components responsible for one of the major IT systems in
the OIG’s refined inventory has its own CIO and IT organization, with the
exception of the ODAG. Many of the initiatives in the refined inventory were
managed out of the CIO’s offices identified in Figure 2, although some were
managed by other offices within the component.

                          Chief Information Officers and Organizations
Figure 2
                 # Systems
 Component                               Organization                       CIO Reports to
                in Inventory
                                                                  Assistant Attorney General for
 JMD                  6        Information Resources Management
                                                                  Administration
 ATF                  1        Office of Science and Technology   Deputy Director
                               Office of the Chief Information    Assistant Director for Information,
 BOP                  1
                               Officer                            Policy, & Public Affairs Division
 DEA                  6        Office of Information Systems      Deputy Administrator
                               Office of Planning, Analysis &
 EOIR                 1                                           Assistant Director
                               Technology
                               Office of the Chief Information
 FBI                 21                                           Associate Deputy Director
                               Officer
                               Office of the Chief Information
 OJP                  1                                           Deputy Assistant Attorney General
                               Officer
Source: Department of Justice components. (There is also one system in the ODAG, which does not
have a CIO.)

Standards for IT Studies, Plans, and Evaluations

      Numerous federal, Department, and component-level guidelines
establish criteria for IT research, studies, plans, and evaluations. The
guidelines come from both IT and budget authorities, and may apply to the
Department as a whole or to individual components such as the DEA or FBI.
While the various standards should complement one another, the compliance
environment is complex and involves strategic planning, IT development
methodologies, IT investment management, enterprise architecture,
procurement, and budgeting. Additionally, many standards exist as
guidelines rather than requirements, thereby allowing needed flexibility



                                                 7
depending on the specific characteristics (type, size, scope, status) of each
project.

Federal IT Standards

       The Information Technology Management Reform Act (ITMRA) of
1996, also known as the Clinger-Cohen Act, P.L. 104-106, February 1996,
requires federal agencies to improve the acquisition, use, and disposal of
information technology by implementing a capital planning and investment
control (CPIC) process that links to budget formulation and execution. 13 The
process is intended to maximize the value, and assess and manage the
risks, of IT acquisitions. This Act also requires agencies to focus information
resource planning to support their strategic missions and to rethink and
restructure the way they do their work before investing in information
systems.

      OMB Circular A-130, Management of Federal Information Resources,
revised November 2000, establishes policy for the management of federal
information resources, based on several laws, including the Clinger Cohen
Act. The Circular assigns responsibilities to various agencies and establishes
standards for the CPIC process. The CPIC process is intended to include all
stages of capital programming, including planning, budgeting, procurement,
management, and assessment. It requires information resource
management Strategic Plans, which are strategic in nature, and IT Capital
Plans, which are operational in nature. The IT Capital Plans are submitted to
OMB with agency budget submissions annually, and are required to include
the IT Capital Asset Plans for major information systems or projects.

      The OMB also publishes guidelines governing budget submissions each
year that influence IT planning and documentation. OMB Circular A-11,
Preparation, Submission, and Execution of the Budget, June 2006,
establishes detailed standards for the IT Capital Plans to be submitted for
each budget year. Two main exhibits are submitted with the Department’s
budget each year representing the Department’s IT Capital Plan. Under the
Circular’s Part 2, Preparation and Submission of Budget Estimates,
Section 53, Information Technology and e-Government, federal agencies are
required to submit an Agency IT Investment Portfolio, called the OMB




       13
           The Clinger-Cohen Act is Division E of the National Defense Authorization Act for
Fiscal Year 1996.


                                              8
exhibit 53, which is a table of basic information about each major IT
investment. Section 53 also requires the submission of Privacy Impact
Assessments (PIA), one of the studies we have included in our audit.

      Circular A-11’s Part 7, Section 300, Planning, Budgeting, Acquisition,
and Management of Capital Assets, requires agencies to provide an IT
Capital Asset Plan and Business Case (exhibit 300) for each major IT
investment that is included in the portfolio. This part also generally
establishes policy for planning, budgeting, acquiring, and managing federal
capital assets, and provides instructions on budget justification and reporting
requirements for major information technology investments. Each exhibit
300 is required to contain information demonstrating compliance with OMB’s
CPIC policies and with OMB Circular A-130 and E-Gov related policy
memoranda. Agencies justify new or continued funding for major
acquisitions by demonstrating on exhibits 300:

   •   a direct connection to the agency’s strategic plan,

   •   a positive return on investment for the selected alternative,

   •   sound acquisition (program and procurement) planning,

   •   comprehensive risk mitigation and management planning,

   •   realistic cost and schedule goals, and

   •   measurable performance benefits.

In addition, agencies are expected to document detailed information
substantiating the portfolio of major investments in accordance with the
agency’s capital programming process.

      The OMB’s Capital Programming Guide, Supplement to OMB
Circular A-11, Part 7, Planning, Budgeting, and Acquisition of Capital Assets,
June 2006, contains more detailed guidance to federal agencies about
practices and lessons learned for more efficient project and acquisition
management of capital assets. It integrates various statutory and
management initiatives into a single, integrated capital programming
process to ensure that capital assets successfully contribute to the
achievement of agency strategic goals and objectives. Its purpose is to
assist federal agencies in planning, procuring, and using capital assets to
achieve the maximum return on investment.


                                       9
      Additionally, numerous laws and standards exist regarding specific
financial systems, system security, enterprise architectures, electronic
access, and data quality. Because these standards focus on specific system
requirements rather than on IT planning and evaluation processes, we did
not use these as the basis for determining IT planning and evaluation
requirements, and they are not included in this report.

Department Standards

      The Department has implemented a number of standards that define
IT processes and result in studies, plans, and evaluations. DOJ
Order 2880.1B, Information Resources Management Program,
September 2005, establishes the CIO’s authority for issuing
Department-wide IT policies, standards, and guidelines, and for reviewing
and evaluating the performance of IT programs and projects.

       The Department’s Guide to the DOJ Information Technology
Investment Management (ITIM) Process (ITIM Guide), August 2001,
implemented the capital planning and investment control process that was
required by the Clinger-Cohen Act. 14 The ITIM Guide integrates the
interrelated disciplines of strategic planning, performance planning, systems
life-cycle development, capital planning, security, architecture, and
acquisition planning, and program management. Intended to complement
the Systems Development Life Cycle process already in place, it defines
criteria for “major” information systems in the Department and specifies a
number of documents that should be produced as part of each phase of IT
management.

       The Department’s Systems Development Life Cycle (SDLC) Guidance
Document, revised January 2003, establishes life-cycle management
procedures, practices, and guidelines governing IT work within the
Department. The guidance is intended to be used for all of the Department’s
information systems and applications, but is also intended to allow flexibility
to suit the characteristics of particular development efforts. Tailoring
standards may be based on individual project cost, complexity, and criticality
to the agency’s mission. When a full sequential life-cycle pattern is not
appropriate, the SDLC offers alternate work patterns for smaller or more
limited efforts, such as implementing commercial-off-the-shelf (COTS)
products.

       14
          ITIM processes help identify needed IT projects, select new projects, and track
and oversee project costs and schedules.


                                            10
Component-Specific Standards

      Each of the Department’s components may establish its own life-cycle
guidelines as long as they are consistent with the Department’s standards.
For this audit, we found that the BOP, EOIR, and JMD use the Department’s
SDLC. The DEA and FBI developed their own life-cycle development
methodologies defining IT project management procedures and
documentation requirements – the DEA System Development Life Cycle
(DEA SDLC), March 2000, and the FBI Life Cycle Management Directive (FBI
LCMD), August 2005, which was first implemented in November 2004. 15

       The DEA SDLC closely follows the Department’s life-cycle guidance in
terms of the phases of development and documents described. The FBI
LCMD is a more recent methodology and more closely resembles elements of
the CPIC process. Some of the documents required by the FBI LCMD are
virtually identical to aspects of the Capital Asset Plan and Business Case
(exhibit 300) that is to be submitted to the OMB for each major IT
investment. Details about the requirements under each methodology for the
studies, plans, and evaluations included in this audit are found in the
detailed discussion of each document type in Finding 1. All of the
Department’s components included in this audit allow some variation within
their own IT development standards.

IT System Life-Cycle Concepts

      Projects can be expected to go through a process of identifying a
business need and alternative solutions for meeting the need, selecting the
best alternative, planning to acquire or build the solution, defining specific
requirements, and designing, building, testing, implementing, and evaluating
the implemented solution. The Department’s SDLC Guidance Document
describes 10 phases of IT work: initiation, concept development, planning,
requirements analysis, design, development, integration and test,
implementation, operations and maintenance, and disposition of information
systems within the Department. The SDLC specifies tasks and deliverables,
including planning documents, to be created for each of the phases.

       For different types of acquisitions and smaller-scope projects, the
life-cycle work pattern can be tailored to reduce the workload from a full
sequential work pattern. Tailoring the work pattern may include dropping

      15
         The U.S. Marshals Service (USMS) also developed its own SDLC, but there were
no USMS systems in the revised inventory used as the basis for this audit.


                                          11
requirements for specific tasks, studies, plans, and evaluations. The major
tasks and deliverables for each SDLC phase are summarized in Figure 3.

                              Systems Life Cycle Phases & Documents
Figure 3
    Phase                         Phase Description                                       Deliverables
                 When a business need or opportunity is identified,
Initiation       • the business need is documented in the Concept             Concept Proposal
                    Proposal.
                 Once the Concept Proposal is accepted:
                                                                              System Boundary Document
                 • approaches for accomplishing the concept are
System Concept                                                                Cost Benefit Analysis
                    reviewed for feasibility and appropriateness, and
Development                                                                   Feasibility Study
                 • the scope of the system is documented in the
                                                                              Risk Management Plan
                    System Boundary Document.
                 When senior officials have approved the Boundary             Acquisition Plan
                 Document and some funding:                                   Configuration Management Plan
                 • the concept is further developed to describe how           Quality Assurance Plan
                    the business will operate once implemented, and to        Concept of Operations
Planning            assess impacts.                                           System Security Plan
                 • budget, resources, activities, schedules, tools, and       Project Management Plan
                    reviews are defined.                                      Validation & Verification Plan
                 • system security requirements are identified and a          Systems Engineering Management
                    high level vulnerability assessment is completed.         Plan
                 • All requirements (functional, data, system                 Functional Requirements Document
Requirements        performance, security, maintainability) are               Test and Evaluation Master Plan
Analysis            formally defined to a level of detail sufficient for      Interface Control Document
                    systems design to proceed.                                Privacy Impact Assessment
                 •   Physical characteristics of the system are               Security Risk Assessment
                     specified.                                               Conversion Plan
                                                                              System Design Document
                 •   Detailed logical specifications are prepared.
                                                                              Implementation Plan
Design           •   Operating system environment is defined.
                                                                              Maintenance Manual
                 •   Major subsystems, inputs & outputs are defined.          Ops/System Administration Manual
                 •   Subsystems are partitioned into design units or          Training Plan
                     modules.                                                 User Manual
                 •   Detailed specifications are translated into              Contingency Plan
                     hardware, communications, and software                   Software Development Document
Development          programs.                                                System Application Software
                 •   Software is unit tested, integrated, and retested.       Test Files/Data
                 •   Hardware is assembled and tested.                        Integration Document
                                                                              Test Analysis Report
                 •   All components of the system (hardware, software,
Integration &                                                                 Test Analysis Approval Determination
                     interfaces, operators, users, etc.) are integrated and
Test                                                                          Test Problem Report
                     tested.
                                                                              Security Certification & Accreditation
                                                                              Delivered System
                 •   The system is installed and made operational in a        Change Implementation Notice
Implementation
                     production environment.                                  Version Description Document
                                                                              Post-Implementation Review




                                                       12
    Phase                               Phase Description                                   Deliverables
                       The operation is ongoing and continues as long as the
                       system can be adapted effectively to respond to needs.
                       • The system is monitored for continued
Operations &                                                                    In-Process Review Report
                            performance with requirements.
Maintenance                                                                     User Satisfaction Review Report
                       • Modifications are incorporated; the system may re-
                            enter planning phase when modifications are
                            identified as necessary.
                       Phase ensures the orderly termination of the system
                       and preserves system data and information about the      Disposition Plan
Disposition            system.                                                  Post-Termination Review Report
                       • Data are migrated effectively to another system or     Archived System
                            archived for future access.
Source: Department of Justice Systems Development Life Cycle Guidance Document, January 2003

      The Department’s ITIM process describes three phases: Select,
Control, and Evaluate. The DOJ ITIM Guide also defines major tasks and
deliverables associated with each of the three phases. The tasks and
deliverables focus on the investment management process in the
Department, rather than on the details of each system or project. There is
some overlap between the SDLC and ITIM tasks and deliverables, but they
do not precisely coincide because the focus of each is different. The ITIM
phases and deliverables are summarized in Figure 4.

                                                 DOJ ITIM Process
Figure 4
              Phase                        Phase Description                       Selected Deliverables
                                                                         Concept Proposal
                                    Concept Development
                                                                         Business Case Analysis
                                    Business Case Analysis &             Initial Project Plan
              Select
                                    Investment Proposal Development
                                                                         IT investment portfolio
                                    Portfolio Prioritization/Budgeting   Annual briefing to CIO
                                                                         Budget submission
                                                                         Project Management Plan
                                                                         Acquisition Plan
                                    Project Planning                     Baseline milestones and measures
                                                                         Earned value management system (EVMS) &
                                                                         work breakdown structures (WBS) with
                                                                         corresponding reporting mechanisms

           Control                  Acquisition and Development          Executed contract
                                                                         Progress reports
                                                                         Periodic executive reviews/portfolio
                                                                         assessments
                                                                         Updated project documentation
                                    Deployment
                                                                         Periodic reviews to executives
                                                                         Operational system successfully deployed


                                                           13
        Phase                  Phase Description                    Selected Deliverables
                                                          Post Implementation Review Reports
                         Management-In-Use
                                                          Periodic Operational Analysis Reports
        Evaluate                                          User Survey Results
                         Retirement Planning & Disposal
                                                          Asset Disposal and Data Conversion Plan
Source: DOJ ITIM Guide

      Both the SDLC and ITIM tasks and deliverables generally follow the
progression of IT projects chronologically. Under both, studies and research,
such as alternatives analyses, feasibility studies, risk analyses, and market
research for possible solutions are performed early in the life of a system as
the basis for selecting the best alternative and preparing the business case
for the project. Major plans of all types, such as project management plans
and quality assurance plans, are developed after the selected approach has
been authorized. Post-implementation reviews, in-process review reports,
and user satisfaction reviews are types of evaluations that occur after an IT
system has been implemented or a project has been terminated. We used
this chronological approach to identify and organize the studies, research,
plans, and evaluations that are addressed in this audit.

       This chronological approach is qualified by the evolutionary nature of
the entire life-cycle process. As projects evolve to become more defined
over time, plans should also become more defined. The life cycle of
identifying business needs, selecting best alternatives, determining which IT
investments should be added to and continued in the Department’s portfolio,
acquiring and building solutions, and evaluating the results is intended to be
iterative and ongoing. Both the SDLC and ITIM require multiple iterations of
various documents, with updates as projects become more defined and
change over time. Both the SDLC and ITIM also require various types of
ongoing evaluations to occur regularly as decision points are reached during
the course of IT projects.

Audit Approach

      Our audit objectives were to: (1) identify all research, plans, studies,
and evaluations that the Department has produced, or is in the process of
producing, concerning IT systems, needs, plans, and initiatives; and
(2) analyze the depth and scope of the problems the Department has
experienced in the formulation of its IT plans.

      We identified relevant federal, Department, and component-specific
requirements and standards for IT research, studies, plans, and evaluations,
and merged the various standards into a generic set of requirements and

                                              14
standards. We requested and obtained documents from the components
related to 38 major Department IT projects listed in our inventory, and
assessed compliance with the document standards for the major systems in
the inventory.

      For this audit report, we focused specifically on studies and research
that justified the selection of investments in the revised inventory of major
IT systems and projects, plans that were developed after the investments
were authorized, and evaluations that were performed after systems were
implemented. We did not request every document specified by the DOJ
SDLC or ITIM Guide, such as early plans that were developed before projects
received authorization (system boundary documents) and specification and
design documents. 16

      To evaluate problems the Department has experienced in planning, we
reviewed relevant audit and inspection reports, extending the scope of our
audit work to several systems and projects that were not included in the
inventory of major systems. We analyzed these evaluations for information
about problems the Department has experienced in formulating IT plans.




       16
           Although a case can be made that all these documents are planning documents,
it was not feasible in the course of one audit to assess entire documentation libraries for
multiple projects.




                                            15
                  FINDINGS AND RECOMMENDATIONS


Finding 1: Studies, Plans, and Evaluations

       With respect to the 38 major IT systems examined in this
       phase of the review, components submitted 494 documents
       we categorized as “studies, plans, and evaluations.” Some
       systems had up to 30 associated planning documents, while
       others had as few as 2. While many of the documents
       specified in various federal, Department, and component-level
       IT development standards were produced, significant gaps
       existed between the suggested studies, plans, and evaluations
       and what components prepared for individual projects. For
       example, components developed few post-implementation
       evaluations of how the systems performed and what lessons
       were learned during development of the system. Moreover,
       the OIG found that the standards for preparing studies, plans,
       and evaluations as part of the IT development process come
       from a variety of different sources that overlap, duplicate
       effort, and may prove cumbersome.

Inventory of Studies, Plans, and Evaluations

      To identify specific IT research, studies, plans, and evaluations, we
interviewed Department officials and reviewed the guidelines described in
the Introduction to this report. We used the guidelines listed in Figure 5 as
the basis for requesting specific studies, plans, and evaluations of IT needs,
opportunities, projects, and systems. Each of the guidelines in Figure 5 is
described in the Introduction to this report.




                                      16
                           Guidelines for IT Studies, Plans, and Evaluations
Figure 5

                               Guideline and Date                                   Applies to


DOJ Systems Development Life Cycle Guidance Document, revised 2003             Department of Justice


Guide to the DOJ Information Technology Investment Management (ITIM)
                                                                               Department of Justice
Process, August 2001

DOJ Order 2880.1b, Information Resources Management Program, September
                                                                               Department of Justice
2005


OMB Circular A-11, Preparation and Submission of Budget Estimates, June 2005   All Federal agencies


                                                                                Drug Enforcement
DEA Systems Development Life Cycle Guidance Document, March 2000
                                                                                 Administration

                                                                                Federal Bureau of
FBI Life Cycle Management Directive, revised August 2005
                                                                                  Investigation
Sources: Department of Justice components

      We used the DOJ SDLC as the primary criterion to identify the studies,
plans, and evaluations that should be prepared when developing and
implementing IT projects. The standards use various names for documents
and organize the information differently. For this report, we combined the
various specific standards into a generic set of studies, plans, and
evaluations that could be applied to all of the IT systems and projects in our
inventory. Because we found little research documented outside of the OMB
exhibit 300, we included “research documents” under the category of
“studies.”

       We requested specific documents directly from each of the
components because the CIO’s office did not maintain major documents
produced for component-specific systems. OCIO officials told us that
Department oversight is designed to focus on the Capital Planning and
Investment Control process for selecting and prioritizing IT investments. It
is not designed to enforce policies and procedures on IT project
documentation. 17 Department-level oversight of individual IT projects is
performed through presentations to the Departmental Investment Review

           17
                The CIO does have specific responsibilities to enforce security standards.


                                                    17
Board, the CIO’s Dashboard report, and through the OMB exhibit 300s, all of
which are described in the second report in this series. This oversight
includes tracking of actual performance against scheduled milestones and
costs, but does not involve JMD officials in the details of IT documentation
for individual projects.

       In addition to requesting specific documents, we also asked the
components to provide any additional documents they had prepared that
would qualify as IT studies, research, plans, or evaluations. We requested a
slightly different list of documents from the FBI than from the other
components because some of the FBI’s LCMD standards varied somewhat
from the standards being used by the other components. The variations for
different components are described later in the report in the discussion of
each document type. We found that the standards for preparing studies,
plans, and evaluations as part of the IT development process come from a
variety of different sources that overlap, duplicate effort, and may prove
cumbersome.

       We combined the various specific requirements from each guideline
into the following generic set of criteria for studies, plans, and evaluations
that we could apply to all of the IT systems and projects in our inventory.
Figure 6 lists the generic set of documents we requested. All of the
documents listed below are applicable to each IT system or project with the
exception of an IT strategic plan, which is required for the Department but
optional for components.




                                      18
                       Studies, Plans, and Evaluations Requested
             Figure 6
              • Business case studies
              • Market research
              • Alternatives analyses
              • Feasibility studies
              • Cost benefit analyses
              • Privacy impact assessments
              • IT strategic plans
              • Risk management plans
              • Acquisition plans
              • Project management plans
              • System security plans
              • Systems engineering management plans
              • Configuration management plans
              • Quality assurance plans
              • Validation and verification plans
              • Test plans
              • Conversion plans
              • Implementation plans
              • Training plans
              • Contingency & continuity of operations plans
              • Disposition plans
              • Test reports
              • Ongoing reviews of project status and earned value management
              • Post-implementation review reports
              • Any other IT-related research, plans, studies, and evaluations the
                  component performed or sponsored
             Source: OIG compilation of standards

       Department components submitted more than 800 documents and
other evidence that we accepted as responsive in some way to our requests.
Of these responses, 494 were complete documents representing studies,
plans, and evaluations. The responses also included other products or
artifacts of the system acquisition and development process. Artifacts
included items such as briefing slides, spreadsheets showing schedules and
work breakdown structures, portions of the OMB exhibit 300, and various
forms of progress reports. We included other artifacts in this report to the
degree that they contributed to compliance with the various standards for
documentation.

     A detailed listing of the studies, plans, and evaluations we obtained for
each project is located in Appendix VI of this report, along with a short
summary about the project. Appendix V lists all documents and other

                                             19
artifacts we determined contributed to compliance with the various
standards. The numbers include some duplicate counting of single
documents because components sometimes submitted one document to
fulfill more than one category.

       The components cited several reasons for not providing all of the
documents we requested. Specifically, components said: (1) the
requirement was not applicable to the investment; (2) a waiver to the
requirement had been granted; (3) planning for the system pre-dated
FY 2000 and the documentation was not available; (4) the system was
purchased commercially off-the-shelf eliminating the need for certain
processes; and (5) the investment had not reached the applicable point in
the life cycle.

      Figure 7 shows the number of documents we received that we
determined to be responsive to our document request for each system or
project.




                                    20
                      DOJ IT Studies, Plans & Evaluations Received
         Figure 7
                                                           Studies, Plans, &
           Components           Systems & Projects
                                                             Evaluations
               ATF                     NIBIN                 17
               BOP                      ITS II               11
               DEA                    Concorde               15
               DEA                     E Com                 18
               DEA                        EIS                20
               DEA                     Firebird              14
               DEA                      M204                  8
               DEA                     Merlin                14
              EOIR                     eWorld                 9
                FBI                    BRIDG                  4
                FBI                  CARTSAN                 11
                FBI                    CODIS                  7
                FBI                      DCS                 15
                FBI                      DCU                  6
                FBI                    EDMS                  16
                FBI                    FTTTF                  6
                FBI                     IAFIS                24
                FBI                      IATI                18
                FBI                      IDW                  5
                FBI                      LEO                  9
                FBI                     NCIC                 19
                FBI                    N-DEx                  6
                FBI                      NGI                 11
                FBI                     NICS                 16
                FBI                    R-DEx                  5
                FBI                    SCION                  4
                FBI                   Sentinel               11
                FBI                     SMIS                 21
                FBI                      TRP                  2
                FBI                      TSC                  8
               JMD                       CITP                27
               JMD                       IWN                 23
               JMD                      JCON                 27
               JMD                     LCMS                   6
               JMD                        PKI                15
               JMD                     UFMS                  18
              ODAG                       OFC                 16
               OJP                      JGMS                 12
                                            TOTAL           494
        Source: Documents submitted by DOJ components in response to the
        OIG’s request

      Two comprehensive IT plans for the Department are required by OMB
standards: the Department’s IT Capital Plan and IT Strategic Plan. The IT
Capital Plan, Agency IT Investment Portfolio (exhibit 53), was described in
the second report in this series of three audits, as it represents the

                                          21
Department’s inventory of major IT investments. The Department’s IT
Strategic Plan and the component plans are described below. All other
documents under the section “Studies, Plans, and Evaluations” are standards
associated with each system or initiative.

The Department of Justice IT Strategic Plan

      OMB Circular A-130, Management of Federal Information Resources,
requires that federal agencies maintain strategic plans for information
resources management. According to OMB, the plans should: (1) support
the agency’s Strategic Plan and (2) provide a description of how information
resources management activities help accomplish agency missions and
ensure that IT decisions are integrated with organization planning, budget,
procurement, financial management, human resources management, and
program decisions. DOJ Order 2880.1B, Information Resources
Management Program, September 27, 2005, assigns responsibility to the
CIO for developing, maintaining, and implementing the Department’s IT
Strategic Plan, and requires that it be aligned directly with the Department’s
Strategic Plan.

      The Department of Justice Information Technology Strategic Plan for
2006 – 2011, June 2006, is designed to align IT strategic goals with the four
strategic goals in the Department’s Strategic Plan:

•   prevent terrorism and promote America’s security;

•   enforce federal laws and represent the rights and interests of the
    American people;

•   assist state, local, and tribal efforts to prevent or reduce crime and
    violence; and

•   ensure the fair and efficient operation of the federal justice system.

       To help the Department accomplish its goals, the IT Strategic Plan sets
out five specific IT goals:

    •   enable the mission through information sharing,

    •   enable the mission through federated solutions,

    •   support effective and efficient use of IT resources,


                                        22
   •   provide common resilient and secure infrastructure, and

   •   leverage common administrative solutions.

      The IT Strategic Plan provides objectives for each goal and strategies
for each objective. The IT goals, objectives, and strategies are intended to
guide the technology capabilities toward specific outcomes. The Plan also
introduces performance strategies as a means of measuring the
Department’s performance of objectives. The performance objectives
describe, at a high level, the expected performance, while specific metrics
are developed for each investment. Further, there is at least one
performance measurement defined for each objective.

      We reviewed the Department’s IT Strategic Plan for compliance with
the requirements stated in OMB Circular A-130. We found that the IT
Strategic Plan supported the Department’s Strategic Plan and that it
contained the required description of how information resources
management activities help accomplish agency missions and ensure that IT
decisions are integrated with organization planning, budget, procurement,
financial management, human resources management, and program
decisions.

Component IT Strategic Plans

      DOJ Order 2880.1B, Information Resources Management Program,
allows, but does not require, components to develop their own IT strategic
plans. It also requires component-specific IT strategic plans to reflect and
be aligned with the strategies in the Department’s IT Strategic Plan.

      Five of the eight components included in this audit have developed
component-specific IT Strategic Plans (ATF, BOP, DEA, EOIR, and FBI).
Those IT Strategic Plans are listed in Appendix III. The Department’s IT
Strategic Plan was prepared by JMD.

      We reviewed the IT Strategic Plans for the five components to evaluate
compliance with the requirement that they be aligned with the Department’s
IT Strategic Plan. We found that the component IT Strategic Plans are
generally consistent with the Department’s Plan.

      While a strategic plan is required at the Department level and
components have the flexibility to develop their own strategic plans, most
standards that exist related to IT studies, plans, and evaluations are
applicable to individual IT systems and projects rather than to the

                                      23
Department or its components. The following sections on studies, plans, and
evaluations focus on the standards that apply to individual systems and
projects.

IT System and Project Documents

      This section presents a summary of what we obtained from
components by type of document, along with a discussion of the specific
standards for studies, plans, and evaluations. 18 Our approach for discussing
documents in this section is generally chronological, following documents as
they are produced during the development of an IT project.

       We applied each document type discussed below as a test of
compliance for studies, plans, or evaluations. We also assigned unique
numbers to individual documents and artifacts. We prepared a matrix
identifying the individual documents and artifacts we determined were
responsive to our requests for studies, plans, and evaluations. Appendix IV
contains the matrix of document types and systems, with identifying
numbers representing individual documents that met each standard.
Appendix V lists individual documents in numerical order to match with
items in the matrix.

        Determining compliance with the standards for studies, plans, and
evaluations was complicated by variations in criteria and the long duration of
many projects coupled with the fact that criteria changed over time.
Determining compliance was further complicated because the components
allow waivers or tailoring of the standards for each project, depending on the
nature of the project. We agree that flexibility and tailoring are reasonable.
As we could not perform 38 individual audits for each of the systems and
initiatives in the inventory, we are providing the following discussion of
compliance in terms of whether the components provided documents in a
consistent manner with the generic standards we used. It was not our
intent to suggest that any individual project was out of compliance at any
given time, since almost no document is absolutely required. Instead, our
intent was to examine how consistently the components produced certain
documents specified by various criteria.




       18
          This is not intended to be a comprehensive discussion of all phases or activities
associated with IT projects and systems, but focuses on the tasks and documents
associated with research, studies, plans, and evaluations.


                                             24
       Business case studies, system security plans, and PIAs are all required
by criteria other than the Department’s SDLC or the FBI’s LCMD.
Components must obtain funding for IT projects through the OMB exhibits
300, which summarize the business case, must provide system security
plans in order to obtain authorization from Departmental IT security
authorities to begin operating a system, and must abide by privacy laws by
completing PIAs.

      We found the highest levels of compliance in the areas of business
case documents, which become part of the Department’s annual budget
process and are required to obtain funding for each system or project, and
system security plans, which are required for projects to obtain the
Department’s authorization to operate. The components provided at least
one business case document for 36 of the 38 systems in the inventory. The
two exceptions, the FBI’s Investigative Data Warehouse (IDW) and Secure
Compartmented Information Operational Network (SCION), are included in
an “umbrella” business case that represents the Department’s consolidated
enterprise infrastructure (CEI). The business case document represents the
single document type for which we found 100 percent compliance.

       System security plans also had a high level of compliance and we
obtained security plans for 32 of the 38 projects. The six other projects
were either too early in the life cycle for preparation of this document, or a
draft security plan was undergoing review. Components also demonstrated
a high level of compliance with PIAs, and we found acceptable explanations
for the projects that did not submit a PIA. Components also provided
project management plans for 29 of the 38 projects, and explained all but
one of those exceptions.

       However, we found compliance in the areas of systems engineering
management, configuration management, quality assurance, validation and
verification, and training plans was significantly lower.

      The discussion in this section includes the numbers of whole
documents we obtained that represented studies, plans, and evaluations. In
the compliance matrix, Appendix IV, we included other artifacts that were
submitted in lieu of, or in addition to entire documents.




                                      25
Studies

      Studies required by the various standards for IT activities and
documents associated with each IT system or project are generally
performed early in the life cycle of an IT project to identify and evaluate
possible alternative solutions to meet a business need. 19 The studies include
market research, alternative analyses, feasibility studies, cost-benefit
analyses (or benefit-cost analyses), risk analyses, and PIAs. 20

      While the Department and DEA SDLCs specify separate documents for
these studies, the FBI LCMD groups all except the PIAs into a business case
document that is a virtual image of the business case section of the OMB
exhibit 300 required to be submitted as part of the Department’s budget.
For reporting purposes, we organized the studies into groups called
market/other research, business case studies, and PIAs.

        As we conducted our audit, we became aware of a study that did not
fit into the categories below that is related to a case management/common
solution architecture for the Department. The 2004 study, sponsored by the
CIO and performed by a contractor, is being used as the basis for JMD’s
LCMS project. 21

Market and Other Research

       The only type of research mentioned in various criteria for IT
documentation is market research. The DOJ ITIM Guide specifies market
research through reference to the OMB exhibit 300, Capital Asset Plan and
Business Case. Item 1.A. of section I.E., Alternatives Analysis, of the exhibit
300 instructs agencies to discuss the market research that was conducted to
identify innovative solutions for the investment. OMB’s Capital Programming
Guide indicates that federal agencies should conduct market surveillance and
research to ensure that as many alternative solutions as possible are

       19
           We grouped various documents into the category of “studies” based on the idea
that a study would be a product of attempts to acquire knowledge or understanding of a
subject.
       20
           Privacy impact assessments (PIA) are performed later in the life cycle, after an
alternative solution has been selected. The Department’s SDLC places the PIA as a
deliverable of the requirements analysis phase.
       21
          The MITRE Corporation, Common Solution Architecture for Case Management
(the Current State), Technical Report, April 2004.


                                             26
identified for consideration once an agency need has been identified. It lists
announcements, requests for information, or requests for proposals to solicit
information on alternative concepts from a broad base of qualified firms. It
also states that emphasis should be placed on solutions that are currently
available and do not require significant development in order to minimize
risk.

       While market research is the only type of research specifically
identified in the exhibit 300, we asked components to identify and provide
any other research that had been performed in connection with their planned
IT projects. Components told us there was virtually no additional IT-related
research being conducted separate from the market research that is
performed as part of building a business case for a system.

      We requested market research from all components except the FBI
because the FBI’s LCMD does not specify market research independent of
the business case.

       Components provided 16 documents reflecting market research related
to 11 of the 17 total non-FBI projects. Of the market research documents
we received, the assessments included market research reports for DEA’s
Firebird and JMD’s IWN and LCMS projects, requests for comment or
information for the BOP’s ITS-II and JMD’s JCON, a summary report of
vendor responses for JMD’s UFMS, two comparative analyses of other federal
systems for the ODAG’s OFC, a report on public key infrastructure
possibilities for the DEA’s eCommerce project, and a report on digital audio
recording alternatives for the EOIR’s eWorld project. We obtained seven
other artifacts related to market research for three projects which had also
submitted documents we accepted as studies.

      The 16 studies included in this discussion were separate from
responses to the market research section of the Capital Asset Plans and
Business Cases (OMB exhibits 300). Information included in the Capital
Asset Plan and Business Case generally indicates that some market research
was performed to help identify potential solutions. Six non-FBI systems
were not represented by market research studies apart from the OMB
exhibits 300. These six were NIBIN, Concorde, E-Commerce, M204, Merlin,
and JGMS. Like the FBI projects, these six projects submitted OMB exhibits
300.




                                     27
Business Case Studies

       When managers decide that a system concept is worth developing
further, work is performed to identify and evaluate alternative solutions.
This item reflects studies performed to support the selection of a project or
system and includes the following type of analyses that are frequently
combined in one or two documents:

    •   alternatives analyses,

    •   feasibility studies,

    •   cost benefit analyses (also called benefit cost analyses), and

    •   risk analyses.

     The Department SDLC and FBI LCMD standards vary considerably in
terms of where certain types of information for these analyses should be
found, but the basic information required is similar between standards. The
Department and DEA SDLCs specify preparing the following:

•   A feasibility study that should provide an overview of the business
    requirement and determination if solutions exist that are technically,
    economically, and operationally feasible. The feasibility study should
    describe and evaluate alternative solutions. The feasibility study may be
    documented as a separate document or as part of the cost benefit
    analysis.

•   A cost-benefit analysis that uses the results of the feasibility study as the
    basis for evaluating the costs and benefits of the candidate solutions.
    The cost benefit analysis should additionally include a statement of
    assumptions made describing the present and future environment on
    which the analysis is based, constraints (external factors that may affect
    the effort), the presentation of nonrecurring and recurring costs, and an
    analysis of expected tangible and intangible benefits. 22 The alternative
    solutions evaluated should then be compared using return on investment
    concepts.



        22
           Tangible benefits are expressed in dollars or units, such as dollars saved from
streamlining transactions and saved time. Intangible benefits are normally related to
mission improvements that may be difficult to quantify.


                                             28
      The DOJ ITIM Guide specifies a business case analysis that reflects the
requirements for the Capital Asset Plan and Business Case (OMB exhibits
300) to summarize the results of:

•   developing and evaluating alternatives;

•   assessing the relative risks and mitigation strategies;

•   performing a return on investment (ROI) analysis, including a benefits
    cost analysis;

•   developing performance measures and indicators;

•   addressing security and privacy issues; and

•   selecting the best alternative based on ROI, risk mitigation, benefits cost
    analysis, and other performance measures.

      The FBI LCMD specifies an initial and a final business case that is
virtually identical to the requirements for the OMB exhibit 300.

      This audit generally reports on documents the components provided in
response to our requests for specific documents. One exception to this is for
business case studies. Some components submitted the OMB exhibit 300,
Capital Asset Plan and Business Case, in response to this request, but many
did not. Therefore, we obtained a number of additional exhibits 300 from
other sources and have credited them to this test regardless of how the
component responded to the document request.

      Overall, we obtained 46 documents we categorized as a business case
study, including at least one for 36 of the 38 systems or projects. The 46
business case studies include multiple documents for 9 projects. Several
components submitted more than one OMB exhibit 300, representing
multiple budget years, but we counted multiple OMB exhibits 300 for each
project as one document. Additional studies we obtained included
Alternatives Analyses and Cost Benefit Analyses.

      We did not receive a business case study for the FBI’s Investigative
Data Warehouse (IDW) or Secure Compartmented Information Operational
Network (SCION) projects because they are included in an OMB exhibit 300
for the “comprehensive enterprise infrastructure” for the Department.



                                       29
      Additionally, we obtained more than 70 other artifacts related to
business cases, including feasibility statements, mission needs statements,
concept of operations documents, and cost benefit analysis spreadsheets.

      Overall, we found the highest level of compliance with standards in the
area of business case studies. The budget requirement for the OMB exhibit
300 undoubtedly contributes to the high level of compliance, as the case
study is needed to obtain funding as part of the budget process.

Privacy Impact Assessments

      PIAs are required by DOJ Order 2880.1b to ensure the Department
reviews the potential impacts on individuals’ privacy concerns that may
result from the development and use of computer-based information
systems that collect or store personal data about individuals. All
components are required to conduct a PIA for any new information system
that contains sensitive information about individuals, uses new techniques to
manipulate existing data about individuals in a way that such data is readily
retrievable, or collects and maintains personal information about individuals
that has not previously been collected and maintained by the component.
JMD is responsible for enforcing compliance with this policy through the
Department’s ITIM process.

      The DOJ ITIM Guide instructs components to address privacy issues in
developing the business case, in preparing the Capital Asset Plan and
Business Case, and when preparing a disposal plan. The DOJ and DEA
SDLCs require the PIA to be performed as part of the requirements analysis
phase of a system’s life cycle.

      The DOJ SDLC defines a PIA as a written evaluation of the impact that
the implementation of the proposed system would have on privacy.
Guidance for preparing a PIA is provided on the Department’s intranet, and
consists of a list of questions to be answered about data in the system and
the impact of the system on privacy. The assessment begins with a privacy
threshold analysis to determine whether there is a need for a full PIA for
each system.

      Compliance with the PIA requirements appears consistent. We
obtained 33 PIAs and privacy threshold analyses for 23 of the 38 systems
and projects in the revised inventory, with some components submitting
separate PIAs for different functions or modules of a system. PIAs were not
required for every project. The threshold analyses for NIBIN and PKI
determined there was no need for a full PIA for those systems, and we

                                     30
obtained an initial or full PIA for the other 21 of the 23 systems and
projects.

      We did not obtain PIAs or threshold analyses for 15 systems or
projects. DOJ Order 3011.1A, Compliance with the Privacy Requirements of
the Privacy Act, the E-Government Act, and the FISMA, March 6, 2007,
states that PIAs identifying how information in identifiable form is collected,
stored, protected, shared, and managed in an IT system or online
information collection are required when developing or procuring new
technology or making substantial modifications to existing technology. This
would exempt older systems that have not undergone significant
modification in the way described. Although the scope of this audit did not
include evaluating information about modifications to all of the older systems
in the inventory, this order would appear to exempt 7 of the remaining 15
systems: the DEA’s M204 corporate systems, the FBI’s DCU, IAFIS, LEO,
NCIC, NICS, and R-DEx.

      The DEA responded that a PIA was too broad for the infrastructure
project Firebird and not applicable to Merlin, which is also an infrastructure
project. The FBI told us that the PIAs for the FTTTF and TSC existed, but did
not provide them to us. We did not obtain PIAs or explanations for the FBI’s
IDW or TRP. The TRP is, however, at the beginning of its life cycle and is not
yet at the phase of the FBI’s LCMD that requires a PIA. JMD told us that the
PIA for IWN was not completed yet, and OJP responded to this item for the
JGMS with its certification and accreditation plan of actions and milestones.

Plans

      The plans specified by the DOJ and DEA SDLCs for each IT system or
project include many types of plans that are developed after an alternative
solution has been selected. These plans include:

   •   risk management,
   •   acquisition,
   •   project management,
   •   system security,
   •   systems engineering management,
   •   configuration management,
   •   quality assurance,
   •   validation and verification,
   •   test,
   •   conversion,
   •   implementation,

                                      31
   •   training,
   •   contingency, and
   •   disposition.

The FBI LCMD also requires many of the same plans, but uses different
names for some. Each of the differences is described below.

Risk Management Plans

      The SDLCs specify risk management plans to be prepared during the
system concept development phase, along with the feasibility and cost
benefit studies. The risk management plan documents the results of
assessing and planning to manage programmatic and technical risks of the
system or project. The plan should identify and assess risks, and detail the
strategies that will be employed to mitigate the risks.

      The DOJ ITIM Guide describes assessing risk as part of analyzing
alternatives, and reporting such risk assessment in the Capital Asset Plan
and Business Case (OMB exhibit 300). When completing the exhibit 300,
agencies are instructed to assess various risks, including those associated
with schedule, initial costs, life-cycle costs, technical obsolescence, risk of
monopoly, capability of the agency to manage the investment, overall risk of
investment failure, security, privacy, and project resources.

      Components provided 32 risk management plans for 25 of the 38
systems and projects. A number of components submitted the OMB exhibit
300 or other artifacts as their risk management plans. While the exhibit 300
contains information on risk management, it also requests the date of the
risk management plan, suggesting that an independent plan should exist.
We included artifacts, such as information from the OMB exhibit 300, in the
compliance matrix, but did not count these as a risk management plan.

      In addition to the OMB exhibits 300, other artifacts included risk
registers, which are spreadsheets listing risks and mitigation strategies, risk
analyses, and risk management sections of other documents, such as project
plans. The number of projects represented by either risk management plans
or other artifacts was 33 of the 38 projects. Five projects did not provide
any specific response to this request, but Firebird, IAFIS, NICS, and TRP all
submitted OMB exhibits 300 that included a risk management section.
SCION, the final system, is included in the Department’s consolidated
enterprise infrastructure OMB exhibit 300.



                                      32
Acquisition Plans

       The SDLCs specify preparation of an acquisition plan during the
planning phase of a system life-cycle. This plan should document how all
government resources and contractor support services will be acquired
during the life of the project. Acquisition plans are specified in the DOJ ITIM
Guide and also are included in the final business case under current FBI
standards. We did not request acquisition plans from the FBI, as FBI
officials told us the acquisition plans are in the business case. As is
discussed in the section on business case studies, the FBI was compliant
with business case studies. However, we did obtain two documents related
to acquisition planning for the FBI’s Sentinel project.

      Other components provided acquisition plans or some relevant
alternate documentation for 13 of the 17 non-FBI systems and projects in
the revised inventory. Alternate documentation included justification for
other than full and open competition and the acquisition section of Capital
Asset Plans and Business Cases, which summarizes the acquisition strategy.
We obtained OMB exhibits 300 for all of the other non-FBI projects that did
not provide separate acquisition plans. While the other components did not
suggest that the OMB exhibit 300 fulfilled the requirement for an acquisition
plan, we accepted them as such in order to ensure similar treatment to the
FBI projects. However, we do not identify this as an area of high compliance
because the OMB exhibit 300 clearly expects that components will develop a
separate acquisition plan.

Project Management Plans

       The SDLCs indicate that project management plans should be prepared
for all projects. The plans are intended to document project scope, tasks,
schedule, allocated resources, and interrelationships with other projects.
The plans also provide details on the involved functional units, required job
tasks, cost and schedule performance measurement, and milestone and
review scheduling. Revisions to the project management plan should occur
at the end of each phase and as information becomes available. The project
management plan should reflect the entire scope of what is to be
accomplished. Project management plans are also specified in the DOJ ITIM
Guide.

      Components provided 44 project management plans for 29 systems
and projects, and 42 other artifacts representing 28 projects, together
representing a total of 31 of the 38 projects. We included artifacts in the


                                      33
compliance matrix in Appendix IV. Common artifacts submitted in relation
to this plan were schedules of tasks and work breakdown structures.

      We did not obtain project plans or relevant artifacts for seven projects,
four of which predated the FBI’s implementation of its LCMD (IAFIS, LEO,
NICS, and R-DEx). We did not receive an explanation for why no project
management plans for the FBI’s SCION and TRP were provided. In addition,
the ATF waived compliance to the SDLC for its NIBIN system “due to the
nature of the contract and special contractual constraints whereby the
Contractor provides for 100% of the necessary customer support and
maintenance support required to install, configure, implement and sustain all
IBIS systems (hardware and software).”

System Security Plans

       The various business and law enforcement functions within the
Department depend on the confidentiality, integrity, and availability of
systems and data. The DOJ SDLC specifies that system security plans
should contain information about the system environment, information
sharing, sensitivity of information processed, management controls, security
controls, operational controls, contingency planning, security training, audit
trails, and access controls.

       The Department requires that all IT systems pass a security
Certification and Accreditation process that is intended to ensure the
adequacy of computer system security. Security plans and successful
security test results are needed to obtain the Department’s authorization to
operate. This likely ensures that system security plans and related security
tests are among the most reliably prepared documents in the IT
development process.

       Components provided 40 system security plans and 33 other relevant
artifacts for 32 systems. Included as artifacts in the compliance matrix in
Appendix IV are items such as security sections of project management
plans, authorizations to operate, and other artifacts of the certification and
accreditation process. Of the six projects not represented here, the FBI and
JMD told us the plans for NGI, Sentinel, and LCMS did not yet exist, which
was reasonable given the status of the projects at the time of our field work.
We were also informed that the draft security plan for the FTTTF was being
reviewed at the time of our field work. We did not obtain a plan or an
explanation from the FBI regarding the BRIDG or TRP projects. Overall, we
found compliance with this system security standard extremely high.


                                      34
Systems Engineering Management Plans

       According to the Department’s SDLC, the systems engineering
management plan (SEMP) should be developed during the planning phase of
IT project development. The SEMP is intended to document the strategy for
executing the technical management aspects of the project, and should
include information about responsibilities for the technical effort, technical
processes, and procedures to be applied. It should address control
strategies for data management, technical performance measurement,
interface management, and formal and informal technical reviews. The FBI’s
LCMD also specifies SEMPs.

      In response to our request, components provided only 11 SEMPs and 6
relevant artifacts for 13 projects. Components did not submit items we
accepted as SEMPs for 25 of the 38 IT projects. In addition to the NIBIN
contract waiver, components told us the SEMPs had not yet been developed
or were not applicable for their projects. Others submitted project
management plans or concept of operations documents to meet this
requirement, but we did not accept the brief descriptions included in these
documents for this test.

Configuration Management Plans

      According to the DOJ SDLC, configuration management plans
document uniform practice for managing system software, hardware, and
documentation changes throughout a development project. The FBI LCMD
also specifies configuration management plans.

      Components provided 28 configuration management plans and 5
related artifacts for 26 projects. The 12 projects not submitting
configuration management plans were NIBIN, ITS-II, BRIDG, CODIS, DCU,
FTTTF, IDW, N-DEx, R-DEx, TRP, TSC, and OFC. In addition to the NIBIN
contract waiver, component explanations for not submitting this item
included that the documents had not yet been developed or the standard
was not applicable. 23




       23
           It was beyond the scope of this audit to determine what was appropriate for each
project for every type of study, plan, or evaluation that may be prepared for individual
projects.


                                            35
Quality Assurance Plans

      The DOJ SDLC indicates the purpose of quality assurance plans is to
ensure that delivered products satisfy contractual agreements, meet or
exceed quality standards, and comply with approved processes. The plans
should include an overview of the processes to ensure that processes and
products associated with hardware, software, and documentation are
monitored, sampled, and audited to ensure compliance with methodology,
policy, and standards.

      Components provided 17 quality assurance plans for 16 projects. 24
We included 12 other relevant artifacts for 5 projects in the compliance
matrix, representing a total of 20 projects. No quality assurance plans or
related artifacts were obtained for 18 of the 38 projects. The 18 projects
were: NIBIN, ITS-II, BRIDG, CODIS, DCS, DCU, EDMS, FTTTF, IDW, LEO,
NCIC, N-DEx, R-DEx, SCION, TRP, TSC, CITP, and JGMS. In addition to the
NIBIN contract waiver, component explanations for not submitting this item
included that the documents had not yet been developed, were not
applicable, or were no longer available if they were developed several years
ago.

Validation and Verification Plans

       Validation and verification plans describe the testing strategies that
will be used throughout a project’s life-cycle phases. Such plans should
include descriptions of contractor, government, and appropriate independent
assessments required by the project. They should also reflect the major
reviews that will be performed through the project. However, the SDLC
does not require that any validation and verification be performed
independently.

       The FBI LCMD also requires this plan and defines verification and
validation as a disciplined approach to assessing software products
throughout the software development life cycle to ensure that quality is built
into the software and that the software satisfies business functional
requirements. Verification and validation employs review, analysis, and
testing techniques to determine whether a software product and its
intermediate deliverables comply with business functional requirements and
quality attributes. The LCMD specifically defines verification as the process

      24
           This number includes one quality management plan counted five times because it
is being used for five DEA projects (Item #83).


                                           36
of determining whether products in a given phase of the development
process fulfill the requirements established during the previous phase and
validation as the process of evaluating software at the end of the software
development process to ensure compliance to software requirements.

       Components provided 8 validation and verification plans and 14 other
related artifacts for 10 projects. We accepted test plans in response to this
document request for three projects. In our judgment, verification and
validation plans should include more than software testing. Requirements
and design products should also be subject to verification and validation.
The ten projects we determined responded to this item were: DEA’s E-
Commerce, EIS, Merlin, and M204, the FBI’s IAFIS and TSC, JMD’s CITP,
IWN, and JCON, and OJP’s JGMS. The other 28 projects did not provide a
validation and verification plan or we did not accept minimal test
documentation that was submitted in response to this request. In addition
to the NIBIN contract waiver, component explanations for not submitting
this item included that the documents had not yet been developed, were not
applicable, or were no longer available if they were developed several years
ago.

Test Plans

     Both the SDLC and FBI LCMD specify test master plans that should
document the scope, content, methodology, sequence, management of, and
responsibilities for test activities. The testing should include integration,
system, user acceptance, and security testing.

      Components provided 51 test plans and 19 other related artifacts for
30 projects. These represent plans for different types of testing and testing
of various modules or functions of the same system such as security,
acceptance, functional, maintainability, report generation, and integration
tests. Of the eight projects not represented, three had not reached the
appropriate stage of the life cycle for this document: CODIS-Next
Generation project, NGI, and LCMS. 25 Of the remaining five projects, only
ITS-II responded that the item was not applicable. There were no specific
responses on the other four projects (BRIDG, IDW, SCION, and TRP).




       25
           It was beyond the scope of this audit to ensure that we obtained test plans for
every appropriate module, phase, or function of each project. We are reporting what we
obtained in response to the request for studies, plans, and evaluations.


                                             37
Conversion Plans

      The SDLC calls for conversion plans to be prepared during the design
phase of the life cycle to document the results of design work on conversion
and transition strategies if information needs to be converted or migrated to
the new system. The plans should describe the strategies involved in
converting data from the existing to the new environment. Because the
FBI’s LCMD requires transition plans to include data conversion issues, we
requested transition plans for the FBI projects.

      Components provided 13 conversion and transition plans for 10
projects. Most of these were FBI transition plans, although JMD submitted
conversion plans for the Classified Information Technology Program (CITP)
and Unified Financial Management System (UFMS) projects, the BOP
submitted a plan for ITS-II, and JMD submitted two related artifacts for
JCON. In addition to the NIBIN contract waiver, component explanations for
not submitting this item included that the documents had not yet been
developed, were not applicable, or were no longer available if they were
developed several years ago.

Implementation Plans

       According to the SDLC, implementation plans are to be prepared
during the design phase to describe how the system will be deployed,
installed, and transitioned into an operational status. The FBI LCMD refers
to its comparable plan as an installation plan.

      Components provided 29 implementation, deployment, or installation
plans and 21 other related artifacts for 24 projects. Component
explanations for the 14 other projects not represented in this item included
that the documents had not yet been developed, were not applicable, or
were no longer available if they were developed several years ago.

Training Plans

       The SDLC also calls for training plans to be prepared during the design
phase. The training plan should outline the objectives, needs, strategy, and
curriculum to be addressed when training users on the new or enhanced
information system. The training plan should present the activities needed
to support the development of training materials, coordination of training
schedules, reservation of personnel and facilities, and other training-related
tasks.


                                      38
      Components provided 16 training plans and 5 other relevant artifacts
for 19 projects. Component explanations for the 19 other projects not
represented in this item included that the documents had not yet been
developed, were not applicable, or were no longer available if they were
developed several years ago.

Contingency and Continuity of Operations Plans

      The DOJ SDLC specifies contingency planning as a function of the
development phase of a system’s life cycle. The SDLC cites OMB A-130 as
requiring the preparation of plans for general support systems and major
applications to ensure continuity of operations. The purpose is to provide for
the continuation of critical mission and business functions in the event of
disruptions. The plans are known by various names, such as disaster
recovery, continuity of operations, or contingency plans.

      We obtained 23 contingency plans or continuity of operations plans
and 1 related artifact for 19 projects. Component explanations for the 19
other projects not represented in this item included that the documents had
not yet been developed or were not applicable.

Disposition Plans

      Disposition plans are intended to end the operation of a system in a
planned, orderly manner and to ensure that system components and data
are properly archived or incorporated into other systems. The plan should
be developed during the disposition phase, according to the SDLC, which
begins when a decision is made to terminate or replace a system.

      Components provided one disposition plan for JMD’s PKI and one other
related artifact for the FBI’s DCU. The PKI document was prepared early in
the PKI life cycle. It was our understanding that the DEA’s M204 corporate
systems and the BOP’s ITS-II were both nearing the end of their life cycles,
but other systems in the revised inventory were not yet at that stage.




                                     39
Evaluations

      During our field work for this audit, we requested IT project test
reports, ongoing reviews of project status, and earned value management
(EVM) reports to obtain information to describe IT planning problems within
the Department. We obtained 42 test reports and 25 other relevant artifacts
for 24 projects. We also obtained 86 documents and other related artifacts
for 25 projects that we categorized as ongoing performance evaluations.
These items included Dashboard reports to the OCIO, EVM spreadsheets,
project reviews, results of gate reviews for FBI projects, project status
reports, briefings for component and Departmental managers, and lessons
learned statements. We found that most of these materials presented status
information needed for project management and decision-making, but were
not necessarily directed at describing planning problems. These items are
included in the compliance matrix and list of unique documents in
appendices IV and V.

      To obtain information about the effectiveness of system development
and acquisition efforts, we have limited our assessment of evaluations in this
audit report to full reports produced about problems experienced during
projects, or reports about systems and projects following implementation of
the system. We requested post-implementation review reports, which
include in-process review reports and user satisfaction review reports.

Post-Implementation Review Reports

       According to the SDLC, post-implementation reviews are conducted
after a system has been in production for a period of time and are used to
evaluate the effectiveness of the system development. The review should
determine whether the system does what it was designed to do, supports
users as required, and was successful in terms of functionality, performance,
and cost benefit. It should also assess the effectiveness of the development
activities that produced the system. The review results should be used to
strengthen the systems as well as the component’s system development
procedures.

      In-process reviews are performed during operations and maintenance
to assess system performance and user satisfaction, and should occur
repeatedly after a system has been implemented to ensure the system
continues to meet needs and perform effectively.

    The FBI LCMD does not require a post-implementation review as such.
However, it does specify annual project-level operational reviews that are

                                     40
conducted by the operations and maintenance organization to ensure that
the fielded system is continuing to support its intended mission and can be
continuously supported, operated, and maintained in the future in a cost-
effective manner. The FBI LCMD also calls for acceptance reviews at the
time of implementation.

       Components provided seven post-implementation reports and six other
relevant artifacts for ten projects. These are discussed in Finding 2 of this
report. Component explanations for the 28 other projects not represented in
this item included that the documents had not yet been developed, were not
applicable, or were no longer available if they were developed several years
ago.

Conclusion

      We found the highest levels of compliance with studies, plans, and
evaluations in the areas of business case documents, which become part of
the Department’s annual budget process and are required to obtain funding
for each system or project, and security plans, which are required for
projects to obtain authorization to operate. The components provided at
least one business case document for 36 of the 38 systems in the inventory.
The two exceptions, the FBI’s Investigative Data Warehouse (IDW) and
Secure Compartmented Information Operational Network (SCION), are
included in an “umbrella” business case that represents the Department’s
consolidated enterprise infrastructure (CEI). The business case document is
the single document type for which we found 100 percent compliance.

      System security plans also had a high level of compliance and we
obtained security plans for 32 of the 38 projects. The six other projects
were either too early in the life cycle for preparation of this document, or a
draft security plan was undergoing review. Components also demonstrated
a high level of compliance with PIAs, and we found acceptable explanations
for the projects that did not submit a PIA. Components also provided
project management plans for 29 of the 38 projects, and explained all but
one of those exceptions.

       However, we found compliance in the areas of systems engineering
management, configuration management, quality assurance, validation and
verification, and training plans was significantly lower.

       Departmental oversight is designed to focus on the Capital Planning
and Investment Control process for selecting and prioritizing IT investments.
It is not designed to enforce policies and procedures on IT project

                                      41
documentation. 26 Department-level oversight of individual IT projects is
performed through presentations to the Departmental Investment Review
Board, the CIO’s Dashboard report, and through the OMB exhibit 300s, all of
which are described in the second report in this series. This oversight
includes tracking of actual performance against scheduled milestones and
costs, but does not involve JMD officials in the details of IT documentation
for individual projects.

      Based on the limited number of plans and evaluations produced on
these major systems and projects, the CIO should evaluate why project
teams do not prepare certain plans and evaluations, reassess the utility of
those documents, and consider revising the standards for producing IT
studies, plans, and evaluations for individual IT projects.

Recommendations

We recommend that the Department’s CIO:

   1. Evaluate why project teams do not prepare certain plans and
      evaluations, reassess the utility of those documents, and consider
      revising the standards for producing IT studies, plans, and evaluations
      for individual IT projects.

   2. Consider revising the guidelines for tailoring the work pattern for
      specific types of projects.




      26
           The CIO does have specific responsibilities to enforce security standards.


                                             42
Finding 2: IT Planning Problems

        Prior OIG reports have identified IT planning problems that
        resulted in terminated projects, delays in implementation, cost
        increases, and problems with system data. Significant
        problems in planning that have been identified include
        weaknesses in contract management, business process re-
        engineering (BPR) and defining system requirements, and
        coordination between federal agencies. We originally planned
        to use evaluations we obtained from components to identify
        problems the Department has experienced in planning for IT
        systems. However, components have produced few
        meaningful evaluations of project management for either
        successful or failed IT projects. Therefore, we reviewed prior
        OIG reports and sought other reports performed or sponsored
        by the Department that identified IT planning problems.

       To identify problems the Department has experienced in planning for
IT systems and projects, we reviewed previous OIG audit and inspection
reports. We used OIG performance audits, financial statement audits,
information technology security audits, and inspections to help identify the
scope of problems the Department has experienced in IT planning. The
focus of the audits and reviews varied and included general IT management,
the management and progress of individual IT projects, the performance of
individual systems following implementation, system security, and system
controls. The OIG reports we reviewed are listed in Appendix VII. We also
reviewed special reports prepared for the FBI on the terminated VCF project.

       The overall objective for the IT standards described in the Introduction
to this report is to improve the acquisition, use, and disposal of information
technology by the federal government so as to improve the productivity,
efficiency, and effectiveness of federal programs. Prior OIG reports have
identified IT planning problems that resulted in terminated efforts,
implementation delays, problems with data in implemented systems, and
cost overruns. 27 The OIG reports described causes for the terminations,
delays, and other problems that include weaknesses in contract
management, project scheduling, BPR, requirements definition, and
cooperation between federal agencies.
       27
           Some of the systems and initiatives included in this analysis were not included in
the revised inventory but were the subject of OIG reports. All of the systems and initiatives
in the revised inventory used for this audit either were implemented or are currently in
development.


                                             43
       During this audit we looked for any IT projects that had either failed or
been terminated, such as the FBI’s VCF and LIMS projects discussed below.
The OIG found during work on the second report in this series that a prior
effort on JMD’s Justice Consolidated Office Network (JCON) project had been
terminated before beginning the current project in FY 2001. JMD, however,
was not able to provide an evaluation of the failure. In our opinion, failure
to evaluate why a contract failed suggests a serious gap in evaluating
project management practices. We believe that troubled and terminated
projects should be evaluated to determine the causes of the problems.

Business Process Re-engineering and Requirements Weaknesses

      The DOJ SDLC indicates that BPR should be the underpinning of any
new system development or initiative as part of strategic planning for
information systems, and that agencies should consider BPR before
requesting funding for a new project or system development effort. BPR is
defined as the redesign of the organization, culture, and business processes
using technology as an enabler to achieve significant improvements in cost,
time, service, and quality. The results of successful BPR are increased
productivity and quality improvements.

       The FBI’s effort to develop a case management system to replace its
obsolete Automated Case Support system has been subject to project
restarts or continuations with new titles twice since its initiation. 28 The first
effort, undertaken in mid-2001 as the User Applications Component of the
Trilogy project, was originally scheduled to be implemented in 2004. This
effort was never implemented because the vision and functional
requirements for the system changed significantly during the project. After
the attacks of September 11, 2001, and other events affecting the FBI, the
vision for the system changed from one that would simply consolidate
existing applications to one that would implement a new overall workflow
process for FBI agents, analysts, and support personnel.




       28
           Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Management of the Trilogy Information Technology Modernization Project,
Audit Report 05-07, February 2005.


                                            44
       The effort subsequently became the Virtual Case File (VCF) project.
The VCF was intended to make criminal and terrorist investigation
information readily accessible throughout the FBI. However, the FBI did not
accept an initial delivery from the contractor in December 2003 because the
system was not fully functional and did not meet FBI requirements.
Subsequent deliveries did not occur because of difficulties experienced in
completing the initial version of the VCF. The FBI told auditors that
subsequent deliveries were not being pursued given the problems in the first
delivery. The OIG report on the VCF project stated that one of the most
significant problems with managing the schedule, cost, and technical aspects
of Trilogy was the lack of a firm understanding of the design requirements
by both the FBI and contractors. During the initial years of the project, the
FBI had no firm design baseline or roadmap for Trilogy. According to one
FBI official, Trilogy’s scope grew by about 80 percent from the initiation of
the project. The FBI terminated the VCF portion of Trilogy in March 2005
after spending $170 million because of the lack of progress on its
development and concerns that the development environment would make
the system difficult to enhance and maintain. As discussed in two OIG audit
reports, the effort has been re-started as the $425 million Sentinel project,
which is scheduled for completion in December 2009. 29

      A contracted study of the FBI’s terminated Virtual Case File project
found that the original plans for the case management portion of the Trilogy
project were not based on a new vision of how the FBI could use IT to
transform the way it performs its mission. Specifically, the unpublished
report indicated that senior managers were not involved in efforts to re-
engineer business processes or in rethinking the FBI’s use of IT, and that
while users working on the re-engineering were experienced agents, none
had experience with complex IT development projects or business process
re-engineering.




       29
           Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Pre-Acquisition Planning For and Controls Over the Sentinel Case
Management System, Audit Report 06-14, March 2006.

       and

          Department of Justice, Office of the Inspector General, Sentinel Audit II: Status
of the Federal Bureau of Investigation’s Case Management System, Audit Report 07-03,
December 2006.


                                             45
       Another terminated project at the FBI was an initiative to implement a
new Laboratory Information Management System (LIMS) to replace its
Evidence Control System, which was originally created in 1978. 30 The LIMS
contract was awarded in September 2003, was initially supposed to be
implemented within 90 days of contract activation, and was terminated in
January 2006 due to concerns over security requirements. According to an
OIG audit, the project failed because of problems meeting the FBI’s security
requirements and because of delays in implementing a web-browser
interface.

      The OIG determined that specific security requirements for the system
were defined late in the project, hindering the contractor’s ability to comply.
The LIMS Request for Proposals (RFP) had required security to be part of the
system, but the FBI strengthened its security requirements after the
contract award in response to high-profile espionage-related security
breaches in the FBI. The audit found that the FBI had failed to document
security requirements adequately and, to the extent the security
requirements evolved, did not clarify those changes through contract
modifications.

Cooperation Between Agencies

       OIG audits and reviews have also identified difficulties when the
Department attempts to work with other agencies to develop and implement
successful IT systems. For example, lack of cooperation has cost time in the
effort to coordinate fingerprint sharing between the Department and the
Department of Homeland Security (DHS). Similar problems threaten the
success of the Secure Flight Program and the Integrated Wireless Network
(IWN).

      The OIG audit of the Terrorist Screening Center’s (TSC) efforts to
support the Department of Homeland Security’s (DHS) Secure Flight
Program found that the TSC had been hindered and delayed in its efforts to
prepare for implementation by the DHS-led Transportation Security
Administration’s failure to make, communicate, and comply with key
program and policy decisions in a timely manner. 31 In addition to perceived
       30
           Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Implementation of the Laboratory Information Management System, Audit
Report 06-33, June 2006.
       31
          Department of Justice, Office of the Inspector General, Review of the Terrorist
Screening Center’s Efforts to Support the Secure Flight Program, Audit Report 05-34,
August 2005. Redacted

                                            46
problems in planning at DHS, cooperation between the TSC and DHS has
been weak.

      The OIG has performed a series of reviews of the FBI’s progress
toward achieving interoperable fingerprint identification systems with federal
immigration authorities. 32 Since 1999 JMD has maintained oversight of the
integration of the FBI’s fingerprint identification system, Integrated
Automated Fingerprint Identification System (IAFIS), and the Department of
Homeland Security’s Automated Biometric Identification system, IDENT. The
2001 USA Patriot Act and the 2002 Border Security Act both set
requirements for a data system that would allow sharing of identification
information in federal law enforcement databases with immigration
authorities to determine whether to allow aliens to enter the United States.

       Differences between the FBI and the DHS over the number (2 or 10)
and type of fingerprints (flat or rolled) to be collected held up progress in
this area. DHS deployed an additional system in 2004, US-VISIT, which
uses IDENT to collect fingerprints, and is also used by Department of State
employees at visa-issuing consulates. The principal barriers to achieving
interoperability identified in an OIG December 2004 report were the different
fingerprint collection requirements of the two agencies, and disagreement on
the details of how to make information readily accessible to federal, state,
and local law enforcement agencies. The most recent OIG report on the
fingerprint integration issue indicated that the first barrier was resolved by
DHS’ May 2005 decision to implement a 10-print standard. Currently,
efforts are underway to make IAFIS, IDENT, and US-VISIT fully
interoperable by December 2009.

      The OIG recently released an audit report on the Integrated Wireless
Network (IWN) project that is intended to enhance the ability of federal law
enforcement agencies in the Departments of Justice, Homeland Security,
and Treasury to communicate with each other. 33 IWN would also allow
interoperability with state and local law enforcement partners and meet
mandates to use federal radio frequency spectrum more efficiently. The
OIG’s audit found that the project, which may cost $5 billion, is at high risk

       32
           Department of Justice, Office of the Inspector General, Follow-up Review of the
FBI’s Progress Toward Biometric Interoperability Between IAFIS and IDENT, Inspections
Report I-2006-007, July 2006, is the most recent report in the series of six reports.
       33
         Department of Justice, Office of the Inspector General, Progress Report on
Development of the Integrated Wireless Network in the Department of Justice, Audit Report
07-25, March 2007.


                                            47
of failing to deploy an integrated wireless network for use by the three
federal departments. The reasons include a fractured IWN partnership, lack
of an effective governing structure for the project, and disparate
departmental funding mechanisms that allow the departments to pursue
separate wireless communications solutions apart from IWN.

Contract Management Weaknesses

      The OIG conducted an audit of the FBI’s Trilogy project to assess the
FBI’s progress in meeting cost, schedule, technical, and performance targets
for the three components of Trilogy. 34 The OIG found that the VCF portion
of the Trilogy project significantly exceeded the original schedule and
budget. In addition, the FBI received an additional $78 million to accelerate
the infrastructure and communications portions of the Trilogy project. Those
segments were completed by April 2004, only one month before the original
target date of May 2004. The audit found that while the Trilogy project had
succeeded in improving the FBI’s IT infrastructure and communications
capabilities, the new case management system was incomplete and would
not meet the FBI’s needs. The OIG recommended the FBI monitor its
Enterprise Architecture and apply ITIM processes to improve the FBI’s ability
to identify, select, and manage future IT projects. Since then, the FBI has
implemented a formal project management and oversight methodology, its
Life Cycle Management Directive (LCMD), to address these weaknesses and
the LCMD is being used in the current Sentinel project. 35

      The OIG examined the LIMS project and found that firmly managed
schedule, cost, technical, and performance benchmarks would have raised
warning signs earlier in the project. The LIMS contract was awarded 14
months before the FBI implemented its LCMD, a critical initiative that
provided the FBI with a structured IT investment management process. The
LCMD also involves project oversight at the enterprise level. In the LIMS
audit, the OIG made recommendations to consider whether an existing
commercial off-the-shelf system would meet the FBI’s needs, ensure that
any future laboratory information system follows the FBI’s LCMD processes

       34
           Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Management of the Trilogy Information Technology Modernization Project,
Audit Report 05-07, February 2005.
       35
            The FBI’s LCMD methodology is fully documented in U.S. Department of Justice,
Office of the Inspector General, The Federal Bureau of Investigation’s Pre-Acquisition
Planning for and Controls Over the Sentinel Case Management System, Audit Report 06-14,
March 2006.


                                            48
and is overseen by an experienced IT project manager, and establish
controls to ensure that expenses are not incurred prematurely in the
development of a successor project.

      During its annual financial statement audit, the OIG identified
inadequate oversight of contract staff as a weakness in financial statement
audits, specifically at OJP. 36 The OIG audit found that OJP contractors do
not consistently adhere to Department policies and procedures for managing
system changes and do not consistently provide OJP management with
necessary technical and logistical information for production systems. As a
result, OJP management is unaware of system operational information and
system modifications implemented by the contractors. The OIG concluded
that the OJP CIO needed to improve his oversight and monitoring of
contractor activities in order to reduce the risk of negative effects on OJP
operations and financial data.

IT Program Management

      The OIG audit of JMD’s Joint Automated Booking System (JABS) found
that booking stations installed at Bureau of Prisons (BOP) facilities were
brought online in April 2004, 2 years after the equipment was installed
during the summer of 2002. 37 According to JMD officials, the software that
was originally installed with the equipment had major problems that were
not discovered until after all 240 JABS workstations had been installed. The
2-year delay in implementing JABS at the BOP was caused by inadequate
oversight of the contractor’s work.

      Since then, in audit reports issued in 2004 and 2005, the OIG found
that the Department has begun to improve its oversight and guidance of the
components’ EA and ITIM processes on Department-developed
frameworks. 38 In its audit of the Status of Enterprise Architecture and
Information Technology Investment Management in the Department of
Justice, the OIG made recommendations for improving the Department’s IT

       36
         U.S. Department of Justice, Office of the Inspector General, Office of Justice
Programs Annual Financial Statement Fiscal Year 2006, Audit Report 07-21, March 2007.
       37
         U.S. Department of Justice, Office of the Inspector General, The Joint Automated
Booking System, Audit Report 05-22, May 2005.
       38
           Department of Justice, Office of the Inspector General, The Status of Enterprise
Architecture and Information Technology Investment Management in the Department of
Justice, Audit Report 06-02, November 2005.


                                             49
management, including completing the Department-wide Enterprise
Architecture, providing guidance to components for the development and
maintenance of EAs, ensuring that components requiring ITIM processes
develop them, and establishing a clear schedule for completing the ITIM
framework and a mature ITIM process.

       In another audit, the OIG found the DEA had made significant progress
in managing its EA and the ITIM processes. 39 Although the DEA had not yet
developed a target EA or developed a transition plan to accomplish its
target, it had established a foundation by developing an overview of its
existing IT structure. The DEA also assigned roles, committed resources,
and established a plan to complete its target architecture. When the EA is
complete, the DEA will be able to better manage current and future IT
infrastructure and applications.

      The OIG’s first in a series of audits examining Sentinel evaluated its
development and implementation by reviewing the management processes
and controls the FBI applied to the pre-acquisition phase of Sentinel. 40 The
OIG found that the FBI established ITIM processes through its Life Cycle
Management Directive (LCMD) and was working to fully define its enterprise
architecture. If followed, the FBI’s new IT management processes, reviews,
and controls, coupled with external oversight by the OIG, contractors,
congressional committees, and others, should help the FBI identify and
minimize failures to achieve cost, schedule, performance, and technical
benchmarks for the Sentinel project.

      The OIG review of the TSC identified numerous problems with data in
the database that is used for screening persons from consolidated terrorist-
related watch lists, most of which resulted from the urgency with which the
consolidated database was implemented. 41 The data problems included
incomplete, missing, and inaccurate information in records, and duplicate
records containing inconsistent information. The potential effects of these

       39
          Department of Justice, Office of the Inspector General, The Drug Enforcement
Administration’s Management of Enterprise Architecture and Information Technology
Investments, Audit Report 04-36, September 2004.
       40
           Department of Justice, Office of the Inspector General, The Federal Bureau of
Investigation’s Pre-Acquisition Planning For and Controls Over the Sentinel Case
Management System, Audit Report 06-14, March 2006.
       41
          Department of Justice, Office of the Inspector General, Review of the Terrorist
Screening Center, Audit Report 05-27, June 2005. (Limited Official Use and Redacted)


                                            50
data integrity problems include the possibility that screeners may not
identify known terrorists during screening. The OIG found that these were
caused by a lack of strategic planning, weak planning due to the pressure to
implement a system, and user training weaknesses. The OIG is currently
performing a follow-up review on the accuracy of the TSC watchlist.

Post-Implementation Evaluations

      We originally planned to use evaluations we obtained from
components to identify problems the Department has experienced in
planning for its IT systems. However, this proved impossible because the
Department has produced few meaningful evaluations of project
management for either successful or failed IT projects, with the exception of
two terminated projects in the FBI.

       According to the DOJ SDLC, one purpose of post-implementation
reviews is to assess the effectiveness of the life-cycle development activities
that produced the system. This includes analyzing if proper limits were
established in the feasibility study and if they were maintained during
implementation, addressing the reasons for variances between planned and
realized benefits, addressing the reasons for differences between estimated
and actual costs, and evaluating whether training was adequate,
appropriate, and timely. The review results are intended to be used to
strengthen the system development procedures as well as the system itself.

       The DOJ ITIM Guide calls for continuous monitoring of investments to
assess progress against established cost, schedule, and performance metrics
in order to mitigate any risks or costs on an on-going basis. The ITIM Guide
also indicates that the activities of the evaluation phase include applying
lessons learned from post-implementation reviews and periodic operational
analyses for ITIM process improvement. The lessons learned for ITIM
process should be incorporated into the select and control phases for future
IT investments.

      We reviewed the seven post-implementation review reports we
obtained, four of which did not contain information on lessons learned in
project management. The reports included two classified project closeout
reports on two phases of one project. According to one of the reports, one
phase was accomplished on schedule and within budget and included no
lessons learned or discussion of any problems. The other report contained
two lessons learned that were marked as unclassified. The lessons were:



                                      51
  •   The adequacy of contractor performance was directly related to the
      level of oversight and attention-to-detail by the government team.
      The recommendation associated with this lesson was to schedule face-
      to-face meetings with the contractor and maintain that schedule.

  •   The initial budget for the program did not include all necessary costs to
      support external customers. The recommendation was to use an
      independent government cost estimate to determine whether the
      contractor’s proposed price/cost is reasonable.

       JMD’s JCON project has produced two reports of lessons learned on the
implementation of JCON in two components. The report on JCON
implementation in the Civil Division described the need for better definition
of project milestones and performance indicators to improve
communications and develop a shared perspective on project performance.
It also identified needs: (1) to devote greater attention and resources to
quality review of deliverables and other work products, (2) for closer and
more detailed review of requirements and design phase documentation, and
(3) for improved adherence to change control procedures. The report on
JCON implementation in the Civil Rights Division identified opportunities for
improvement in the areas of communication and thoroughness of design.
Comments in the report noted that requirements gathering needed to be as
good as possible to avoid problems with design and implementation.

      In addition, an assessment against project performance metrics was
performed for one portion of the DEA’s E-Commerce project. The evaluation
provided performance data, but no lessons learned information about project
management.

      In light of the limited number and scope of evaluations of project
management, the Department should ensure that post-implementation
evaluations and post-termination evaluations of IT projects are performed so
lessons learned can be incorporated into the Department’s standards and
used to improve project management on future projects.




                                      52
Conclusion

      Prior OIG reports have identified planning problems on individual
systems and projects that include weaknesses in business process
re-engineering, requirements planning, cooperation between agencies, and
IT program and contract management. These weaknesses have contributed
to:

   •   project re-starts, cost increases, and delays in implementation of the
       FBI’s case management system;

   •   termination of the FBI’s LIMS project;

   •   delays in implementing an interoperable fingerprint identification
       system that can be used by the Departments of Justice, Homeland
       Security, State, and state and local law enforcement; and

   •   data integrity problems in the TSC database.

      We originally planned to use evaluations we obtained from
components to identify problems the Department has experienced in
planning for IT systems. This was not possible because the Department has
produced almost no meaningful evaluations of project management for
either successful or failed IT projects, with the exception of two FBI projects.
Post-implementation evaluations and audits of individual projects identified
weaknesses in contract management, and excessive reliance on contractors.

Recommendations

       We recommend that the CIO:

   3. Ensure that post-implementation and post-termination evaluations are
      conducted that focus on lessons learned for project planning and
      management.

   4. Ensure that staff receive training to obtain skills needed to adequately
      direct and oversee contractor efforts.

   5. Implement targeted reviews to improve the use of business process
      re-engineering and requirements analysis early in concept
      development.



                                      53
                  STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit, we considered management
controls for the purpose of determining the Department’s oversight role over
IT studies, plans, and evaluations. This evaluation was not made for the
purpose of providing assurance on the Department’s internal controls for IT
as a whole.

      As described in the Findings and Recommendations section of this
report, we identified weaknesses in the Department’s oversight of IT studies,
plans, and evaluations. We did not identify any additional weaknesses.

      Because we are not expressing an opinion of the Department’s internal
controls over IT as a whole, this statement is intended solely for the
information and use of the Department in managing its IT oversight role.
This restriction is not intended to limit the distribution of this report, which is
a matter of public record.




                                        54
                                                                   APPENDIX I

                OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

        Our audit objectives were to: (1) identify all research, plans, studies,
and evaluations that the Department of Justice (Department) has produced,
or is in the process of producing, concerning IT systems, needs, plans, and
initiatives; and (2) analyze the depth and scope of the problems the
Department has experienced in the formulation of its IT plans.

Scope and Methodology

      The audit was performed in accordance with the Government Auditing
Standards and included tests and procedures necessary to accomplish the
objectives.

       This audit was performed in response to a congressional request
included in the Department’s appropriation for FY 2006. This report is the
final in a series of three reports prepared by the OIG in response to the
congressional request. Specifically, Congress instructed the OIG to present
to the Committees on Appropriations: (1) an inventory of all major
Department information technology (IT) systems and planned initiatives,
and (2) a report that details all research, plans, studies, and evaluations that
the Department has produced, or is in the process of producing, concerning
IT systems, needs, plans, and initiatives. The report is also to include an
analysis that will identify the depth and scope of problems the Department
has experienced in the formulation of its IT plans. This report responds to
the request for a report that details the research, studies, plans, and
evaluations.

      We identified relevant federal, Departmental, and component-specific
requirements and standards for IT research, studies, plans, and evaluations,
and merged the various standards into a generic set of documents.

We performed fieldwork at the:

                  Justice Management Division, Washington, D.C.;

                  Drug Enforcement Administration, Arlington, Virginia; and

                  Federal Bureau of Investigation, Washington, D.C.

                                       55
      We reviewed policy and procedures regarding processes related to
capital planning and investment control, information technology investment
management, and system development life-cycle processes.

      We requested and obtained documents from the components to
develop the inventory, and assessed compliance with the document
standards for the major systems in the inventory. We did not limit the time
period of documents we requested, because some of the systems and
projects had been operational for many years and may have already
prepared studies, plans, and evaluations.

       To evaluate problems the Department has experienced in planning, we
reviewed relevant audit and other independent reports, extending the scope
of our audit work to some systems and projects that were not included in
the inventory of major systems. We also analyzed the evaluations obtained
for information about problems the Department has experienced in
formulating IT plans.




                                    56
                                                               APPENDIX II

                              ACRONYMS

  Acronym                                Represents
AFMS        Automated Facilities Management System
ATF         Bureau of Alcohol, Tobacco, Firearms, and Explosives
ATO         Approval to Operate
AU          Accreditation Unit
BOP         Bureau of Prisons
BPR         Business Process Reengineering
BRIDG       Biometric Reciprocal Identification Gateway
C&A         Certification and Accreditation
CAIR        Case Agent Image Review
CARA        Certification and Accreditation Reporting Application
CART        Computer Analysis Response Team
CARTSAN     Computer Analysis Response Team Storage Area Network
CASE        Computer Assisted Software Engineering
CDX         Counterdrug Intelligence Executive Secretariat
CITP        Classified Information Technology Program
CJIS        Criminal Justice Information Services
CM/CSA      Case Management/Common Solution Architecture
CMP         Configuration Management Plan
CODIS       Combined DNA Index System
COOP        Continuity of Operations Plan
CPOT        Consolidated Priority Organization Target
CSOS        Controlled Substances Ordering Systems
DCISS       DEA Classified Infrastructure Support System
DCS         Digital Collection System
DCU         Data Centers Unit
DEA         Drug Enforcement Administration
DEEP        Data Extraction and Extension Project
DERB        Department Executive Review Board
DHS         Department of Homeland Security
DIRB        Department Investment Review Board
DME         Develop, Modify, Enhance
EA          Enterprise Architecture
E-Com       Electronic Commerce
EDMS        ELSUR Data Management System
EIMO        ELSUR Information Management Office


                                     57
  Acronym                                Represents
EIS         EPIC Information Systems
ELSUR       Electronic Surveillance
EOIR        Executive Office for Immigration Review
EOS         Enterprise Operations Services
EOUSA       Executive Offices for the United States Attorney
EPCS        Electronic Prescriptions for Controlled Substances
EPIC        El Paso Intelligence Center
ESOC        Enterprise Security Operations Center
ESS         EPIC Seizure System
EVENTS      Events Activity Subsystem
EVM         Earned Value Management System
FBI         Federal Bureau of Investigation
FCA         Facilities Certification and Accreditation
FDF-A       Financial Disclosure Forms Analyzer
FISMA       Federal Information Security Management Act
FITS        Infrastructure Technology Services
FMS         Fingerprint Matching Subsystem
FTTTF       Foreign Terrorist Tracking Task Force
GAN         Grant Adjustment Notice
IAFIS       Integrated Automated Fingerprint Identification System
IAS         Information Assurance Section
IATI        Information Assurance Technology Infusion
IBIS        Integrated Ballistics Information System
IDENT       DHS Automated Biometric Identification System
iDSM        interim Data Sharing Model
IDW         Investigative Data Warehouse
IMA         Investigative Mainframe Application
IMPACT      Investigative Management Program and Case Tracking System
IMPRB       Investment Management/Project Review Board
IODM        Input/Output Device Management
IPR         Intellectual Property Rights
IRIES       Immigration Review Information Exchange System
IRSS        Intelligence Research Support System
IT          Information Technology
ITCP        Information Technology Contingency Plan
ITD         Investigative Technologies Division
ITN         Identification Tasking and Networking
ITOD        Information Technology Operations Division
ITS-II      Inmate Telephone System II


                                   58
   Acronym                                     Represents
IWN          Integrated Wireless Network
JCON         Justice Consolidated Office Network
JCON-S       Justice Consolidated Office Network - Secret
JCON-TS      Justice Consolidated Office Network - Top Secret
JGMS         Justice Grants Management System
JMD          Justice Management Division
JPO          Joint Program Office
JSIT         Justice Secret Information Technology
JWICS        Joint Worldwide Intelligence Communications System
LAN          Local Area Network
LCMS         Litigation Case Management System
LEO          Law Enforcement Online
LMIT         Lockheed Martin Integration Task
M204         Model 204 Corporate Systems
MADI         Manufacturers and Distributors
MDE          Managed Development Environment
NCIC         National Crime Information Center
N-DEx        Law Enforcement National Data Exchange
NDSS         National Drug Seizure System
NGI          Next Generation Identification
NIBIN        National Integrated Ballistics Information Network
NIBRS        National Incident-Based Reporting System
NICS         National Instant Criminal Background Check System
OCDETF       Organized Crime Drug Enforcement Task Force
OCIO         Office of the Chief Information Officer
ODAG         Office of the Deputy Attorney General
OFC          OCDETF Fusion Center System
OJP          Office of Justice Programs
OMB          Office of Management and Budget
OTIS         Operational Test for Impact on Security
PIA          Privacy Impact Assessment
PKI          Public Key Infrastructure
PMO          Program Management Office
PMP          Project Management Plan
PMR          Program Management Review
POAM         Plans of Actions and Milestones
POC          Point of Contact
PTA          Privacy Threshold Analysis


                                      59
   Acronym                                   Represents
QAP          Quality Assurance Plan
RAMP         Risk Assessment and Management Plan
R-DEx        Regional Data Exchange
RITS         Request for Information Technology Services
RMP          Risk Management Plan
RTM          Requirements Traceability Matrix
SAE          Secret Administrative Enclave
SANS         Storage Area Networks
SCION        Secure Compartmented Information Operational Network
SDLC         System Development Life Cycle
SEMP         Systems Engineering Management Plan
SITP         System Integration and Test Plan
SMIS         Security Management Information System
SOW          Statement of Work
SPIU         Systems Programming & Integration Unit
SRTM         Security Requirements Traceability Matrix
SSAA         System Security Authorization Agreement
SSIAC        Security System Integration and Assessment Center
SSP          System Security Plan
TACLANE      Tactical Fastlane
TEMP         Test and Evaluation Master Plan
TI           Technology Infusion Program
TRP          Technology Refreshment Program
TRUFACS      Trust Fund Accounting and Commissary System
TS/SCI       Top Secret/Special Compartmented Information
TSC          Terrorist Screening Center
TSDB         Terrorist Screening Center Database
UCR          Uniform Crime Reporting [Program]
UFMS         Unified Financial Management System
US-VISIT     United States Visitor and Immigrant Status Indicator Technology
W2KE         Windows 2003
WBS          Work Breakdown Structure




                                      60
                                                                               Appendix III

                                  IT STRATEGIC PLANS

                                                                                 Document
Organization                          Document Title
                                                                                    Date
DOJ           DOJ IT Strategic Plan, Fiscal Years 2006-2011                   Jun 2006
ATF           Information Technology Strategic Plan, 2006-2011
BOP           Information Technology Strategic Plan, FY 2004-2009
DEA           IT Strategic Plan, FY 2005-2009
              Strategic Plan, Information Resource Management, Fiscal Years
EOIR                                                                          Feb 2006
              2005-2010
FBI           Information Technology Strategic Plan, FY 2007-2011             Oct 2005
Source: Department of Justice components


Other studies, plans, and evaluations are listed in Appendix VI with the
summary of each system or project.




                                               61
                                                                                                              APPENDIX IV
                                                COMPLIANCE MATRIX 42

                                      DEA                                                DEA           DEA
             Test Name                            DEA E-Com          DEA EPIC                                 DEA Merlin
                                    Concorde                                           Firebird        M204
      Market/Other Research                                            427, 432           1379
                                                                     77, 428, 430,
       Business Case Studies           26, 32       58, 61, 64                        123, 136, 1378    80        271
                                                                      1401, 1403
    Privacy Impact Assessment           35             56                1411
                                                                    417, 429, 1404,
      Risk Management Plans            46, 47         60, 72                                           1394     261, 271
                                                                         1408
            Acquisition Plans           49                              1400              1380                    271
                                                                      419, 1402,      128, 129, 133,    82,
             Project Plans             42, 48       70, 71, 68                                                  266, 268
                                                                         1405              135         1022
                                                                    420, 421, 431,
             Security Plans            25, 50          74                             124, 140, 1021    85        272
                                                                         1400
      Systems Engineering                                                                                      1427, 1428,
                                                       65             424, 1400
       Management Plans                                                                                           1429
    Configuration Management
                                       28, 29          53             425, 1400            116          81        1431
               Plans
     Quality Assurance Plans            83             67                 83               130          83      83, 1432
    Verification and Validation                                                                                1423, 1424,
                                                       75                426                            79
               Plans                                                                                           1425, 1426
             Test Plans                 44            52, 75          1409, 1412           131         1420       1384
         Conversion Plans
      Implementation Plans              41             65                               118, 139               1430, 1433


       42
           The numbers in the columns refer to the document numbers in Appendix V. For example, the number 32
under Business Case Studies for DEA Concorde refers to Appendix V, item number 32, which is the Cost/Benefit
Analysis Report for IMPACT, (a part of the Concorde project). Numbers shown in normal font are documents we are
reporting as studies, plans, and evaluations, as opposed to other artifacts we accepted as contributing to compliance in
each area, which are shown in italics. Shaded cells indicate that we obtained no documents or other artifacts that we
accepted in response to our request.


                                                               62
                             DEA                                            DEA           DEA
     Test Name                              DEA E-Com       DEA EPIC                             DEA Merlin
                           Concorde                                       Firebird        M204
    Training Plans             51              76              423                                   1422
  Contingency/ COOP           30, 31          54, 55           422            141                     259
   Disposition Plans
Requirements Evaluations

                                                                                                 257, 258, 260,
    Test Evaluations       23, 24, 40, 50      73           1410, 1412     131, 137       1421
                                                                                                   272, 1385
                                                                         117, 120, 121,
Performance Evaluations         38                                                               262, 264, 265
                                                                           132, 138
  Post-implementation
                                               57                             117
      Evaluations




                                                       63
                                                                                         JMD
       Test Name              JMD CITP            JMD IWN              JMD JCON                      JMD PKI          JMD UFMS
                                                                                        LCMS
 Market/Other Research             154                1388               227, 1012        250            232         1417, 1418, 1419
                                                                       227, 228, 229,   248, 250,   216, 217, 232,
  Business Case Studies       157, 158, 173    198, 201, 206, 1389                                                      90, 91, 99
                                                                            387         252, 256      233, 1017
                              161, 162, 175,
Privacy Impact Assessment                                                380, 390         1383           235              1399
                                   176
                                                                       387, 391, 392,
                                                                                                    225, 231, 236,
 Risk Management Plans        180, 181, 182      204, 206, 211         393, 394, 398,     254                          99, 101, 110
                                                                                                      239, 240
                                                                       399, 400, 408
                                                                       374, 387, 391,
    Acquisition Plans         142, 159, 173         195, 206                                                            86, 87, 99
                                                                       392, 393, 394
                              155, 171, 177,                           387, 391, 392,
      Project Plans                              205, 209, 1004                         254, 255      236, 1008           93, 94
                                   179                                 393, 394, 1005
                                                                       387, 391, 392,
      Security Plans          183, 188, 189      199, 206, 214                                        231, 244        100, 103, 105
                                                                       393, 394, 404
  Systems Engineering
                                   152                205                   407                                            96
   Management Plans
Configuration Management
                                146, 147              196                   372           253         219, 220            88, 89
           Plans
                                                                       376, 377, 378,
 Quality Assurance Plans                              210              379, 382, 388,     254         230, 236             95
                                                                            395
Verification and Validation
                                153, 190         192, 193, 194              384
           Plans
                              153, 168, 184,
        Test Plans                             192, 193, 194, 213        405, 406                        245               97
                                185, 186
    Conversion Plans              150                                    379, 382                                           92
  Implementation Plans          151, 187            203, 215             379, 382                        222               106
     Training Plans               145                 208                379, 382                        247               109
   Contingency/ COOP            148, 149              197                   373                          226
    Disposition Plans                                                                                    218
Requirements Evaluations
                              143, 160, 168,
     Test Evaluations                                 212                401, 403                   231, 242, 246
                                   186




                                                                  64
                                                                      JMD
     Test Name            JMD CITP   JMD IWN        JMD JCON                JMD PKI         JMD UFMS
                                                                     LCMS
Performance Evaluations                202               375                221, 223, 243      99
 Post-implementation                                371, 385, 386,
                                       202                                      238
     Evaluations                                         402




                                               65
                                 ATF
      Test Name                               BOP ITS-II        EOIR e-World           ODAG OFC            OJP JGMS
                                NIBIN
                                                                                     1369, 1370, 1371,
 Market/Other Research            7, 8            416                  854           1372, 1374, 1375,
                                                                                        1376, 1377
                                                                                     276, 292, 294, 304,   345, 349, 360,
  Business Case Studies            8            18, 1392            111, 112
                                                                                          316, 327              364
Privacy Impact Assessment          9              20                   860                  320
                                                                                     316, 318, 326, 328,
 Risk Management Plans          7, 8, 13        412, 413          112, 114, 115                            360, 364, 368
                                                                                          330, 331
    Acquisition Plans             8, 12           19                   112             274, 275, 306            364
                                                                                       321, 322, 323,
      Project Plans                               412             851, 852, 853                            352, 353, 360
                                                                                        1013, 1014

      Security Plans               14             21            113, 863, 865, 867          334                 340

  Systems Engineering
                                                  415
   Management Plans
Configuration Management
                                                                    856, 857                                 341, 363
           Plans
 Quality Assurance Plans                                               868                83, 321
                                                                                                           346, 347, 348,
Verification and Validation
                                                                                                           350, 351, 357,
           Plans                                                                                                360
                               15, 1397,                                             284, 288, 303, 324,
        Test Plans                                                     864                                 346, 347, 348
                                 1398                                                     325, 335
    Conversion Plans                              22
                              1413, 1414,                                                                  352, 353, 356,
  Implementation Plans                            22              851, 852, 853             287
                              1415, 1416                                                                        360
     Training Plans               17                                                        289                 359
  Contingency/ COOP               2, 3            414                  855                  305                 342
    Disposition Plans
Requirements Evaluations
                                                                                     278, 279, 281, 282,
                              15, 16, 1395,                                                                345, 350, 351,
     Test Evaluations                             409                  864           290, 297, 335, 336,
                                  1396                                                                     357, 366, 1390
                                                                                            338



                                                           66
                           ATF
     Test Name                       BOP ITS-II   EOIR e-World     ODAG OFC            OJP JGMS
                          NIBIN
                                                                 277, 298, 300, 301,
                                                                                       343, 344, 354,
Performance Evaluations   7, 8, 11                    862        308, 309, 310, 313,
                                                                                       355, 358, 364
                                                                        314
 Post-implementation
                                                                        311
     Evaluations




                                             67
                               FBI          FBI         FBI
      Test Name                                                     FBI DCS         FBI DCU        FBI EDMS        FBI FTTTF
                              BRIDG       CARTSAN      CODIS
 Market/Other Research
                                                                     493, 494,                       540, 542,
                              454, 455,    437, 444,   465, 467,                                                   558, 559, 562,
  Business Case Studies                                              495, 523,       486, 489        550, 552,
                              457, 1036      1023      468, 469                                                      563, 1026
                                                                      1024                             1025
Privacy Impact Assessment        459         446         471         510, 511                           529
                                                                                     478, 487,
 Risk Management Plans        458, 462     447, 448    473, 474        521                         547, 548, 549     565, 566
                                                                                     488, 489
     Acquisition Plans                                   475
                                                                     498, 501,
                                                                                     481, 487,
       Project Plans             456         450       466, 472      516, 517,                       544, 545           564
                                                                                   488, 489, 490
                                                                   518, 519, 528
                                                                     497, 499,
                                                       464, 470,
      Security Plans                       435, 449                  500, 522,     479, 489, 492     530, 553
                                                         476,
                                                                   524, 525, 526
  Systems Engineering
                                                                                                                        567
   Management Plans
Configuration Management
                                             438                       496                             532
           Plans
 Quality Assurance Plans                     439
Verification and Validation
           Plans
                                                                                                                   560, 568, 569,
        Test Plans                           436                       527             485           531, 555
                                                                                                                     570, 571
    Conversion Plans                                                                                   554
  Implementation Plans                       434                                                       537              561
     Training Plans                          442                                                       551
   Contingency/ COOP                                     477                           480             533
    Disposition Plans                                                                  484
Requirements Evaluations
     Test Evaluations                        436




                                                        68
                           FBI         FBI        FBI
     Test Name                                           FBI DCS    FBI DCU     FBI EDMS        FBI FTTTF
                          BRIDG      CARTSAN     CODIS
                                                                    483, 484,
                                                                                  535, 536,
Performance Evaluations   460, 461    441, 443    463    509, 520   487, 488,
                                                                                538, 543, 546
                                                                    489, 491

 Post-implementation
                                                           514
     Evaluations




                                                 69
      Test Name               FBI IAFIS       FBI IATI          FBI IDW     FBI LEO        FBI NCIC        FBI N-DEx

 Market/Other Research
                                                600, 601,                                    668, 674,
  Business Case Studies           1027                                         1017                        695, 697, 1029
                                              605, 611, 612                                    1028
Privacy Impact Assessment                          613                                                        1386
  Risk Management Plans                       616, 617, 618     631, 632       656           683, 684        700, 701
     Acquisition Plans

       Project Plans                          598, 609, 614                  646, 653      679, 680, 682     699, 1387

      Security Plans            588, 591      619, 623, 624       633          642           685, 688           702
  Systems Engineering
                                592, 593          621                                          687
   Management Plans
Configuration Management
                                  582             602                          647             669
           Plans
 Quality Assurance Plans          589             615
Verification and Validation
                                  586
           Plans
                                                                             637, 638,       675, 676,
        Test Plans              577, 584      625, 626, 627                                                     694
                                                                           639, 655, 657     686, 690
    Conversion Plans            596, 597          629             636          659           691, 693
                                                                             643, 644,
                                574, 576,
  Implementation Plans                          608, 622          630        649, 650,         670
                              579, 580, 583
                                                                             651, 652
     Training Plans             587, 595          628             635                          681
   Contingency/ COOP                                                           645
    Disposition Plans
Requirements Evaluations
                                573, 575,                                                    665, 672,
     Test Evaluations                                             634
                              578, 581, 585                                                673, 677, 678

 Performance Evaluations          594         599, 604, 610                640, 641, 658



                                                           70
   Test Name          FBI IAFIS   FBI IATI     FBI IDW   FBI LEO   FBI NCIC   FBI N-DEx

Post-implementation
                         594        606                              689
    Evaluations




                                          71
                                                               FBI R-        FBI      FBI
      Test Name                 FBI NGI        FBI NICS                                            FBI SMIS           FBI TRP     FBI TSC
                                                                DEx         SCION   Sentinel
 Market/Other Research
                              703, 704, 705,
                                                                                    766, 775,      784, 788, 797,     835, 836,
  Business Case Studies       706, 707, 708,    731, 1031       1032                                                              849, 1035
                                                                                      1033         819, 820, 825        1034
                              714, 716, 1030
                              719, 720, 721,
Privacy Impact Assessment                                                    751       1434        791, 792, 798
                                   722
 Risk Management Plans          728, 729                         662                 769, 772    816, 817, 818, 832               840, 845
                                                                                     755, 773,
     Acquisition Plans
                                                                                    1037, 1038
                                                                                    757, 759,
       Project Plans             715, 726                                                        812, 813, 814, 823               844, 849
                                                                                    761, 770


      Security Plans                             744, 746      663, 664      753                     826, 827                     839, 846


  Systems Engineering
                                                                                       776
   Management Plans
Configuration Management
                                   709             732                       752       758              785
           Plans
 Quality Assurance Plans           727             743                                 771              815
Verification and Validation
                                                                                                                                    848
           Plans
                                                                                                                                  842, 847,
        Test Plans                             730, 737, 747     660                   777         782, 829, 831
                                                                                                                                    848
    Conversion Plans                             742, 749
                                                 740, 741,
  Implementation Plans                                                                                                              838
                                                 745, 750
     Training Plans                                                                                     833
  Contingency/ COOP                              733, 735
    Disposition Plans
Requirements Evaluations
    Test Evaluations                             739, 748        661         754                 778, 783, 828, 830                 843



                                                                       72
                                                      FBI R-    FBI      FBI
     Test Name             FBI NGI         FBI NICS                                  FBI SMIS           FBI TRP   FBI TSC
                                                       DEx     SCION   Sentinel
                                                                                     786, 793, 794,
                                                                       760, 762,     799, 800, 801,
                          710, 711, 713,
Performance Evaluations                                                763, 764,     802, 803, 804,       836       850
                               725
                                                                       765, 1039     805, 806, 807,
                                                                                   808, 809, 810, 811
 Post-implementation
     Evaluations




                                                          73
                                                                               APPENDIX V

                    DOCUMENTS AND OTHER ARTIFACTS 43

Item ID               System or
        Component                                          Title                            Date
Number                 Project
      2   ATF          NIBIN      Contingency Plan - Appendix I, NIBIN
      3   ATF          NIBIN      Contingency Plan, NIBIN and IBIS                          Jun 2005
      7   ATF          NIBIN      OMB Exhibit 300 for BY 2005                              Feb 2004
      8   ATF          NIBIN      OMB Exhibit 300 for BY 2007                              May 2006
      9   ATF          NIBIN      Privacy Threshold Analysis, IBIS
     11   ATF          NIBIN      Project Management Review, NIBIN, Undated
                                  Request for Justification for Other Than Full and Open
     12     ATF         NIBIN                                                               Jan 2002
                                  Competition
     13     ATF         NIBIN     Risk Assessment, NIBIN and IBIS                          Jun 2005
     14     ATF         NIBIN     Security Plan, NIBIN and IBIS                            Jun 2005
     15     ATF         NIBIN     Security Test and Evaluation, NIBIN                      Dec 2005
     16     ATF         NIBIN     Security Testing and Evaluation, NIBIN                   Dec 2005
     17     ATF         NIBIN     NIBIN Training Set 11, Version 1.2, Draft
                                  Analysis of Alternatives, Next Generation Inmate
     18     BOP         ITS-II                                                              Jul 1996
                                  Telephone System
     19     BOP         ITS-II    Individual Acquisition Planning                           Jan 1997
     20     BOP         ITS-II    Privacy Impact Assessment                                Apr 2006
     21     BOP         ITS-II    Inmate Telephone System (ITS-II) Security Plan           Dec 2004
     22     BOP         ITS-II    Site Network Integration Plan, ITS-II/TRUFACS            Nov 2001
                                  Accreditation Statement for Inclusion into Web
     23     DEA       Concorde                                                              Jul 2002
                                  Architecture IMPACT
                                  Accreditation Statement, Office of Information
     24     DEA       Concorde                                                             Oct 2004
                                  Systems, Web Infrastructure
                                  Action Plan, Independent Evaluation Pursuant to the
     25     DEA       Concorde
                                  FISMA FY 2004, DEA IMPACT System
                                  Business Modeling Specification, IMPACT, BPR Task
     26     DEA       Concorde                                                             Sep 2004
                                  Order #1, Version 1.0
                                  Configuration Management Plan, Concorde QA
     28     DEA       Concorde                                                             Oct 2004
                                  Findings Report



      43
          Documents and other artifacts are listed by document number assigned by
auditors. This Appendix should be used with Appendix IV. This listing includes many
acronyms associated with the systems and projects, but which were not used in the report.
We included acronyms in the list in Appendix II for reference. Blank cells in the Date
column indicate items for which no date was provided.


                                            74
Item ID             System or
        Component                                       Title                            Date
Number               Project
                                Configuration Management Plan, Concorde, Version
    29    DEA       Concorde                                                             Jul 2004
                                1.0
    30    DEA       Concorde    Contingency Plan, Web Architecture, Version 2.0         Mar 2006
                                Contingency Plan, Web Architecture, Version 2.0
    31    DEA       Concorde                                                            Mar 2006
                                (Signature Pages)
                                Cost/Benefit Analysis Report, IMPACT, BPR Final
    32    DEA       Concorde                                                            Apr 2000
                                Version
    35    DEA       Concorde    Initial Privacy Impact Assessment , Concorde
                                OCIO: Project Dashboard Project Managers
    38    DEA       Concorde                                                            Aug 2005
                                Worksheet, Concorde

    39    DEA       Concorde    OMB Exhibit 300 for BY 2007                             Sep 2005

                                Operational Test for Impact on Security (OTIS) Report
    40    DEA       Concorde                                                             Jul 2002
                                of the Pilot Implementation, IMPACT
    41    DEA       Concorde    Project Deployment Plan, Concorde, Version 1.0          Sep 2004
                                Project Management (PMP), IMPACT Fiscal Year
    42    DEA       Concorde                                                            Sep 2004
                                2004, Version 2.1
                                Project Test Plan (PTP), IMPACT, Release 2.0,
    44    DEA       Concorde                                                            Feb 2005
                                Version 1.0
    46    DEA       Concorde    Risk Management Plan, Concorde, Version 1.0             Feb 2005
                                Risk Inventory & Assessment, Section I.F., OMB
    47    DEA       Concorde                                                            Mar 2005
                                Exhibit 300
    48    DEA       Concorde    Original Baseline, Section I.H.2, OMB Exhibit 300
                                Statement of Work/Acquisition Plan, Concorde,
    49    DEA       Concorde                                                            Nov 2002
                                Version 1.0
                                System Security Authorization Agreement (SSAA),
    50    DEA       Concorde                                                            Mar 2002
                                Appendix E, Web Architecture
                                Training Program, PMP Concorde, FY 2006, Version
    51    DEA       Concorde                                                            Oct 2005
                                1.0
                                Acceptance Test Plan, Public Key Infrastructure
    52    DEA        E-Com                                                              Jan 2005
                                Analysis, Diversion PKI, CSOS
                                Configuration Management Plan, DEA Diversion
    53    DEA        E-Com                                                              Feb 2006
                                Control E-Commerce System, Version 1.0
                                Contingency Plan, DEA Diversion Control E-
    54    DEA        E-Com                                                              Nov 2003
                                Commerce PKI System (EPCS/CSOS), Version 1.0
                                Contingency Plan, DEA Diversion E-Commerce
    55    DEA        E-Com                                                              May 2005
                                System Security Plan, Appendix L, Version 1.1
                                Detailed Privacy Impact Assessment, Attachment:
    56    DEA        E-Com                                                              Sep 2005
                                DEA CSOS Privacy Policy, Section IV
                                Diversion Metrics Implementation Report, DEA
    57    DEA        E-Com                                                              Jan 2006
                                Diversion Control, E-Commerce System, Version 1.0



                                          75
Item ID             System or
        Component                                      Title                           Date
Number               Project
                                Economic Impact Analysis of the Electronic Orders
    58    DEA        E-Com                                                            Mar 2005
                                Rule
                                Facilitated Risk Assessment Process, DEA Diversion
    60    DEA        E-Com      Control E-Commerce PKI, SSAA, Appendix G,             Dec 2003
                                Version 1.0
                                Initial Economic Impact Analysis of the Proposed
    61    DEA        E-Com                                                            Mar 2005
                                Electronic Orders Rule
    64    DEA        E-Com      OMB Exhibit 300 for BY 2007, Final CSOS               Sep 2005
                                Operational and Technical Architecture, Public Key
    65    DEA        E-Com      Infrastructure Analysis, DEA Diversion Control E-     Jun 2003
                                Commerce PKI
                                Process and Product Quality Assurance, DEA
    67    DEA        E-Com                                                            May 2005
                                Diversion Control E-Commerce System, Version 1.0
                                Program Management Plan, DEA Diversion Control E-
    68    DEA        E-Com                                                            Nov 2004
                                Commerce PKI, Version 3.1
    70    DEA        E-Com      Project Plans, CSOS FY05, Undated
    71    DEA        E-Com      Project Plans, CSOS FY06, Undated
                                Risk Management Plan, DEA Diversion Control, E-
    72    DEA        E-Com                                                            Oct 2005
                                Commerce System, Version 1.0
                                System Security Authorization Agreement (SSAA),
    73    DEA        E-Com                                                            Mar 2004
                                Appendix F, CSOS and EPCS PKI
    74    DEA        E-Com      System Security Plan, CSOS, Version 1.0               Jun 2005
    75    DEA        E-Com      Test Plan and Reporting Procedures, CSOS/ EPCS        Dec 2001
                                Training Plan, Public Key Infrastructure Analysis,
    76    DEA        E-Com                                                            Aug 2002
                                DEA Diversion Control E-Commerce PKI
    77    DEA         EPIC      OMB Exhibit 300 for BY 2007                           Sep 2005
                                Independent Verification and Validation (IV&V)
    79    DEA        M204       Software Testing Procedure for Mainframe              Jun 2004
                                Environment, Version 2.0
    80    DEA        M204       OMB Exhibit 300 for BY 2007                            Jul 2005
                                Project Level Configuration Management Plan, Events
    81    DEA        M204                                                             Jun 2004
                                Activity Subsystem (EVENTS), Version 1.0
                                Project Management Plan (PMP), Events Activity
    82    DEA        M204       Subsystem (EVENTS), Calendar Year 2004, Version       Jun 2004
                                1.0
                                Quality Management Plan (QMP), Office of
    83    DEA       Concorde                                                          Sep 2005
                                Information Systems (SI), Version 4.1
                                Quality Management Plan (QMP), Office of
    83    DEA         EPIC                                                            Sep 2005
                                Information Systems (SI), Version 4.1
                                Quality Management Plan (QMP), Office of
    83    DEA        M204                                                             Sep 2005
                                Information Systems (SI), Version 4.1



                                          76
Item ID             System or
        Component                                       Title                             Date
Number               Project
                                Quality Management Plan (QMP), Office of
    83    DEA        Merlin                                                              Sep 2005
                                Information Systems (SI), Version 4.1
                                Quality Management Plan (QMP), Office of
    83   ODAG         OFC                                                                Sep 2005
                                Information Systems (SI), Version 4.1
                                Systems Security Authorization Agreement (SSAA),
    85    DEA        M204                                                                Nov 2004
                                Model 204 Corporate Systems
                                Acquisition Plan UFMS Integration and
    86    JMD        UFMS                                                                 Jun 2005
                                Implementation Services, (Draft)
    87    JMD        UFMS       Acquisition Strategy Paper, DOJ UFMS                      Jun 2002
    88    JMD        UFMS       Configuration Management Plan, Version 1.0               Aug 2005
    89    JMD        UFMS       Configuration Management Plan, Version 2.0                Jun 2006
    90    JMD        UFMS       Cost Benefit Analysis, DOJ UFMS Project                  May 2003
    91    JMD        UFMS       Cost Benefit Analysis, Draft                             Mar 2004
    92    JMD        UFMS       Data Conversion Strategy, Version 1.0                      Jul 2006
                                DOJ Program Office Charter and Program
    93    JMD        UFMS                                                                Sep 2004
                                Management Plan, Version 2.0
                                Implementation and Integration - Project Management
    94    JMD        UFMS                                                                 Jun 2006
                                Plan, Version 1.0
                                Integration and Implementation - Quality Control Plan,
    95    JMD        UFMS                                                                 Jul 2006
                                Version 1.0
                                Integration and Implementation - Systems Engineering
    96    JMD        UFMS                                                                 Jul 2006
                                Plan
                                Integration and Implementation Test and Evaluation
    97    JMD        UFMS                                                                 Jul 2006
                                Master Plan
    99    JMD        UFMS       OMB Exhibit 300 for BY 2007                              Dec 2005
   100    JMD        UFMS       POAM Report, UFMS                                        Dec 2005
   101    JMD        UFMS       Risk and Issue Management Plan, Version 2.0              Sep 2004
   103    JMD        UFMS       Security Management Plan (UFMS), Version 1.0             Jan 2006
   105    JMD        UFMS       System Security Plan (SSP) for DOJ UFMS                  Dec 2005
   106    JMD        UFMS       System Implementation Plan, Version 1.0                   Jul 2006
   109    JMD        UFMS       Training Strategy, Version 1.0                            Jul 2006
                                Vulnerability/ Countermeasures and Threat Pairing,
   110    JMD        UFMS                                                                Dec 2005
                                UFMS
                                Alternatives/Cost Benefit Analysis Report for
   111    EOIR       eWorld                                                              Mar 2005
                                Alternatives Analysis of eWorld for FY 2005
   112    EOIR       eWorld     OMB Exhibit 300 for BY 2007                               Jan 2006
   113    EOIR       eWorld     Residual Risk Report for JCON-II/CASE, EOIR              Nov 2005
   114    EOIR       eWorld     Risk Management and Areas of Concern                     Mar 2006
   115    EOIR       eWorld     Vulnerability/Countermeasures and Threat Pairing         Mar 2006
                                Configuration Management Plan (CMP), FITS, Version
   116    DEA       Firebird                                                              Jan 2006
                                1.3


                                          77
Item ID             System or
        Component                                       Title                             Date
Number               Project
    117   DEA        Firebird   Enterprise Health and Performance Metrics Review         May 2006
                                EOS Software Deployment Function Description,
   118    DEA       Firebird
                                Version 2.5, not dated
   120    DEA       Firebird    Firebird Daily Status Report                              Jul 2006
   121    DEA       Firebird    Firebird Dashboard                                       Apr 2006
   123    DEA       Firebird    Firebird Extension and Growth Strategy                   Mar 1995
   124    DEA       Firebird    Firebird Security Overview                               Jun 2006
                                Program Management Plan, Firebird Documentation
   128    DEA       Firebird
                                EOS, Version 1.0 (Draft)
                                Project Management Plan (PMP), Firebird
   129    DEA       Firebird                                                             Jan 2006
                                Infrastructure Technology Services (FITS), Version 3.0
   130    DEA       Firebird    Quality Assurance Plan, FITS, Version 2.1                Jan 2005
                                Security Test and Evaluation Plan and Procedures,
   131    DEA       Firebird                                                              Jul 2004
                                Appendix E
   132    DEA       Firebird    SIO Firebird project portfolio                            Jul 2006
                                SIOM Firebird Sensitive but Unclassified (SBU)
   133    DEA       Firebird
                                Infrastructure O&M Strategic Goals & Tactical Plan
   135    DEA       Firebird    Statement of Work for Enterprise Wide Management         Sep 2000
   136    DEA       Firebird    Storage Matrix/SRA
                                Test Matrix, Desktop and Server Management
   137    DEA       Firebird
                                Evaluation 2005
   138    DEA       Firebird    Weekly Status Report, Enterprise Operations Services     Jun 2006
                                Windows 2003 (W2K3) Implementation Plan, FITS
   139    DEA       Firebird                                                             Jun 2006
                                MDE, Version 1.2
                                Windows 2003 Active Directory Security Groups and
   140    DEA       Firebird                                                             Jun 2006
                                Group Policy, FITS, Version 1.4
                                Windows Server 2003 Infrastructure Disaster Recovery
   141    DEA       Firebird                                                             Jun 2006
                                Document, FITS, Version 2.1
   142    JMD         CITP      Acquisition Plan, CITP, Version 1.0                      Jan 2006
                                Test Cases for the Enterprise Security Operations
   143    JMD         CITP                                                               Sep 2004
                                Center (ESOC)
                                Computer Security Awareness and Training (C/SAT)
   145    JMD         CITP                                                               Dec 2003
                                Plan, JCON-S Enterprise System, Version 2.1
                                Published Documents, Configuration Management
   146    JMD         CITP                                                               May 2004
                                Plan, JCON-S, Version 1.0
                                Configuration Management Process, JCON-S,
   147    JMD         CITP                                                               Dec 2003
                                Appendix V, Version 1.1
   148    JMD         CITP      Contingency Plan, JWICS Network, Appendix M
   149    JMD         CITP      Contingency Plan, JCON-S, Appendix L                     Feb 2004
   150    JMD         CITP      Data Migration, ADNET to JCON-S
   151    JMD         CITP      Sample JSIT Deployment Plan


                                          78
Item ID             System or
        Component                                      Title                            Date
Number               Project
    152   JMD         CITP      Design Methodology, CITP
    153   JMD         CITP      Engagement Security Approach, JCON-S
                                Enterprise Proof-of-Concept Functional Requirements,
   154    JMD         CITP                                                             Dec 2003
                                JSIT, Version 1.1
   155    JMD         CITP      Enterprise Proof-of-Concept Project Schedule
   157    JMD         CITP      Final Classified Networks Program E-Survey Findings    Jun 2003
                                Fiscal Year 2005 Information Technology Concept
   158    JMD         CITP
                                Paper
                                Hardware and Software Vendor Maintenance, JCON-S,
   159    JMD         CITP                                                             Feb 2004
                                (Draft)
   160    JMD         CITP      Host Vulnerability Summary Report, Appendix G          Oct 2003
   161    JMD         CITP      Initial Privacy Impact Assessment, JCON-S
   162    JMD         CITP      Initial Privacy Impact Assessment, JCON-TS
   168    JMD         CITP      Acceptance Test Plan and Report                        Dec 2003
                                MOA between JCON and DTO Regarding Operation
   171    JMD         CITP      and Support of the JCON Classified Infrastructure,     Dec 2003
                                Version 0.2, Draft
   173    JMD         CITP      OMB Exhibit 300 for BY 2006
   175    JMD         CITP      Privacy Threshold Analysis, JCON-S
   176    JMD         CITP      Privacy Threshold Analysis, JCON-TS
   177    JMD         CITP      Program Guide, JCON-S, Version 2.1                     May 2005
   179    JMD         CITP      Project Schedule
   180    JMD         CITP      Risk Assessment/Risk Matrix, JWICS                     Dec 2003
   181    JMD         CITP      Risk Management Plan, Enterprise SIPRNET, Draft        Mar 2003
   182    JMD         CITP      Risk Management Plan, JIST, Version 1.0, Draft          Jul 2006
   183    JMD         CITP      Security Requirements Extract, JCON-TS
                                Security Requirements Traceability Matrix, JWICS
   184    JMD         CITP                                                             Dec 2003
                                Network, Appendix F, Software Version, 1.0.0.2
                                Security Requirements/Security Requirements
   185    JMD         CITP                                                             Feb 2004
                                Traceability Matrix, JCON-S, Appendix D
                                Security Test and Evaluation Plan, JCON-S, Appendix
   186    JMD         CITP                                                             Feb 2004
                                E
   187    JMD         CITP      Standard Deployment Process (Chart)
                                System Security Authorization Agreement (SSAA),
   188    JMD         CITP                                                             Feb 2004
                                JCON-S
   189    JMD         CITP      System Security Plan, JWICS Network, JCON-TS           Dec 2003
                                Task Outline for Security Scans of JCON-S and JCON-
   190    JMD         CITP                                                             Mar 2004
                                TS
   192    JMD         IWN       Data System Functional Tests, JPO-Pilot System         Oct 2004
   193    JMD         IWN       Network Management                                     Oct 2004
   194    JMD         IWN       Report Generation Tests                                Oct 2004
   195    JMD         IWN       Acquisition Plan, IWN JPO                              Aug 2004

                                          79
Item ID             System or
        Component                                       Title                             Date
Number               Project
    196   JMD         IWN       Configuration Management Plan, JPO IWN                   Jun 2004
    197   JMD         IWN       Contingency Plan, JPO IWN Northwest Zone                 Jun 2005
    198   JMD         IWN       High Level Design Report
                                Incident Response Plan, Seattle-Blaine Beta Test
   199    JMD         IWN                                                                Sep 2004
                                System
   201    JMD         IWN       Requirements Document, IWN, (Working Draft)              Jun 2002
   202    JMD         IWN       Beta Benchmark Assessment, IWN Seattle/Blaine
                                Organizational Readiness Transition Activities, IWN
   203    JMD         IWN                                                                Sep 2004
                                Seattle-Blaine Service Area
   204    JMD         IWN       Risk Assessment, IWN BETA Test System                    Sep 2004
   205    JMD         IWN       Master Beta Schedule, JPO                                 Jul 2003
   206    JMD         IWN       OMB Exhibit 300 for BY 2007                               Jan 2006
   208    JMD         IWN       Personnel Training for the Integrated Wireless Network   Nov 2004
   209    JMD         IWN       Program Plan FY 2006, Joint Program Office, Draft        Jun 2005
   210    JMD         IWN       Quality Assurance Plan, DOJ Wireless Network
                                Risk Management Plan, DOJ Wireless Management
   211    JMD         IWN                                                                Jun 2006
                                Office, Justice Wireless Network
   212    JMD         IWN       Seattle-Blaine System Acceptance Tests on CD
   213    JMD         IWN       Security Test and Evaluation Report: Beta Test System    Nov 2004
   214    JMD         IWN       System Security Plan, Beta Test System                   Nov 2004
   215    JMD         IWN       Transition Plan                                          Oct 2004
   216    JMD          PKI      Business Case, DOJ Enterprise PKI, Version 1.0            Jul 2004
                                Business Case, Insource vs. Outsource, DOJ Enterprise
   217    JMD         PKI                                                                Apr 2006
                                PKI
   218    JMD         PKI       Chain of Custody Processes, DOJ PKI, Version 1.01        Jun 2005
   219    JMD         PKI       Configuration Guide, DOJ PKI, Draft                      Mar 2005
                                Configuration Management Plan, DOJ PKI Program
   220    JMD         PKI                                                                Mar 2005
                                and Technical Support, Version 1.1, Draft
   221    JMD         PKI       Department Executive Review Board Presentation           Oct 2005
   222    JMD         PKI       Deployment Implementation Plan, DOJ PKI, Final           Jun 2005
                                Earned Value Management, DOJ Enterprise PKI
   223    JMD         PKI
                                Infrastructure Service Office
                                Risk Review HSPD-12, DOJ Enterprise System
   225    JMD         PKI
                                Solution, Infrastructure Services Office
                                IT Contingency Plan, DOJ PKI, Appendix L, Revision
   226    JMD         PKI                                                                Mar 2006
                                3
   227    JMD        JCON       JCON Architecture Study, Final Report                     Jan 1998
   228    JMD        JCON       JCON Shared Services Model
   229    JMD        JCON       JCON Strategic Plan: Arguments/Counter Arguments         Aug 2005
   230    JMD         PKI       Phase 2 Task Order, DOJ Enterprise PKI                   May 2004
   231    JMD         PKI       Plan of Actions and Milestones (POAM)                     Jul 2006



                                          80
Item ID             System or
        Component                                       Title                            Date
Number               Project
    232   JMD         PKI       Planning and Design Support, DOJ PKI                    Oct 2002
    233   JMD         PKI       Position Paper for JUTnet RAS PKI Support               Oct 2005
    235   JMD         PKI       Privacy Threshold Analysis (questionnaire)
    236   JMD         PKI       Project Management Plan, DOJ PKI                        Aug 2004
    238   JMD         PKI       Results of survey, Criminal Division, PKI Pilot
    239   JMD         PKI       PKI Risk Registry                                       Apr 2006
                                Risk Management Overview, DOJ Enterprise System
   240    JMD         PKI
                                Solution, Infrastructure Services Office
   242    JMD         PKI       Security Test and Evaluation Plan (Final), DOJ PKI      May 2005
   243    JMD         PKI       Status Report, DOJ PKI                                   Jun 2006
   244    JMD         PKI       System Security Plan, DOJ PKI, Revision 2               Mar 2006
   245    JMD         PKI       Test and Evaluation Master Plan, DOJ PKI, Revision 1    Apr 2005
   246    JMD         PKI       Test Report, DOJ PKI, Draft                              Jun 2005
   247    JMD         PKI       Training Plan, DOJ PKI, Final                           Apr 2005
   248    JMD        LCMS       Business Concept of Operations, LCMS, Version 1.1       Oct 2005
   250    JMD        LCMS       Final Market Research Report, LCMS                       Jun 2005
   252    JMD        LCMS       OMB Exhibit 300 for BY 2007                             Dec 2005
   253    JMD        LCMS       Project Configuration Management Plan, Version 1.1      Apr 2005
   254    JMD        LCMS       Project Management Plan, Version 1.2                    Aug 2005
   255    JMD        LCMS       Project Plan, LCMS (Spreadsheet)                        Apr 2006
                                Technical Evaluation Report, LCMS Phase 1, Version
   256    JMD        LCMS                                                               Apr 2006
                                0.9, Final
   257    DEA        Merlin     Accreditation Approval DCISS                             Jan 2004
   258    DEA        Merlin     Approval Request for Accreditation DCISS                Aug 2003
   259    DEA        Merlin     Contingency Plan for the DEA Merlin Program             Jun 2006
                                COOP Test Report using VERITAS Replication EXEC
   260    DEA        Merlin                                                             Mar 2006
                                3.1
                                Risk Assessment Report, DEA Classified Infrastructure
   261    DEA        Merlin                                                             May 2005
                                Support System
                                Earned Value Management (EVM) Merlin, Doc #12-
   262    DEA        Merlin                                                              Jul 2006
                                35-41-55
   264    DEA        Merlin     Merlin Dashboard - May                                  Jun 2006
   265    DEA        Merlin     Merlin Engineering Review                               Apr 2006
   266    DEA        Merlin     Merlin WBS/Schedule                                     Mar 2006
   268    DEA        Merlin     Merlin Program Plan, Version 2                          Jun 2006
   271    DEA        Merlin     OMB Exhibit 300 for BY 2007
                                System Security Authorization Agreement (SSAA),
   272    DEA        Merlin                                                             Aug 2003
                                DCISS
   274   ODAG         OFC       Acquisition Strategy for BY 2007
   275   ODAG         OFC       Acquisition Strategy
   276   ODAG         OFC       Alternative Analysis


                                          81
Item ID             System or
        Component                                        Title                            Date
Number               Project
    277  ODAG         OFC       ANSI 748 Compliance Plan                                 Aug 2005
    278  ODAG         OFC       Assessment of Defects on Hold (Spreadsheet)
                                Beta Testing Start Criteria and Status, OFC Compass
   279   ODAG         OFC                                                                Apr 2006
                                (Spreadsheet)
   281   ODAG         OFC       Compass Defect Summary Report                            Jun 2006
   282   ODAG         OFC       Compass Defect Summary Report (Spreadsheet)              Jun 2006
   284   ODAG         OFC       Compass Functional Testing Work Plan (Spreadsheet)       Jan 2006
   287   ODAG         OFC       Compass System “Go-Live” Timeline
   288   ODAG         OFC       Compass Testing Timeline
   289   ODAG         OFC       Compass Training Plan, OFC, Version 1.0                  Sep 2005
   290   ODAG         OFC       Compass User Acceptance Test Summary Status              May 2006
   292   ODAG         OFC       Concept of Operations, OCDETF Fusion Center              Mar 2004
   294   ODAG         OFC       Cost Benefit Analysis, OFC System                        Dec 2004
   297   ODAG         OFC       Defect Recommendations (Spreadsheet)
   298   ODAG         OFC       Dept Executive Review Board Presentation, OFC            Nov 2005
                                Direct Funding for the Development of the OFC
   300   ODAG         OFC
                                (Spreadsheet)
   301   ODAG         OFC       DOJ/OCIO Executive Review, OFC                            Jan 2005
   303   ODAG         OFC       Functional Testing Process Flow
                                Fusion Center Overview and Drug Intelligence
   304   ODAG         OFC
                                Analysis Report, Drug Intelligence Fusion Center
   305   ODAG         OFC       IT Contingency Plan, IRSS, Version 2.2                   Mar 2005
   306   ODAG         OFC       Justification for Other than Full and Open Competition   May 2004
   308   ODAG         OFC       List of Milestones and Deliverables                      Oct 2005
   309   ODAG         OFC       OCDETF Fusion Center EVM Report (Spreadsheet)            Mar 2006
   310   ODAG         OFC       OCDETF Fusion Center Review Meeting Agenda                Jun 2006
   311   ODAG         OFC       OFC Compass Release 1.0 Capability Assessment            Apr 2006
                                OFC Master Schedule – No Ops – Merrifield
   313   ODAG         OFC
                                (Spreadsheets)
                                OFC Master Schedule – No Ops – NS IOC
   314   ODAG         OFC
                                (Spreadsheets)
   316   ODAG         OFC       OMB Exhibit 300 for BY 2006                              Sep 2004
   318   ODAG         OFC       OMB Exhibit 300 for BY 2007
   320   ODAG         OFC       Privacy Impact Assessment, OFC (Draft)                   Aug 2004
   321   ODAG         OFC       Project Management Plan, OFC Deployment                  Sep 2005
   322   ODAG         OFC       Project Plan, Software Version 1.0, OFC                  May 2006
   323   ODAG         OFC       Project Schedule, WBS CCB CR41(Spreadsheets)
   324   ODAG         OFC       Requirements Traceability Table                           Jan 2006
                                Requirements Traceability Table, Script Case Mapping
   325   ODAG         OFC                                                                 Jan 2006
                                to Requirements
   326   ODAG         OFC       Residual Risk Report, OFC                                May 2006


                                          82
Item ID             System or
        Component                                      Title                          Date
Number               Project
    327  ODAG         OFC       Risk Adjusted Cost Formulation
    328  ODAG         OFC       Risk and Issue Management Master Plan                Jun 2005
    330  ODAG         OFC       Risk Assessment Results for BY 2006
    331  ODAG         OFC       Risk Assessment Results for BY 2007
    334  ODAG         OFC       System Security Plan, OFC Compass
    335  ODAG         OFC       System Test Plan, OFC, Version 1.2                    Jan 2006
    336  ODAG         OFC       Testing Status Summary                               Sep 2006
    338  ODAG         OFC       Validation Test Script Forms                         May 2006
    340   OJP        JGMS       System Security Plan for Grants Management System    Feb 2006
    341   OJP        JGMS       Configuration Management Plan, OJP                   Nov 2004
    342   OJP        JGMS       Continuity of Operations Plan, OJP                    Jul 2005
    343   OJP        JGMS       Detailed Design Review GMS/Grant Adjustments          Jan 2006
                                Detailed Design Review GMS/Grant Adjustments,
   344    OJP        JGMS                                                             Jan 2006
                                Phase 1, Installment 2
                                Functional Requirements Document, Grant
   345    OJP        JGMS                                                            Nov 2005
                                Adjustments, OJP, Version 1.1
   346    OJP        JGMS       GMS Grant Adjustment Notice Module Test Cases        Oct 2005
   347    OJP        JGMS       GAN Module Test Plan, OJP
   348    OJP        JGMS       Grant Adjustment Notice Module Test Plan, Phase 2
                                GAN Module, Software Requirements Specification
   349    OJP        JGMS                                                            May 2006
                                Use Cases, Draft, Version 1.5
   350    OJP        JGMS       GAN Phase 1 – STR                                    Mar 2006
   351    OJP        JGMS       GAN Phase 2 – STR                                    May 2006
   352    OJP        JGMS       GAN Schedule                                         Sep 2005
   353    OJP        JGMS       GAN Schedule                                         Dec 2005
   354    OJP        JGMS       GAN Schedule – EVM                                   Apr 2006
   355    OJP        JGMS       GAN Schedule – EVM                                   Feb 2006
   356    OJP        JGMS       GAN Schedule – EVM                                   May 2006
   357    OJP        JGMS       GAN Test Problem Report (Spreadsheet)
   358    OJP        JGMS       GMS EVM (Spreadsheet)                                Apr 2006
   359    OJP        JGMS       GMS GAN Training Plan, (Draft)                       May 2005
                                Grant Adjustment Notice (GAN) Module Project
   360    OJP        JGMS                                                            Sep 2005
                                Management Plan, Draft
   363    OJP        JGMS       OJP Change Control Procedures, Version 2.0           Feb 2006
   364    OJP        JGMS       OMB Exhibit 300 for BY 2007
   366    OJP        JGMS       Preliminary Design Review GMS/GAN Module             Oct 2005
                                Risk Management Plan, Version 1.1 (Spreadsheet),
   368    OJP        JGMS                                                            Oct 2006
                                GAN
                                Civil Rights Division Lessons Learned Report, JCON
   371    JMD        JCON                                                            May 2006
                                IIA Implementation Phase




                                          83
Item ID             System or
        Component                                       Title                            Date
Number               Project
                                Configuration Management Plan, JCON PMO, Version
   372    JMD        JCON                                                               Mar 2006
                                1.2
   373    JMD        JCON       Contingency Plan, JCON COAR, Version 1.8                Mar 2006
   374    JMD        JCON       Contract Administration, JCON
   375    JMD        JCON       Department Executive Review Board Presentation          Feb 2005
                                Design and Development Phase Closeout Checklist,
   376    JMD        JCON
                                JCON SDLC, Version 1.2
                                Implementation Phase Closeout Checklist, Version 1.1,
   377    JMD        JCON
                                JCON SDLC
                                Implementation Phase Closeout Checklist, Version 1.1,
   378    JMD        JCON
                                JCON SDLC, (Blank Form)
   379    JMD        JCON       Implementation Plan, EOIR, Final Version 2.7            May 2006
   380    JMD        JCON       Initial Privacy Impact Assessment
                                JCON Implementation Plan Template and Guidance,
   382    JMD        JCON                                                               Mar 2005
                                JCON PMO SDLC, Version 2.0
   384    JMD        JCON       JCON SDLC Guide, JCON PMO SDLC, Version 2.0             Mar 2005
                                Lessons Learned Report for the JCON Civil
   385    JMD        JCON                                                               May 2006
                                Deployment Implementation Phase
                                Lessons Learned Report Template and Guidance,
   386    JMD        JCON                                                                Jan 2005
                                JCON PMP SDLC, Version 1.0
   387    JMD        JCON       OMB Exhibit 300 for BY 2007                             Dec 2005
                                Planning Phase Closeout Checklist, JCON SDLC,
   388    JMD        JCON
                                Version 1.4
   390    JMD        JCON       Privacy Threshold Analysis
                                Project Management Plan Template, JCON PMO
   391    JMD        JCON                                                               May 2005
                                SDLC, Version 2.0
                                Project Management Plan, Civil Rights Division, JCON
   392    JMD        JCON                                                               Dec 2005
                                Implementation
                                Project Management Plan, EOUSA JCON IIA
   393    JMD        JCON                                                               May 2005
                                Deployment
   394    JMD        JCON       Project Management Plan, JCON Modernization             Jun 2005
                                Requirements Analysis Phase Closeout Checklist,
   395    JMD        JCON
                                JCON SDLC, Version 1.2
                                Residual Risk Report for JCON Common Office
   398    JMD        JCON                                                               May 2006
                                Automation Resources
   399    JMD        JCON       Risk Management Areas of Concern                        May 2006
   400    JMD        JCON       Risk Management Plan, JCON PMO, Version 2                Jul 2003
   401    JMD        JCON       Security Test and Evaluation, JCON COAR                 May 2006
   402    JMD        JCON       Summary of Findings, Email Users Survey                 Dec 2005
                                System Analysis Report JCON Civil Rights Division
   403    JMD        JCON                                                               Apr 2006
                                Design, Version 1 – Final


                                          84
Item ID             System or
        Component                                       Title                             Date
Number               Project
    404   JMD        JCON       System Security Plan, JCON-COAR                          May 2006
    405   JMD        JCON       System Test Plan for DOJ EOIR, Version 1.0, Draft        Aug 2005
                                System Test Plan Template, JCON PMO SDLC,
   406    JMD        JCON                                                                Mar 2005
                                Version 1.0
   407    JMD        JCON       Systems Engineering Process, JCON PMO, Version 1.0       Jun 2006
                                Vulnerability/Countermeasures and Threat Pairing,
   408    JMD        JCON                                                                May 2006
                                JMD, JCON-COAR
   409    BOP        ITS-II     Security Test and Evaluation Worksheets
   412    BOP        ITS-II     Program Plan                                             May 2005
   413    BOP        ITS-II     Plan of Action and Milestones
   414    BOP        ITS-II     Contingency Plan                                         Nov 2004
   415    BOP        ITS-II     Engineering Management Plan                              Apr 2005
   416    BOP        ITS-II     Request for Comment
   417    DEA         EPIC      Risk Assessment Report, EPIC                             May 2005
                                OCIO: Project Dashboard Project Managers
   419    DEA         EPIC
                                Worksheet, EPIC
   420    DEA         EPIC      System Security Plan, ESS                                Aug 2005
                                Action Plan, Independent Evaluation Pursuant to the
   421    DEA         EPIC      Federal Information Security Management Act FY
                                2005, DEA ESS
   422    DEA         EPIC      Contingency Plan, ESS                                    Mar 2006
   423    DEA         EPIC      Training Plan, EPIC Open Connectivity Project            Jun 2004
                                System Engineering Management Plan, EPIC Open
   424    DEA         EPIC                                                               Jun 2004
                                Connectivity Project
                                Configuration Control Board (CCB) Charter and
   425    DEA         EPIC      Request for Information Technology Services (RITS)       Feb 2004
                                Policy
                                Verification and Validation Plan, EPIC Open
   426    DEA         EPIC                                                               Apr 2004
                                Connectivity Project
   427    DEA         EPIC      NDSS Project, Background: NIBRS/UCR Data, CDX            May 2003
   428    DEA         EPIC      General Counterdrug Intelligence Plan                    Feb 2000
                                Risk Management Plan, Open Connectivity Project,
   429    DEA         EPIC                                                               Aug 2004
                                DEA EPIC, Revised
   430    DEA         EPIC      Feasibility Statement, EPIC Open Connectivity Project,   Apr 2006
                                CONOPS, Connection of the ESS to the EIS, EPIC,
   431    DEA         EPIC                                                               Jun 2004
                                Version 1.1
   432    DEA         EPIC      National Drug Seizure System Discussion Paper, CDX       Feb 2004
   434    FBI       CARTSAN     CARTSAN Review Network Installation Plan                 Jun 2005
   435    FBI       CARTSAN     Certification and Accreditation System Registration      Jun 2005
   436    FBI       CARTSAN     Certification Test Report, CARTSAN                       Aug 2005
   437    FBI       CARTSAN     Concept of Operations



                                          85
Item ID             System or
        Component                                      Title                           Date
Number               Project
    438   FBI       CARTSAN     Configuration Management Plan, Version 0.1 (Draft)
                                Digital Evidence Laboratory Quality Assurance
   439     FBI      CARTSAN                                                           Apr 2006
                                Manual Supplement, CART
   441     FBI      CARTSAN     Earned Value Management Worksheet                      Jul 2005
                                Guidance on Use of the CAIR Program and Integration
   442     FBI      CARTSAN                                                           Aug 2005
                                with CART Storage Platforms
   443     FBI      CARTSAN     Investment Management/Project Review Board            Aug 2005
   444     FBI      CARTSAN     Mission Needs Statement                               Nov 2005
   446     FBI      CARTSAN     Privacy Impact Assessment, CARTSAN, (Draft)
   447     FBI      CARTSAN     Risk Management Plan                                   Jul 2005
   448     FBI      CARTSAN     Risk Register                                          Jul 2005
   449     FBI      CARTSAN     System Security Plan, CARTSAN                         Aug 2005
   450     FBI      CARTSAN     Top Level Tasks, CARTSAN Phase One                     Jul 2006
                                Concept of Operations, DHS/US-VISIT and DOJ/FBI
   454     FBI       BRIDG                                                            Apr 2006
                                Interoperability, iDSM, Final
                                Full Business Case, IDENT-IAFIS Interoperability,
   455     FBI       BRIDG                                                            Jan 2006
                                iDSM Project
   456     FBI       BRIDG      iDSM, WBS, CJIS Bridge                                 Jul 2006
   457     FBI       BRIDG      Mission Needs Statement, iDSM, Version 1.2            Jan 2006
   458     FBI       BRIDG      Open Risks Worksheet, iDSM                            Jun 2006
                                Privacy Impact Assessment for the DOJ/FBI-DHS
   459     FBI       BRIDG
                                Interim Data Sharing Model (iDSM)
   460     FBI       BRIDG      Project Health Assessment, iDSM, Gate 1 & 2           Feb 2006
                                Project Health Assessment, iDSM, Gate 3 (Final
   461     FBI       BRIDG                                                            Jun 2006
                                Design)
   462     FBI       BRIDG      Risk Management Plan, iDSM Project                    Jan 2006
   463     FBI       CODIS      Acquisition Strategy Review, CODIS 6.0                Oct 2005
   464     FBI       CODIS      CODIS Accreditation Decision                          Apr 2005
                                Combined DNA Index System Mission Needs
   465     FBI       CODIS                                                            Nov 2005
                                Statement
   466     FBI       CODIS      CODIS Schedule
   467     FBI       CODIS      FY 2008 Full Business Case                            Dec 2005
                                Independent Assessment Findings and
   468     FBI       CODIS                                                            Jun 2005
                                Recommendations, CODIS, Final
   469     FBI       CODIS      Description of Current CODIS Architecture
   470     FBI       CODIS      Plans of Actions and Milestones, CODIS                Feb 2005
                                Privacy Impact Assessment, National DNA Index
   471     FBI       CODIS                                                            Oct 2004
                                System (NDIS) Database
                                Product Management Plan, CODIS Bridge Contract
   472     FBI       CODIS                                                            Sep 2005
                                Extension
   473     FBI       CODIS      Risk Management Plan, CODIS, Draft Version 01         May 2006
   474     FBI       CODIS      Risk Register, CODIS, Open Risks Worksheet            Feb 2006

                                          86
Item ID             System or
        Component                                       Title                             Date
Number               Project
                                Single Acquisition Management Plan for the Combined
   475     FBI       CODIS                                                               Feb 2006
                                DNA Index System
   476     FBI       CODIS      System Security Plan, CODIS                              Jan 2005
                                Three Part Contingency Plan, CODIS Bridge Contract
   477     FBI       CODIS                                                               Oct 2005
                                Extension
                                Action Plan, Enterprise Servers (Administrative and
   478     FBI        DCU                                                                 Jul 2004
                                Investigative Mainframes), Secret (Working Draft)
                                Approval to Operate for the Investigative Mainframe
   479     FBI        DCU                                                                May 2006
                                Application (IMA)
                                Continuity of Operations Plan, FBI, ITOD, Operations
   480     FBI        DCU                                                                Jan 2005
                                Section
                                Contribution of the Mainframe to the Bureau's Mission,
   481     FBI        DCU                                                                Feb 2006
                                FBI
   483     FBI        DCU       Investment Evaluation Form, IT Management                May 2006
   484     FBI        DCU       ITOD Hardware Review, Executive Dashboard (Draft)        Mar 2006
   485     FBI        DCU       Mainframe Hardware Test Environment
   486     FBI        DCU       Mission Needs Statement, Enterprise Backup Project        Jul 2005
   487     FBI        DCU       OMB Exhibit 300 for BY 2005
   488     FBI        DCU       OMB Exhibit 300 for BY 2007                               Jul 2005
   489     FBI        DCU       OMB Exhibit 300 for BY 2008                               Jul 2005
   490     FBI        DCU       Project Plan, Global Mirroring Project                   Dec 2005
                                Project Summary Report, ITOD Mainframe System
   491     FBI        DCU
                                Upgrade
                                System Security Plan, FBI, Enterprise Servers, Version
   492     FBI        DCU                                                                Oct 2004
                                1.2
                                Benefits & Cost Analysis Project Synopsis, DCS-5000
   493     FBI        DCS                                                                Feb 2006
                                Regional Architecture, Step 4 and 5
                                Benefits & Cost Analysis Project, DCS-5000 Regional
   494     FBI        DCS                                                                Nov 2005
                                Architecture, Step 2 and 3
                                Benefits & Cost Analysis Project, DCS-5000 Regional
   495     FBI        DCS                                                                Jan 2006
                                Architecture, Step 4 and 5
                                Configuration Management Plan, DCS-6000, Appendix
   496     FBI        DCS                                                                May 2006
                                O
                                DCS-5000 Accreditation Decision - Grant ATO for
   497     FBI        DCS                                                                Feb 2006
                                DCS-5000, IT System Security Risk Analysis
   498     FBI        DCS       DCS-5000 Schedule
                                DCS-6000 - Grant ATO with Conditions, IT Systems
   499     FBI        DCS                                                                May 2006
                                Security Risk Analyses
                                DCS-6000 Accreditation Decision - Security
   500     FBI        DCS       Characteristic and Tier Level Designation for DCS-       May 2006
                                6000, IT Systems Security Risk Analyses
   501     FBI        DCS       DCS-6000 Schedule, Appendix B (Table)

                                          87
Item ID             System or
        Component                                        Title                              Date
Number               Project
    509   FBI         DCS       Phase Review Report, Phase 1/2, Project Digital Storm,     Aug 1998
                                Privacy Impact Assessment, SPIDERNET and
   510     FBI        DCS                                                                  Aug 2001
                                DIGITAL STORM
                                Privacy Impact Assessment, Upgrade from
   511     FBI        DCS                                                                  Dec 2005
                                SPIDERNET to Red Wolf
                                Project Closeout Report, Digital Collection-04, Version
   514     FBI        DCS                                                                   Jul 2005
                                1.1
                                Project Plan, Digital Collection System, Digital
   516     FBI        DCS                                                                  Nov 2004
                                Collection -05
   517     FBI        DCS       Project Plan, Digital Collection, Digital Collection -03   Aug 2003
   518     FBI        DCS       Project Plan, Digital Collection, Digital Collection -04    Jan 2004
   519     FBI        DCS       Project Plan, Digital Storm                                Jun 1998
   520     FBI        DCS       Project Status Report, DCS-5000                            Jun 2006
                                Risk Assessment and Management Plan (RAMP),
   521     FBI        DCS       DCS-6000, Systems Security Plan, Appendix L,               May 2006
                                Version 2.0
                                Security Concept of Operations, DCS-6000, Appendix
   522     FBI        DCS                                                                  May 2006
                                S, Version 1.0
   523     FBI        DCS       Statement of Need, Digital Delight                         Jan 1997
   524     FBI        DCS       System Security Plan, DCS 3000, Version 2.0                Apr 2006
   525     FBI        DCS       System Security Plan, DCS-5000, Revision 3.5               Dec 2005
                                System Security Plan, DCS6000 Voice Box III,
   526     FBI        DCS                                                                  May 2006
                                Version 3.1
   527     FBI        DCS       Test Plan, Digital Storm, Version 1.0                      Feb 1999
                                Work Breakdown Structure (WBS) for Project Digital
   528     FBI        DCS                                                                  Mar 1998
                                Storm, Version 1.0
   529     FBI       EDMS        Privacy Impact Assessment (PIA), Draft                    Sep 2005
                                Certification Decision, Recommendation for ATO for
   530     FBI       EDMS                                                                  Jun 2004
                                ITD/EIMO/EDMS
   531     FBI       EDMS       Certification Test Plan                                    Apr 2004
   532     FBI       EDMS       Configuration Management Plan, Revision b                  Sep 2005
   533     FBI       EDMS       Continuity of Operations Plan                              Apr 2004
   535     FBI       EDMS       Department Investment Review Board
                                EDMS Briefing for the FBI Science and Technology
   536     FBI       EDMS                                                                   Jul 2005
                                Advisory Board
   537     FBI       EDMS       Installation Plan, EDMS
                                EDMS, ELSUR Data Management System
   538     FBI       EDMS
                                Background/History
   540     FBI       EDMS       OMB Exhibit 300 for BY 2007                                Sep 2005
                                Independent Government Cost Estimate, Next
   542     FBI       EDMS       Generation Electronic Surveillance, Data Management        Nov 2005
                                System


                                           88
Item ID             System or
        Component                                     Title                           Date
Number               Project
    543   FBI        EDMS       Monthly Project Status Reporting                     Dec 2005
                                Project Plan, Project EDMS (ELSUR Data
   544     FBI       EDMS                                                            Feb 2004
                                Management System)
   545     FBI       EDMS       Master Schedule, EDMS
   546     FBI       EDMS       Project Status Report, ELSUR EDMS                    Apr 2006
   547     FBI       EDMS       Risk Management Plan, EDMS                           Aug 2000
   548     FBI       EDMS       Risk Management Plan, EDMS, version 3.0
   549     FBI       EDMS       Proposed Risk Worksheets
                                Statement of Need, Phase 1, Information Management
   550     FBI       EDMS                                                            Jan 1998
                                System (IMS)
   551     FBI       EDMS       Strategic Training Plan                              Jun 2005
   552     FBI       EDMS       System Concept of Operations, EDMS, version 1.2      Feb 2004
                                System Security Plan, EDMS, version EDMS SSP Rev.
   553     FBI       EDMS                                                            Apr 2004
                                2.0
                                Target EA and Transition, EDMS Enterprise
   554     FBI       EDMS                                                            Jan 2005
                                Architecture, Executive Summary, V1.0
   555     FBI       EDMS       Test and Evaluation Master Plan, EDMS, Revision A    Aug 2005
                                Concept of Operations (CONOPS), Guardian 2.0,
   558     FBI       FTTTF                                                           Mar 2006
                                Version 1.0
   559     FBI       FTTTF      Concept of Operations, DEEP, Revision 0.3            Sep 2004
                                Critical Performance Measures, Guardian 2, Version
   560     FBI       FTTTF                                                           Apr 2006
                                1.0
   561     FBI       FTTTF      Installation Plan, Guardian 2, Draft Version 5.0     Apr 2006
   562     FBI       FTTTF      Mission Need Statement, Guardian 2, Version C        Jan 2006
                                Project Charter, CTD Data Extraction and Extension
   563     FBI       FTTTF                                                            Jul 2004
                                Project (DEEP)
                                Project Management Plan (Software Development
   564     FBI       FTTTF                                                           Mar 2006
                                Plan), Guardian 2.0, Version 9.0
   565     FBI       FTTTF      Risk Management Plan, Guardian, Version 1.0          Apr 2006
   566     FBI       FTTTF      Risk Register Worksheet, Guardian                    Mar 2006
                                System Engineering Management Plan, Guardian,
   567     FBI       FTTTF                                                           Mar 2006
                                Draft Version 11.0
                                Test and Evaluation Master Plan, Guardian, Version
   568     FBI       FTTTF                                                           Mar 2006
                                1.0
   569     FBI       FTTTF      Test Procedures, DEEP, Release 1.2                   Sep 2005
   570     FBI       FTTTF      Test Procedures, DEEP, Version 1
   571     FBI       FTTTF      Test Procedures, Guardian, Version 7.0               Apr 2006
   573     FBI       IAFIS      Build C Test Report, Volume 1                        Aug 1997
   574     FBI       IAFIS      Build D Installation Plan                            Nov 1997
   575     FBI       IAFIS      Build D Test Report, Volume 1                        Dec 1997
   576     FBI       IAFIS      Build E Installation Plan                            Apr 1998



                                         89
Item ID             System or
        Component                                      Title                          Date
Number               Project
                                Build E System Integration and Test Plan (SITP),
   577     FBI       IAFIS                                                            Jan 1998
                                IAFIS
   578     FBI       IAFIS      Build E Test Report, Volume 2                        May 1998
   579     FBI       IAFIS      Build F Installation Plan                            Mar 1998
   580     FBI       IAFIS      Build F Installation Plan (CWV Draft 3, as Built)     Jun 2000
   581     FBI       IAFIS      Build F1 Test Report, Volume 1                       May 1999
                                Configuration Management Plan, Criminal Justice
   582     FBI       IAFIS                                                           Aug 2002
                                Information Services Division, Revision1.2
   583     FBI       IAFIS      Early Build C Installation Plan                      May 1997
   584     FBI       IAFIS      IAFIS System Acceptance Test Plan, Volume 1          Feb 1999
   585     FBI       IAFIS      IAFIS System Acceptance Test Report                  Aug 1999
                                Independent Verification, Validation & Testing
   586     FBI       IAFIS                                                           Nov 1993
                                (IVV&T) SOW, CJIS Division
   587     FBI       IAFIS      ITN Training Plan                                     Jul 1999
   588     FBI       IAFIS      Operational System Security Plan, AFIS               Jan 1999
   589     FBI       IAFIS      Quality Assurance Plan, CJIS Division                Mar 2005
   591     FBI       IAFIS      System Security Plan, IAFIS, Version 2.1             Mar 2006
                                Systems Engineering Management Plan, Criminal
   592     FBI       IAFIS                                                            Jul 2005
                                Justice Information Services Division
                                Systems Engineering Management Plan, SoSSS,
   593     FBI       IAFIS                                                           Nov 2005
                                Revision 2.2 Final
                                Technical Data Collection Tool, CJIS Division
   594     FBI       IAFIS
                                (spreadsheet)
   595     FBI       IAFIS      Training Plan, AFIS                                  Nov 1998
   596     FBI       IAFIS      Transition Plan, IAFIS, Second Iteration             Apr 1998
   597     FBI       IAFIS      Transition Plan, IAFIS, Third Iteration              Oct 1998
   598     FBI        IATI      CARA WBS
   599     FBI        IATI      CARA Technical Review Board Briefing                 May 2006
   600     FBI        IATI      Concept of Operations, FBI IATI Program, CARA        Apr 2005
                                Concept of Operations, FBI IATI Program, IODM,
   601     FBI        IATI                                                           Sep 2005
                                Version 1.0
                                Configuration Management Plan (CMP), Technology
   602     FBI        IATI                                                           Nov 2003
                                Infusion Program (TI), Volume 1, Version 0.5
                                Earned Value Management Report, IATI Program,
   604     FBI        IATI                                                           May 2006
                                Version 1.0
   605     FBI        IATI      Feasibility Study, IATI Program, CARA, Version 1.0   Mar 2005
   606     FBI        IATI      IATI Green Book Report                                Jun 2006
   608     FBI        IATI      Installation Plan, IATI Program, IODM, Version 2.0   May 2006
   609     FBI        IATI      IODM WBS
   610     FBI        IATI      IODM, Technical Review Board Briefing                 Jan 2006
   611     FBI        IATI      Mission Needs Statement, IATI


                                          90
Item ID             System or
        Component                                      Title                           Date
Number               Project
    612   FBI         IATI      OMB Exhibit 300 for FY 2008                           Mar 2006
    613   FBI         IATI      Privacy Impact Assessment, CARA                       Apr 2006
                                Program Management Plan, Technology Infusion
   614     FBI        IATI                                                            Nov 2003
                                Program, Volume I, Version .19
                                Quality Assurance Plan (QAP), IATI, Volume 1,
   615     FBI        IATI                                                            Nov 2003
                                Version .9
                                Risk Management Plan (RMP), Technology Infusion
   616     FBI        IATI                                                            Nov 2003
                                Program, Version .8
   617     FBI        IATI      Risk Worksheet, CARA                                  May 2006
   618     FBI        IATI      Risk Worksheet, IODM                                  Mar 2006
                                Security Attachment to the FBI System Security Plan
   619     FBI        IATI                                                            May 2006
                                (SSP), IATI Program, IODM, Version 2.0
                                System Engineering Master Plan, IATI Program,
   621     FBI        IATI                                                            May 2004
                                Version 1.0
                                System Installation Plan, IATI Program, CARA,
   622     FBI        IATI                                                            May 2006
                                Version 3.0
                                System Security Plan (SSP), IATI Program, CARA,
   623     FBI        IATI                                                            May 2006
                                Version 6.0
                                System Security Plan (SSP), IATI, SSIAC, SAE,
   624     FBI        IATI                                                            Mar 2006
                                Version 7.0
   625     FBI        IATI      System Test Plan, IATI Program, CARA, Version 3.0      Jan 2006
   626     FBI        IATI      Test and Evaluation Master Plan (TEMP), IATI, Draft   Apr 2004
   627     FBI        IATI      Test Plan, IATI Program, IODM, Version 3.0            May 2006
   628     FBI        IATI      Training Plan, IATI Program, CARA, Version 2.0        Apr 2006
   629     FBI        IATI      Transition Plan, IATI Program, CARA, Version1.0       May 2006
   630     FBI        IDW       ORACLE 9.2.0.4 Upgrade Plan
   631     FBI        IDW       Risk Management Plan, IDW, Version 1.0                Feb 2005
   632     FBI        IDW       Risk Register, IDW (Spreadsheet)                      Dec 2005
   633     FBI        IDW       System Security Plan, IDW, Version 2.0                May 2006
                                Test & Evaluation Test Analysis Report (TETAR) for
   634     FBI        IDW                                                              Jul 2004
                                IDW, Version 1.1
   635     FBI        IDW       Training Management Plan, IDW                         Jun 2004
   636     FBI        IDW       Transition and Deployment Plan, IDW                   Jun 2004
                                Appendix C: Test Cases and Scenarios, Workflow Part
   637     FBI        LEO                                                             Jun 2006
                                1 (Final Draft)
   638     FBI        LEO       Appendix C: Workflow Part 2 (Final Draft)              Jun 2006
   639     FBI        LEO       Appendix C: Workflow Part 3 (Final Draft)              Jun 2006
                                Control Gate 4 & 5, LEO Reengineering/Relocate,
   640     FBI        LEO                                                             Jun 2006
                                Project Health Review
   641     FBI        LEO       Earned Value Management Variances, LEO                May 2006
   642     FBI        LEO       FBI LEO System Security Plan, dated 9 June 2006        Jun 2006


                                          91
Item ID             System or
        Component                                       Title                           Date
Number               Project
                                Implementation Plan for the LEO System Relocation of
   643     FBI        LEO                                                              May 2006
                                Primary Operations to the CJIS Division
                                Installation Plan, LEO System Relocation of Primary
   644     FBI        LEO                                                              Dec 2005
                                Operations to the CJIS Division (Final Draft)
   645     FBI        LEO       IT Contingency Plan, LEO, Version 1.0 (Draft)          May 2006
   646     FBI        LEO       LEO CM Working Group Schedule                           Jun 2004
                                LEO Configuration Management (CM) Processes,
   647     FBI        LEO                                                              Jun 2004
                                dated 21 June 2004
   649     FBI        LEO       Project Implementation Schedule
   650     FBI        LEO       Project Implementation Schedule (Draft)                Apr 2006
   651     FBI        LEO       Project Implementation Schedule, Appendix B (Draft)    Apr 2006
   652     FBI        LEO       Project Implementation Schedule, Appendix C
                                Project Management Plan, LEO, Relocation and
   653     FBI        LEO                                                              Jun 2006
                                Reengineering Project
                                Requirements Traceability Matrix (RTM) for the LEO
   655     FBI        LEO       System Relocation of Primary Operations to the CJIS    Jun 2006
                                Division (Draft)
   656     FBI        LEO       Risk Register                                          Jun 2006
                                System Test Plan, LEO System Relocation of Primary
   657     FBI        LEO                                                              Jun 2006
                                Operations to the CJIS Division (Final Draft)
   658     FBI        LEO       Test Readiness Review, LEO Relocation                   Jun 2006
                                Transition Plan, LEO System Relocation of Primary
   659     FBI        LEO                                                              Jun 2006
                                Operations to the CJIS Division (Final Draft)
   660     FBI       R-DEx      Certification Test Plan, R-DEx, Version 1.6            Feb 2005
   661     FBI       R-DEx      Certification Test Report, R-DEx, Version 1.6          Feb 2005
                                Risk Assessment and Risk Management Matrix
   662     FBI       R-DEx                                                              Jul 2005
                                (RMM), R-DEx, Version 1.0
                                Security Requirements Traceability Matrix (SRTM),
   663     FBI       R-DEx                                                             Mar 2004
                                Version 1.0
                                System Security Plan, FBI Regional Data Exchange
   664     FBI       R-DEx                                                             May 2006
                                (R-DEx), Version 4.2
                                 External Interface Checkout Test Report for NCIC
   665     FBI       NCIC                                                              May 1999
                                2000
                                Concept of Operations, CJIS, NCIC 2000/IAFIS
   668     FBI       NCIC                                                              Aug 1995
                                Interface
                                Configuration and Data Management Plan for NCIC
   669     FBI       NCIC                                                              Feb 1998
                                2000
                                Facility Requirements and Installation Plan for NCIC
   670     FBI       NCIC                                                               Jul 1998
                                2000
                                Fingerprint Matching Subsystem Beta Test Report,
   672     FBI       NCIC                                                              May 1999
                                NCIC 2000
   673     FBI       NCIC       FMS Reintegration Test Report for NCIC 2000            Mar 1999


                                          92
Item ID             System or
        Component                                       Title                            Date
Number               Project
                                Interim Disaster Recovery Concept of Operations, CJIS
   674     FBI       NCIC       Division Information Technology Management               Jun 2003
                                Section, NCIC
                                Maintainability Test Plan and Procedure for NCIC
   675     FBI       NCIC                                                               May 1999
                                2000
   676     FBI       NCIC       Maintainability Test Plan for NCIC 2000                 Feb 1994
   677     FBI       NCIC       Maintainability Test Report for NCIC 2000                Jun 1999
   678     FBI       NCIC       NCIC 2000 Security Certification and Testing Analysis     Jul 1999
   679     FBI       NCIC       NCIC 2000 Segment                                        Jun 1994
   680     FBI       NCIC       NCIC 2000 Segment                                       May 1994
   681     FBI       NCIC       Personnel Requirements and Training Plan for NCIC       Nov 1998
                                Plan for Early Delivery of the FMS Subsystem, NCIC
   682     FBI       NCIC                                                               Apr 1997
                                2000 Program
   683     FBI       NCIC       Risk Analysis of the NCIC 2000, Working Paper           Oct 1989
   684     FBI       NCIC       Risk Management Plan for NCIC 2000, Revision 2          Feb 1996
   685     FBI       NCIC       Security Certification Status Report                     Jun 1998
   686     FBI       NCIC       Successive Level Integration Test Plan for NCIC 2000      Jul 1996
   687     FBI       NCIC       System Engineering Management Plan for NCIC 2000        May 1996
   688     FBI       NCIC       System Security Plan (SSP), NCIC                          Jul 2006
                                Technical Data Collection Tool, CJIS Division, NCIC
   689     FBI       NCIC
                                (spreadsheet)
   690     FBI       NCIC       Test and Evaluation Master Plan for NCIC 2000           Mar 1996
   691     FBI       NCIC       Transition Plan for NCIC 2000                           Aug 1998
                                Preliminary Transition Plan for NCIC,Volume I of VII,
   693     FBI       NCIC                                                               Apr 1997
                                Transition Overview
   694     FBI       N-DEx      Certification Test Plan, N-DEx                          Oct 2004
                                Concept of Operations, Law Enforcement National
   695     FBI       N-DEx                                                              May 2006
                                Data Exchange (N-DEx), Version 1.5
                                Mission Needs Statement, Law Enforcement National
   697     FBI       N-DEx                                                              Dec 2005
                                Data Exchange (N-DEx), Version 1.0
   699     FBI       N-DEx      Program Plan, Law Enforcement N-Dex                      Jul 2006
                                Risk Management Plan, Law Enforcement N-DEx,
   700     FBI       N-DEx                                                              Aug 2006
                                Version 1.4
   701     FBI       N-DEx      Risk Register Worksheet, N-DEx                           Jun 2006
                                System Security Plan Attachment H - Risk Assessment,
   702     FBI       N-DEx                                                               Jun 2004
                                N-Dex Prototype, Version 1.1
                                Concept of Operations, NGI Advanced Fingerprint
   703     FBI        NGI                                                                Jan 2006
                                Identification Technology Component
                                Concept of Operations, NGI Disposition Reporting
   704     FBI        NGI                                                                Jun 2006
                                Improvements Component




                                          93
Item ID             System or
        Component                                       Title                          Date
Number               Project
                                Concept of Operations, NGI Enhanced IAFIS
   705     FBI        NGI                                                              Jan 2006
                                Repository Component
                                Concept of Operations, NGI Interstate Photo System
   706     FBI        NGI                                                              Jan 2006
                                Enhancements Component
                                Concept of Operations, NGI National Palm Print
   707     FBI        NGI                                                              Jan 2006
                                System Component
                                Concept of Operations, NGI Quality Check
   708     FBI        NGI                                                              Jan 2006
                                Automation Component
   709     FBI        NGI       Configuration Management Plan, NGI                    Apr 2006
                                Investment Management/Project Review Board
   710     FBI        NGI                                                             Apr 2005
                                (IMPRB), Summary Notes
                                Earned Value, Template for Monthly Project Status
   711     FBI        NGI
                                Reporting
   713     FBI        NGI       Investment Management/Project Review Board            Feb 2006
   714     FBI        NGI       Cost Benefit Analysis Worksheet
                                Milestone Report, NGI Requirements Analysis, Draft
   715     FBI        NGI                                                             May 2006
                                Rebaseline 2
   716     FBI        NGI       Mission Needs Statement, NGI, Final, Version 1.0      Apr 2006
                                PIA, Advanced Fingerprint Identification Technology
   719     FBI        NGI
                                (AFIT)
   720     FBI        NGI       PIA, Enhanced IAFIS Repository
   721     FBI        NGI       PIA, Interstate Photo System (IPS)
   722     FBI        NGI       PIA, National Palm Print System (NPPS)
   725     FBI        NGI       Program Management Review                             May 2006
   726     FBI        NGI       Project Management Plan, NGI, Version 1.0              Jan 2006
   727     FBI        NGI       Quality Assurance Plan, NGI                           May 2006
   728     FBI        NGI       Risk Register, NGI                                    May 2006
   729     FBI        NGI       Risk Management Plan, NGI                             Nov 2005
                                Certification Test Plan, NICS/E-Checks/NICS Call
   730     FBI       NICS                                                             Sep 2005
                                Center
                                Concept of Operations, NICS Efficiency Upgrade
   731     FBI       NICS                                                             Mar 2003
                                Project
                                Configuration Management Plan, CJIS Division,
   732     FBI       NICS                                                             Aug 2002
                                Revision 1.2
   733     FBI       NICS       Contingency Plan, NICS                                Dec 2001
   735     FBI       NICS       Contingency Plan, NICS and E-Check                    Sep 2005
   737     FBI       NICS       Formal Qualification Test Plan, NICS                    Jul 1998
   739     FBI       NICS       Formal Qualification Test Report, NICS                Oct 1998
   740     FBI       NICS       Installation Plan, NICS                                Jun 1998
   741     FBI       NICS       NICS Efficiency Upgrade Installation Plan, Draft      Sep 2003
   742     FBI       NICS       NICS Rehost Transition Plan                           May 2004


                                          94
Item ID             System or
        Component                                      Title                          Date
Number               Project
    743   FBI         NICS      Quality Assurance Plan, CJIS Division                Mar 2005
    744   FBI         NICS      Security Requirements Traceability Matrix, NICS
                                Superdome System Administration and Installation
   745     FBI       NICS                                                             Jul 2005
                                Cookbook, NICS [Rehost]
   746     FBI       NICS       System Security Plan, NICS/ FBI                      May 1998
                                System Test Plan, NICS Efficiency Upgrade Project,
   747     FBI       NICS                                                            Jun 2003
                                Draft
   748     FBI       NICS       System Tests, NICS
   749     FBI       NICS       Transition Plan NICS Efficiency Upgrade Project      Oct 2003
                                Windows 2003 Server Installation Cookbook, NICS,
   750     FBI       NICS                                                            Mar 2006
                                Revision 3.0 [Efficiency Upgrade]
   751     FBI      SCION       Full Privacy Impact Assessment, TS/SCI LAN           Dec 2002
   752     FBI      SCION       Configuration Management Plan, SCION                 Dec 2003
   753     FBI      SCION       System Security Plan, SCION                          Aug 2004
   754     FBI      SCION       Certification Test Results, TS/SCI LAN               May 2003
   755     FBI      Sentinel    Acquisition Plan (FD-911), SENTINEL, Version 2.0     Aug 2005
   757     FBI      Sentinel    Communication Plan, SENTINEL, Version 1.0            Sep 2005
                                Configuration Management Plan, SENTINEL PMO,
   758     FBI      Sentinel                                                          Jul 2005
                                Version 1.1
   759     FBI      Sentinel    Deliverables, SENTINEL SOW, Attachment 2
   760     FBI      Sentinel    IMPRB Acquisition Plan Review, Gate 2 Signatures      Jul 2005
   761     FBI      Sentinel    Incremental Development Plan (IDP), SENTINEL,         Jul 2005
   762     FBI      Sentinel    Investment Evaluation Form, Gate 1 Signatures         Jul 2005
                                Meeting Minutes, Contract Implementation Review
   763     FBI      Sentinel                                                         Mar 2006
                                (CIR)-Part 1
                                Meeting Minutes, Contract Implementation Review
   764     FBI      Sentinel                                                         Apr 2006
                                (CIR)-Part 2
                                Meeting Minutes, Requirements Clarification Review
   765     FBI      Sentinel                                                         May 2006
                                (RCR), Version 1.0
   766     FBI      Sentinel    Mission Needs Statement                               Jul 2005
   769     FBI      Sentinel    Risk Register, SENTINEL                              Jun 2006
   770     FBI      Sentinel    Program Management Plan, SENTINEL, Version 1.2       Aug 2005
   771     FBI      Sentinel    Quality Management Plan, SENTINEL, Version 1.0        Jul 2005
   772     FBI      Sentinel    Risk Management Plan, SENTINEL, Version 1.2           Jul 2005
   773     FBI      Sentinel    Source Selection Decision Document for SENTINEL      Mar 2006
                                System Concept of Operations, SENTINEL, Version
   775     FBI      Sentinel                                                          Jul 2005
                                1.1
                                Systems Engineering Management Plan (SEMP),
   776     FBI      Sentinel                                                         Jun 2005
                                SENTINEL
   777     FBI      Sentinel    Test and Evaluation Master Plan (TEMP), SENTINEL      Jul 2005




                                          95
Item ID             System or
        Component                                      Title                           Date
Number               Project
                                90 Day Evaluation Pilot, FDF Automation System User
   778     FBI       SMIS                                                              Jan 2005
                                Requirements for FBI Security Divisions
   782     FBI       SMIS       Certification Test Plan, FDF-A                        Jan 2006
   783     FBI       SMIS       Certification Test Report, FDF-A                      Feb 2006
   784     FBI       SMIS       Concept of Operations, FBI SMIS, Version 2.0          Dec 2004
                                Configuration Management Plan, SMIS, PMO, Version
   785     FBI       SMIS                                                              Jul 2005
                                1.0
                                Control Gate Review Exit Report, SMIS, FDF-A, Gate
   786     FBI       SMIS                                                             Mar 2006
                                6 - OAR
   788     FBI       SMIS       Cost Benefit Analysis, FDF-A, (Spreadsheet)
                                Initial Privacy Impact Assessment, Polygraph
   791     FBI       SMIS                                                             Aug 2005
                                Workflow Management Application
   792     FBI       SMIS       Initial Privacy Impact Assessment, SMIS               Aug 2005
                                Investment Management/ Project Review Board
   793     FBI       SMIS                                                             Aug 2005
                                (IMPRB), Summary Notes
                                Investment Management/ Project Review Board
   794     FBI       SMIS                                                              Jan 2005
                                (IMPRB), Summary Notes
   797     FBI       SMIS       OMB Exhibit 300 for BY 2007                            Jan 2006
                                Privacy Impact Assessment, Security Division
   798     FBI       SMIS       Implementation the Financial Disclosure Forms         Feb 2006
                                Analyzer
                                Project Health Review, SMIS, FDF-A, Gate 2
   799     FBI       SMIS                                                             Mar 2006
                                Approval
   800     FBI       SMIS       Project Management Review, SMIS                        Jan 2006
   801     FBI       SMIS       Project Management Review, SMIS                       Feb 2006
   802     FBI       SMIS       Project Management Review, SMIS                       Mar 2006
   803     FBI       SMIS       Project Management Review, SMIS                       Dec 2005
   804     FBI       SMIS       Project Management Review, SMIS                       Nov 2005
   805     FBI       SMIS       Project Management Review, SMIS                       Apr 2005
   806     FBI       SMIS       Project Management Review, SMIS                         Jul 2005
   807     FBI       SMIS       Project Management Review, SMIS                        Jun 2005
   808     FBI       SMIS       Project Management Review, SMIS                       May 2005
   809     FBI       SMIS       Project Management Review, SMIS                       Oct 2005
   810     FBI       SMIS       Project Management Review, SMIS                       Sep 2005
   811     FBI       SMIS       Project Management Review, SMIS                       May 2006
                                Project Plan, SMIS Facilities Certification and
   812     FBI       SMIS                                                             Mar 2006
                                Accreditation Component, Draft
                                Project Plan, SMIS Financial Disclosure Forms
   813     FBI       SMIS                                                             Feb 2006
                                Analyzer Component, Draft
   814     FBI       SMIS       Project Plan, SMIS, Version 0.7, Draft                 Jul 2005
   815     FBI       SMIS       Quality Management Plan, SMIS, Version 1.0             Jul 2005
   816     FBI       SMIS       Risk Management Matrix, FDF-A, Version 1.0            Feb 2006

                                          96
Item ID             System or
        Component                                       Title                            Date
Number               Project
    817   FBI         SMIS      Risk Management Plan, SMIS, Final 1.1                   Dec 2005
    818   FBI         SMIS      Risk Register, SMIS                                     Mar 2006
                                Security Concept of Operations for the Automated
   819     FBI       SMIS       Facilities Management System for Facilities             May 2006
                                Certification and Accreditation
                                Security Concept of Operations, Polygraph Workflow
   820     FBI       SMIS                                                               Oct 2005
                                Management Application
   823     FBI       SMIS       SMIS Master Schedule
   825     FBI       SMIS       System Concept of Operations, E-Disclose
                                System Security Plan, Financial Disclosure Forms
   826     FBI       SMIS                                                                Jan 2006
                                Analyzer (FDF-A), Version 1.2
                                System Security Plan, Polygraph Workflow
   827     FBI       SMIS                                                               Apr 2006
                                Management System
                                Test Analysis Report for the Polygraph Workflow
   828     FBI       SMIS                                                               Nov 2005
                                Management Application
                                Test and Evaluation Master Plan for the Polygraph
   829     FBI       SMIS                                                               Aug 2005
                                Workflow Management Application
   830     FBI       SMIS       Test Procedure Results, PWMA                            Nov 2005
                                Testing and Evaluation Master Plan Unit Testing and
   831     FBI       SMIS                                                               Mar 2006
                                Traceability Matrix, SMIS FCA Application
   832     FBI       SMIS       Threat Assessment Report, FDF-A                         Feb 2006
                                Training Plan for the Polygraph Workflow
   833     FBI       SMIS                                                               Sep 2005
                                Management Application
   835     FBI        TRP       IT Maintenance & Licensing Dashboard                    Jun 2006
   836     FBI        TRP       Project Summary Report, TRP                             Dec 2006
   838     FBI        TSC       Deployment Plan                                         Feb 2006
                                ATO The TSC Terrorist Screening Database 1B
   839     FBI        TSC                                                               Dec 2004
                                System (TSDB-1B)
   840     FBI        TSC       IT Risk Management Matrix, TSC
   842     FBI        TSC       IV & V Test Procedures for TSDB 1.8.0.2, TSC
   843     FBI        TSC       IV & V Test Report, TSDB 1.8.0.2, TSC                   May 2006
   844     FBI        TSC       Project Schedule TSDB 1 8 Mar                            Jun 2006
                                Risk Management Plan, Terrorist Screening Center
   845     FBI        TSC                                                               Apr 2006
                                (TSC), Version 1.7 (Draft)
   846     FBI        TSC       System Security Plan, TSDB Phase 1B, Version 1.2         Jul 2005
   847     FBI        TSC       Test Management Plan, TSDB 1.7.1                        Mar 2006
                                Independent Verification and Validation (IV &V) Plan,
   848     FBI        TSC
                                TSC
   849     FBI        TSC       TSDB Automated Ingest Project Plan                      Apr 2006
   850     FBI        TSC       Template for Monthly Project Status Report
   851    EOIR       eWorld     Project Management Plan, CASE Court Pilot               Apr 2006


                                          97
Item ID             System or
        Component                                       Title                            Date
Number               Project
                                Project Management Plan, Digital Audio Recording
   852    EOIR       eWorld                                                             May 2006
                                Project, Version 0.05
                                Project Management Plan, Immigration Review
   853    EOIR       eWorld                                                             May 2006
                                Information Exchange System Phase 1 Design (Draft)
                                Market Survey, EOIR, Digital Audio Recording
   854    EOIR       eWorld                                                             Apr 2006
                                Project, Version 0.16 (Draft)
                                IT Contingency Plan, EOIR, JCON-II/CASE, Version
   855    EOIR       eWorld                                                             Nov 2005
                                2.0
   856    EOIR       eWorld     Configuration Management Plan, EOIR                     Mar 2006
                                Configuration Management Plan, eWorld, Version 1.0
   857    EOIR       eWorld                                                             Feb 2006
                                (Draft)
                                Privacy Impact Assessment, Executive Office for
   860    EOIR       eWorld                                                             Apr 2006
                                Immigration Review
   862    EOIR       eWorld     OCIO: Project Dashboard
   863    EOIR       eWorld     System Security Plan (SSP) for JCON-II/CASE, EOIR       Mar 2006
   864    EOIR       eWorld     DOJ Validation Test Script Forms, JCON-II/CASE
                                System Security Policy, EOIR, JCON-II/CASE
   865    EOIR       eWorld                                                             Nov 2005
                                Network
                                Incident Response Plan for JCON-II/CASE, EOIR,
   867    EOIR       eWorld                                                             Feb 2006
                                Version 2.1
                                Request for Approval of EOIR Quality Assurance
   868    EOIR       eWorld                                                             Jun 2006
                                Guidelines
                                Strategic Plan 2005-2010, Integrated Wireless Network
  1004    JMD         IWN                                                               Jun 2006
                                (IWN), (Draft)
  1005    JMD        JCON       Strategic and Tactical Plan, JCON                       Apr 2005
  1008    JMD         PKI       Project Plan Schedule
                                Request for Information (RFI), JCON PMO, Version
  1012    JMD        JCON                                                               Apr 2006
                                1.0
  1013   ODAG         OFC       Project Schedule, Milestones (Spreadsheets)
  1014   ODAG         OFC       Project Schedule (Spreadsheets)
  1017     FBI        LEO       OMB Exhibit 300 for BY 2008, CEI
  1017    JMD         PKI       OMB Exhibit 300 for BY 2008, CEI
                                Security Operating Procedures Guide, Firebird
  1021    DEA        Firebird                                                           Mar 2004
                                (FSOPG), Version 4.0
  1022    DEA         M204      Events WBS CY 2004                                      Dec 2006
  1023    FBI       CARTSAN     OMB Exhibit 300 for BY 2008                             Dec 2006
  1024    FBI          DCS      OMB Exhibit 300 for BY 2008                             Aug 2006
  1025    FBI        EDMS       OMB Exhibit 300 for BY 2008                             Aug 2006
  1026    FBI        FTTTF      OMB Exhibit 300 for BY 2008                             Dec 2006
  1027    FBI         IAFIS     OMB Exhibit 300 for BY 2008                             Aug 2006
  1028    FBI         NCIC      OMB Exhibit 300 for BY 2008                             Aug 2006
  1029    FBI        N-DEx      OMB Exhibit 300 for BY 2008                             Dec 2006


                                          98
Item ID             System or
        Component                                       Title                           Date
Number               Project
   1030   FBI         NGI       OMB Exhibit 300 for BY 2008                            Aug 2006
   1031   FBI         NICS      OMB Exhibit 300 for BY 2008                            Dec 2006
   1032   FBI        R-DEx      OMB Exhibit 300 for BY 2008                            Dec 2006
   1033   FBI        Sentinel   OMB Exhibit 300 for BY 2008                            Aug 2006
   1034   FBI         TRP       OMB Exhibit 300 for BY 2008                            Dec 2006
   1035   FBI         TSC       OMB Exhibit 300 for BY 2008                            Dec 2006
   1036   FBI        BRIDG      OMB Exhibit 300 for BY 2008                            Aug 2006
                                Source Selection Plan, FBI Sentinel Program, Version
  1037     FBI      Sentinel                                                           Aug 2005
                                2.95
  1038    FBI       Sentinel    Statement of Work, Sentinel, Version 2.1               Aug 2005
  1039    FBI       Sentinel    Lessons Learned, Sentinel, Version 1.0                  Jul 2005
  1369   ODAG        OFC        Third Party Tool Recommendations                       Jun 2005
  1370   ODAG        OFC        Background Comp Analysis
                                Draft Comparative Analysis of OCDETF Requirements
  1371   ODAG         OFC                                                              Apr 2003
                                with Existing DOJ Data Warehousing Efforts
  1372   ODAG         OFC       Comparative Analysis of the FBI's SCOPE and FTTTF      Apr 2003
  1374   ODAG         OFC       FTTTF Tech Concept of OPS                              Feb 2003
                                SCOPE Functional Requirements with NEDRS
  1375   ODAG         OFC
                                Comparison
  1376   ODAG         OFC       Survey of Data Warehousing Tools - FTTTF, NEDRS        Mar 2004
                                Comparative Analysis of the FBIs SCOPE and DEAs
  1377   ODAG         OFC                                                              Feb 2003
                                NEDRS Systems
  1378    DEA       Firebird    OMB Exhibit 300 for BY 07                              Sep 2005
                                Firebird Information Technology Support (FITS)
  1379    DEA       Firebird                                                           Mar 2004
                                Market Research Report
                                Firebird Information Technology Support (FITS)
  1380    DEA       Firebird                                                           Mar 2004
                                Acquisition Strategy Executive Summary
  1383    JMD        LCMS       Privacy Impact Assessment (Draft)                      May 2005
  1384    DEA        Merlin     Security Test & Evaluation Plan and Procedures         Aug 2003
  1385    DEA        Merlin     Certification Results                                  Aug 2003
  1386     FBI       N-Dex      Privacy Impact Assessment, N-Dex                       Mar 2006
  1387     FBI       N-Dex      Project Schedule, N-Dex
  1388    JMD         IWN       Market Research Summary                                Apr 2004
  1389    JMD         IWN       Concept of Operations, IWN
  1390    OJP        JGMS       Validation Test Script Forms, GMS                      Feb 2006
  1392    BOP        ITS-II     OMB Exhibit 300 BY 2006
  1394    DEA        M204       Risk Inventory, M204
  1395    ATF        NIBIN      Test Rig Test Evaluation Summary - Phase 1 & 2         Jan 2006
  1396    ATF        NIBIN      Test Rig Test Evaluation Summary - Phase 3             Mar 2006
  1397    ATF        NIBIN      Testing on Test Rig Test Plan - Phases 1 & 2, NIBIN    Jan 2006


                                          99
Item ID             System or
        Component                                       Title                             Date
Number               Project
   1398   ATF        NIBIN      Testing on Test Rig Test Plan - Phase 3, NIBIN           Mar 2006
   1399   JMD        UFMS       Privacy Impact Assessment, UFMS, Working Draft           Dec 2006
                                EIS Information System Objective Architecture (Draft),
  1400    DEA         EPIC                                                               Aug 1991
                                EPIC
  1401    DEA        EPIC       EIS Objective System Description, EPIC                   Sep 1993
  1402    DEA        EPIC       Internal Database Migration Project (Work Plan), EPIC     Jun 1997
  1403    DEA        EPIC       Internal Database Migration Requirements, EPIC            Jun 1997
  1404    DEA        EPIC       Seizure System Risk Assessment Report, EPIC              May 2005
  1405    DEA        EPIC       Information Systems Project management Plan, EPIC        Sep 1991
  1408    DEA        EPIC       EIS Risk Impacts, EPIC
  1409    DEA        EPIC       Year 2000 Test Plan, EPIC
  1410    DEA        EPIC       Operational Test Report                                   Jan 1993
  1411    DEA        EPIC       Initial Privacy Impact Assessment for EID
  1412    DEA        EPIC       Development Inspection Logs, EPIC
  1413    ATF        NIBIN      Deployment of the NIBIN Enterprise - Set 9               Jan 2006
  1414    ATF        NIBIN      NIBIN Deployment Plan, IBIS 3.4.6 Upgrade                Mar 2006
  1415    ATF        NIBIN      NIBIN Deployment Schedule, IBIS 3.4.6
  1416    ATF        NIBIN      Brass TRAX Installation Schedule Template
  1417    JMD        UFMS       Debrief on Vendor Market Analysis Results                Nov 2002
  1418    JMD        UFMS       Financial Vendor Response Summary Draft
  1419    JMD        UFMS       Summary of Market Research
                                ST & E Plans and Procedures, Appendix E , Model 204
  1420    DEA        M204                                                                Nov 2004
                                Corporate Systems
                                Certification Results, Appendix F, Model 204
  1421    DEA        M204                                                                Nov 2004
                                Corporate Systems
  1422    DEA        Merlin     User Training Plan (Section 1.14 of Proposal 5209)       Dec 2005
  1423    DEA        Merlin     Classified Network Integration Test Plan & Procedures     Jun 2006
  1424    DEA        Merlin     Merlin Functional Test Plan and Procedures                 Jul 2006
  1425    DEA        Merlin     Merlin Integration Test Plan and Procedures                Jul 2006
  1426    DEA        Merlin     QA Procedures for Merlin Builds                          May 2006
  1427    DEA        Merlin     Change Management Recommendations                         Jun 2006
                                Requirements for Classified Network Integration Test
  1428    DEA        Merlin                                                              May 2006
                                Facility
                                System Engineering, Infrastructure Test, and
  1429    DEA        Merlin                                                              Dec 2005
                                Integration (Section 1.2 of Proposal 5209)
                                Deployment of the Merlin System Plan (Section 1.1.6
  1430    DEA        Merlin                                                              Dec 2005
                                of Proposal 5209)
  1431    DEA        Merlin     Configuration Management Plan for the Merlin Project     Sep 2006
  1432    DEA        Merlin     Merlin Quality Assurance Plan                            Feb 2005
  1433    DEA        Merlin     Merlin Site Checklist                                    Apr 2007
  1434    FBI       Sentinel    Sentinel Phase 1 Privacy Impact Assessment               Feb 2006



                                         100
                                                              APPENDIX VI

                           SYSTEM SUMMARIES


      The system summaries in this appendix contain information from
documents the components submitted that we did not verify. The purpose is
to provide readers additional information on each system or project and the
environment in which it operates or is expected to operate.

       The lists of studies, plans, and evaluations include documents
representing entire studies, plans, and evaluations we determined complied
with one or more of the standards described in Finding 1. The lists do not
include all other artifacts the components submitted that we determined
contributed to compliance with the standards, such as spreadsheets and
briefing slides.

      The document titles in the lists may include additional acronyms that
we have defined in the text preceding the document list for each system.
Acronyms not found in the text of this appendix are located in Appendix II.
Blank cells in the Date column indicate items for which no date was
provided.




                                    101
                     National Integrated Ballistics Information Network
                    Bureau of Alcohol, Tobacco, Firearms, and Explosives

                 The ATF’s National Integrated Ballistics Information Network (NIBIN) program
supports criminal investigations in conjunction with the Integrated Ballistics Identification
System (IBIS), a nationally distributed ballistic evidence-imaging database. This database
assists state and local law enforcement officials in identification of firearms and bullets collected
at crime locations and allows for comparison and correlation to other crime scene evidence or
recovered crime guns. NIBIN allows for the ATF to provide ballistic imaging, comparison
equipment, and the network over which it communicates to 182 state and local law enforcement
partners at 239 data remote sites. State and local NIBIN partners enter bullet and cartridge
casing evidence into the systems and conduct electronic comparisons to find potential matches.
"Hits" or matches between crimes, not otherwise known to be related, assist law enforcement
officials in locating repeat violent offenders. The program began spending funds in FY 1996,
and the system is operational.

                             NIBIN Studies, Plans, and Evaluations
     Document Type                              Title                                Date         Item #
 Business Case Study        OMB Exhibit 300 for BY 2007                             May 2006            8
 Privacy Impact
                            Privacy Threshold Analysis, IBIS
 Assessment                                                                                               9
 Risk Management Plan       Risk Assessment, NIBIN and IBIS                          Jun 2005            13
                            Request for Justification for Other Than Full and
 Acquisition Plan
                            Open Competition                                        Jan 2002              12
 Security Plan              Security Plan, NIBIN and IBIS                           Jun 2005              14
 Test Plan                  Security Test and Evaluation, NIBIN                     Dec 2005              15
 Test Plan                  Testing on Test Rig Test Plan – Phase 3, NIBIN          Mar 2006            1398
                            Testing on Test Rig Test Plan – Phases 1 & 2,
 Test Plan
                            NIBIN                                                   Jan 2006            1397
 Implementation Plan        Deployment of the NIBIN Enterprise – Set 9              Jan 2006            1413
 Implementation Plan        NIBIN Deployment Plan, IBIS 3.4.6 Upgrade               Mar 2006            1414
 Training Plan              NIBIN Training Set 11, Version 1.2, Draft                                     17
 Contingency/Continuity
                            Contingency Plan – Appendix I, NIBIN
 Plan                                                                                                      2
 Contingency/Continuity
                            Contingency Plan, DOJ, NIBIN and IBIS
 Plan                                                                               Jun 2005               3
 Test Report                Security Test and Evaluation, NIBIN                     Dec 2005              15
 Test Report                Security Testing and Evaluation, NIBIN                  Dec 2005              16
                            Test Rig Test Evaluation Summary – Phase 1 &
 Test Report
                            2                                                       Jan 2006            1395
 Test Report                Test Rig Test Evaluation Summary – Phase 3              Mar 2006            1396




                                                102
                                  Inmate Telephone System-II
                                      Bureau of Prisons

        The BOP’s Inmate Telephone System-II (ITS-II) project began spending funds in FY
1998. The project is a centralized inmate calling system intended to provide inmates with a
secure, efficient, and cost effective means of maintaining contact with family, friends, and the
community while at the same time preventing crime, fraud, and abuse by inmates. It provides
the BOP with enhanced call monitoring, call recording, and reporting capabilities. ITS-II is
funded and maintained using non-appropriated funds generated from the Commissary Trust
Fund. Maintenance costs for the system are established and funded from the actual costs of
service charges for telephone usage. Annual funding is based on the projected sales for that year
which exceeds the outlays for the project. ITS-II is fully installed and is in a steady-state status.
It consists of local networks at all BOP facilities and primary and secondary Central Office
Facilities and is connected via a Wide Area Network.

                             ITS-II Studies, Plans, and Evaluations
    Document Type                                 Title                              Date        Item #
 Market/Other Research      Request for Comment                                                     416
                            Analysis of Alternatives, Next Generation
 Business Case Study                                                                 Jul 1996           18
                            Inmate Telephone System
 Business Case Study        OMB Exhibit 300 BY 2006                                                1392
 Privacy Impact
                            Privacy Impact Assessment                               Apr 2006            20
 Assessment
 Acquisition Plan           Individual Acquisition Planning                         Jan 1997         19
 Project Plan               Program Plan                                           May 2005         412
                            Inmate Telephone System (ITS-II) Security
 Security Plan                                                                      Dec 2004            21
                            Plan
 Systems Engineering
                            Engineering Management Plan                             Apr 2005        415
 Management Plan
                            Site Network Integration Plan, ITS-
 Conversion Plan                                                                    Nov 2001            22
                            II/TRUFACS
                            Site Network Integration Plan, ITS-
 Implementation Plan                                                                Nov 2001            22
                            II/TRUFACS
 Contingency/Continuity
                        Contingency Plan                                            Nov 2004        414
 Plan




                                                103
                                         Concorde
                                  Drug Enforcement Agency

        The DEA is the federal entity charged with the enforcement of the controlled substance
laws and regulations. It has approximately 300 locations throughout the world and utilizes
various “stove-piped” applications in support of primary businesses – criminal data gathering,
case status tracking, lab analysis, evidence and seized asset handling, licit drug manufacturing
and distribution tracking (DEA’s diversion function), and administrative functions such as
tracking agent property (weapons, fleet, badges), and agent tasking. The Concorde program is
intended to eliminate these stove-piped systems by integrating business functions and allowing
for information sharing across the main DEA business areas.


                           Concorde Studies, Plans, and Evaluations
     Document Type                              Title                              Date        Item #
 Privacy Impact
                           Initial Privacy Impact Assessment , Concorde                            35
 Assessment
 Risk Management Plan      Risk Management Plan, Concorde, Version 1.0            Feb 2005         46
                           Statement of Work/Acquisition Plan, Concorde,
 Acquisition Plan                                                                Nov 2002          49
                           Version 1.0
                           Project Management (PMP), IMPACT Fiscal
 Project Plan                                                                     Sep 2004         42
                           Year 2004, Version 2.1
 Project Plan              OMB Exhibit 300 for BY 2007                            Sep 2005         39
                           System Security Authorization Agreement
 Security Plan                                                                   Mar 2002          50
                           (SSAA), Appendix E, Web Architecture
 Configuration             Configuration Management Plan, Concorde,
                                                                                  Jul 2004         29
 Management Plan           Version 1.0
                           Quality Management Plan (QMP), Office of
 Quality Assurance Plan                                                           Sep 2005         83
                           Information Systems (SI), Version 4.1
                           Project Test Plan (PTP), IMPACT, Release 2.0,
 Test Plan                                                                        Feb 2005         44
                           Version 1.0
 Implementation Plan       Project Deployment Plan, Concorde, Version 1.0         Sep 2004         41
                           Training Program, PMP Concorde, FY 2006,
 Training Plan                                                                    Oct 2005         51
                           Version 1.0
 Contingency/Continuity
                        Contingency Plan, Web Architecture, Version 2.0          Mar 2006          30
 Plan
                        Operational Test for Impact on Security (OTIS)
 Test Report                                                                      Jul 2002         40
                        Report of the Pilot Implementation, IMPACT
                        System Security Authorization Agreement
 Test Report                                                                     Mar 2002          50
                        (SSAA), Appendix E, Web Architecture
 Performance            OCIO: Project Dashboard Project Managers
                                                                                 Aug 2005          38
 Evaluation             Worksheet, Concorde



                                              104
        In the 1990’s, DEA introduced the agency-wide Firebird client/server, which is the core
local area network. Concorde is built on the Firebird infrastructure. The focus of Concorde is
the investigative and case management process.

        The Concorde project is composed of four major technology enhancements:
Investigative Management Program and Case Tracking System (IMPACT), Plan Enforcement
Tracking System (PlanETS), Statistical Management and Report Tracking System (SMARTS),
and the Centralized Evidence Reporting and Tracking System (CERTS). Although the OMB
exhibit 300 shows the project began spending funds in FY 2003, IMPACT’s pilot
implementation was released in 1999. The scheduled completion for the entire project is the end
of FY 2009.




                                              105
                                        E-Commerce
                                  Drug Enforcement Agency

        The DEA’s Office of Diversion Control (OD) regulates the manufacture and distribution
of controlled substances in the United States. This regulatory control is designed to prevent the
diversion of legitimate pharmaceutical drugs into illegal channels and to ensure that there is a
sufficient supply for legitimate medical uses while preventing the introduction of contraband
controlled substances into the legal distribution channels.

                        E-Commerce Studies, Plans, and Evaluations
     Document Type                              Title                              Date       Item #
                          Economic Impact Analysis of the Electronic
 Business Case Study                                                             Mar 2005           58
                          Orders Rule
                          Initial Economic Impact Analysis of the
 Business Case Study                                                             Mar 2003           61
                          Proposed Electronic Orders Rule
 Business Case Study      OMB Exhibit 300 for BY 2007, Final CSOS                 Sep 2005          64
                          Detailed Privacy Impact Assessment,
 Privacy Impact
                          Attachment: DEA CSOS Privacy Policy,                    Sep 2005          56
 Assessment
                          Section IV
                          Facilitated Risk Assessment Process, DEA
 Risk Management Plan Diversion Control E-Commerce PKI, SSAA,                    Dec 2003           60
                          Appendix G, Version 1.0
                          Risk Management Plan, DEA Diversion Control,
 Risk Management Plan                                                             Oct 2005          72
                          E-Commerce System, Version 1.0
                          Program Management Plan, DEA Diversion
 Project Plan                                                                    Nov 2004           68
                          Control E-Commerce PKI, Version 3.1
 Security Plan            System Security Plan, CSOS, Version 1.0                 Jun 2005          74
                          Operational and Technical Architecture, Public
 Systems Engineering
                          Key Infrastructure Analysis, DEA Diversion              Jun 2003          65
 Management Plan
                          Control E-Commerce PKI
 Configuration            Configuration Management Plan, DEA Diversion
                                                                                  Feb 2006          53
 Management Plan          Control E-Commerce System, Version 1.0
                          Process and Product Quality Assurance, DEA
 Quality Assurance Plan Diversion Control E-Commerce System,                     May 2005           67
                          Version 1.0
                          Acceptance Test Plan, Public Key Infrastructure
 Test Plan                                                                        Jan 2005          52
                          Analysis, Diversion PKI, CSOS
                          Test Plan and Reporting Procedures, CSOS/
 Test Plan                                                                       Dec 2001           75
                          EPCS
                          Training Plan, Public Key Infrastructure
 Training Plan                                                                   Aug 2002           76
                          Analysis, DEA Electronic Commerce PKI
                          Contingency Plan, DEA Diversion Control E-
 Contingency/Continuity
                          Commerce PKI System (EPCS/CSOS), Version               Nov 2003           54
 Plan
                          1.0


                                              106
     Document Type                            Title                                  Date       Item #
 Contingency/Continuity Contingency Plan, DEA Diversion E-Commerce
                                                                                   May 2005             55
 Plan                   System Security Plan, Appendix L, Version 1.1
                        System Security Authorization Agreement
 Test Report                                                                        Mar 2004            73
                        (SSAA), Appendix F, CSOS and EPCS PKI
                        Diversion Metrics Implementation Report, DEA
 Post-Implementation
                        Diversion Control, E-Commerce System,                       Jan 2006            57
 Evaluation
                        Version 1.0

       The Government Paperwork Elimination Act (GPEA) of 1999 (Title XXII of
Public Law 105-277) mandates that Federal agencies allow for the option of electronic
submission of required records and for the use of electronic signatures when practicable.

        In July 1999, DEA undertook the initiative to begin designing two e-commerce initiatives
that would enable industry to conduct e-commerce. The first project was called the
Manufacturers and Distributors (MADI) Public Key Infrastructure (PKI) Analysis and Design
Program, which involved the designing of a PKI proof-of-concept to better oversee and manage
the transfer of Schedule II controlled substances between DEA registrants, manufacturers,
wholesalers, and pharmacies. The second project was called DEA – Department of Veterans
Affairs (DEVA) PKI Pilot Program, which involved designing a public key infrastructure
architecture suitable for use in transmitting prescriptions electronically and identifying aspects of
the relationship between the physician and the pharmacy that can be enhanced through the
implementation of a PKI.

       The initial phases of both projects entailed requirements and design analysis. The next
phases of the e-commerce projects introduced a change in the project titles: Controlled
Substance Ordering System (CSOS) and Electronic Prescriptions for Controlled Substances
(EPCS). The DEA and DVA pilot continues under the EPCS project.

      The CSOS/EPCS project began spending funds in FY 1999 and is estimated to be
complete in FY 2016. The DEA has begun the collection and analysis of CSOS orders.




                                                107
                  El Paso Intelligence Center (EPIC) Information Systems
                                  Drug Enforcement Agency

Other Components Involved: Federal Bureau of Investigation
                           U.S. Marshals Service
                           Bureau of Prisons

                             EIS Studies, Plans, and Evaluations
    Document Type                               Title                             Date       Item #
                           National Drug Seizure System Discussion Paper,
 Market/Other Research                                                           Feb 2004       432
                           CDX
                           NDSS Project, Background: NIBRS/UCR Data,
 Market/Other Research                                                          May 2003        427
                           CDX
 Business Case Study       OMB Exhibit 300 for BY 2007                           Sep 2005           77
 Privacy Impact
                           Initial Privacy Impact Assessment for EID                          1411
 Assessment
 Risk Management Plan      EIS Risk Impacts, EPIC                                             1408
 Risk Management Plan      Risk Assessment Report, EPIC                         May 2005       417
                           Risk Management Plan, Open Connectivity
 Risk Management Plan                                                           Aug 2004        429
                           Project, DEA EPIC, Revised
 Risk Management Plan      Seizure System Risk Assessment Report, EPIC          May 2005      1404
                           Information Systems Project management Plan,
 Project Plan                                                                    Sep 1991     1405
                           EPIC
 Security Plan             System Security Plan, ESS                            Aug 2005        420
 Systems Engineering       System Engineering Management Plan, EPIC
                                                                                 Jun 2004       424
 Management Plan           Open Connectivity Project
                           Configuration Control Board (CCB) Charter and
 Configuration
                           Request for Information Technology Services           Feb 2004       425
 Management Plan
                           (RITS) Policy
                           Quality Management Plan (QMP), Office of
 Quality Assurance Plan                                                          Sep 2005           83
                           Information Systems (SI), Version 4.1
 Verification/Validation   Verification and Validation Plan, EPIC Open
                                                                                 Apr 2004       426
 Plan                      Connectivity Project
 Test Plan                 Development Inspection Logs, EPIC                                  1412
 Test Plan                 Year 2000 Test Plan, EPIC                                          1409
 Training Plan             Training Plan, EPIC Open Connectivity Project         Jun 2004      423
 Contingency/Continuity
                         Contingency Plan, ESS                                  Mar 2006        422
 Plan
 Test Report             Development Inspection Logs, EPIC                                    1412
 Test Report             Operational Test Report                                 Jan 1993     1410

       EPIC accomplishes its mission in part by manually processing written or telephonic
requests for information received from State, local and Federal law enforcement personnel, on
persons, modes of transportation, organizations, or addresses that are suspected of being engaged


                                              108
in, or associated with some criminal activity. Watch Officers using a multiple database query
process the requests for information.

        The objective of the Open Connectivity Project is to enable EPIC to provide secure
internet access to tactical intelligence information for Federal, State and Local law enforcement
agencies. The system objective is to streamline access by providing to all EPIC customers a
point of entry that permits direct and remote electronic access from the users’ existing IT and
internet architecture and provides an automated response to queries. With the Open Connectivity
Project, EPIC will provide this access for its customers in the form of a secure, Internet
connection. Through an EPIC web site, law enforcement officers will access EPIC services,
which will include the multiple source data repository, comprehensive query results, multiple
formatted reports, and automated analytical support.




                                              109
                                          Firebird
                                  Drug Enforcement Agency

        Firebird is the DEA's global computing infrastructure, providing the foundation for the
communications network, the client and server hardware and software, and the DEA's complete
office automation system to all DEA personnel and contractors. A client-server based network,
Firebird links DEA offices and components worldwide and supports the full spectrum of DEA
operations. Firebird enables the DEA's investigative case management system, the financial
management system, and all other Sensitive But Unclassified (SBU) information systems that
DEA personnel use to support their daily job functions. Firebird also provides the interface for
all new web-based applications and lays the foundation for improved information sharing with
partner agencies.

                        Firebird Studies, Plans, and Evaluations
     Document Type                             Title                               Date       Item #
                        Firebird Information Technology Support (FITS)
 Market/Other Research                                                           Mar 2004          1379
                        Market Research Report
 Business Case Study    OMB Exhibit 300 for BY 07                               Sep 2005           1378
                        Project Management Plan (PMP), Firebird
 Project Plan           Infrastructure Technology Services (FITS),                Jan 2006          129
                        Version 3.0
                        Security Operating Procedures Guide, Firebird
 Security Plan                                                                   Mar 2004          1021
                        (FSOPG), Version 4.0
 Configuration          Configuration Management Plan (CMP), FITS,
                                                                                  Jan 2006          116
 Management Plan        Version 1.3
 Quality Assurance Plan Quality Assurance Plan, FITS, Version 2.1                 Jan 2005          130
                        Security Test and Evaluation Plan and
 Test Plan                                                                        Jul 2004          131
                        Procedures, Appendix E
                        EOS Software Deployment Function Description,
 Implementation Plan                                                                                118
                        Version 2.5, not dated
                        Windows 2003 (W2K3) Implementation Plan,
 Implementation Plan                                                             Jun 2006           139
                        FITS MDE, Version 1.2
 Contingency/Continuity Windows Server 2003 Infrastructure Disaster
                                                                                 Jun 2006           141
 Plan                   Recovery Document, FITS, Version 2.1
                        Test Matrix, Desktop and Server Management
 Test Report                                                                                        137
                        Evaluation 2005
 Performance            Enterprise Health and Performance Metrics
                                                                                May 2006            117
 Evaluation             Review
 Performance
                        Firebird Dashboard                                       Apr 2006           121
 Evaluation
 Performance
                        SIO Firebird project portfolio                            Jul 2006          132
 Evaluation




                                              110
        In 1994 the DEA began replacing its proprietary Wang Office Automation (OA) system
with Firebird. The OA system provided personnel with basic office automation software and
access to DOJ mainframe systems, but did not allow for electronic case management, or
electronic communications and information sharing between DEA offices. The DEA designed
Firebird based on forward looking enterprise-wide and Federal IT standards, the recognized
advantages of a modular architecture, and the need for a flexible system that is maintainable and
expandable.

       The Firebird project began spending funds in FY 1994, and entered the
Operational/Maintenance phase in FY 2003. In May 2003, the DEA completed its initial
deployment of Firebird, which supports nearly 16,000 users, over 14,500 workstations, and over
500 servers in more than 370 locations worldwide.




                                              111
                                Model 204 Corporate Systems
                                 Drug Enforcement Agency

Other Components Involved: Federal Bureau of Investigation

        The DEA performs mainframe data processing activities utilizing Computer Corporation
of America (CCA) Model 204 database management system software for the development of
applications for the corporate mission and administrative databases. These Model 204 Corporate
Systems applications or subsystems provide the capability for DEA personnel to acquire
information relating to drug related activities and cases. The applications also provide a method
to track administrative information relating to DEA equipment and personnel.

                             M204 Studies, Plans, and Evaluations
    Document Type                                 Title                            Date       Item #
 Business Case Study       OMB Exhibit 300 for BY 2007                            Jul 2005         80
                           Project Management Plan (PMP), Events Activity
 Project Plan              Subsystem (EVENTS), Calendar Year 2004,               Jun 2004           82
                           Version 1.0
                           Systems Security Authorization Agreement
 Security Plan                                                                  Nov 2004            85
                           (SSAA), Model 204 Corporate Systems (M204)
                           Project Level Configuration Management Plan,
 Configuration
                           Events Activity Subsystem (EVENTS), Version           Jun 2004           81
 Management Plan
                           1.0
                           Quality Management Plan (QMP), Office of
 Quality Assurance Plan                                                          Sep 2005           83
                           Information Systems (SI), Version 4.1
                           Independent Verification and Validation (IV&V)
 Verification/Validation
                           Software Testing Procedure for Mainframe              Jun 2004           79
 Plan
                           Environment, Version 2.0
                           ST & E Plans and Procedures, Appendix E,
 Test Plan                                                                                      1420
                           Model 204 Corporate Systems
                           Certification Results, Appendix F, Model 204
 Test Report                                                                                    1421
                           Corporate Systems

         The M204 system includes approximately 32 core investigative and administrative
applications that support DEA's mission, strategic goals, and objectives as well as serving the
specific needs of external DEA partners. Several of the legacy applications now running in the
M204 environment are scheduled for replacement through a number of modernization initiatives.
To enhance the usability and simplify access to M204 applications until the modernization
initiatives deploy viable solutions, DEA has acquired and is implementing JANUS Web Server
to provide browser based access to selected M204 applications. JANUS will replace the
mainframe "green screen" with user friendly drop down menus, data entry validation and
navigation features.

       The M204 project began spending funds in FY 1980, and is in the
operational/maintenance phase of the DEA SDLC.

                                              112
                                           Merlin
                                   Drug Enforcement Agency

        Merlin provides DEA offices with the capability to transmit, access, and share classified
intelligence data over the existing classified telecommunications networks that service the
DEA’s domestic and foreign offices.

        The Merlin system provides the end-users workstations and the necessary enterprise and
site-level servers to run Active Directory services, mail services, local file services, and a Merlin
Web site. The Merlin system provides the end users with a complement of commercial
applications such as Microsoft Office, i2’s Analyst’s Notebook, and ArcView. It also provides
the users access to DEA custom applications that use a browser (Internet Explorer) interface.

                             Merlin Studies, Plans, and Evaluations
    Document Type                                  Title                              Date       Item #
 Business Case Study        OMB Exhibit 300 for BY 2007                                             271
                            Risk Assessment Report, DEA Classified
 Risk Management Plan
                            Infrastructure Support System                           May 2005        261
 Project Plan               Merlin Program Plan, Version 2                          Jun 2006        268
                            System Security Authorization Agreement
 Security Plan
                            (SSAA), DCISS                                           Aug 2003        272
 Configuration              Configuration Management Plan for the Merlin
 Management Plan            Project                                                  Sep 2006      1431
                            Quality Management Plan (QMP), Office of
 Quality Assurance Plan
                            Information Systems (SI), Version 4.1                   Sep 2005         83
 Quality Assurance Plan     Merlin Quality Assurance Plan                           Feb 2005       1432
 Test Plan                  Security Test & Evaluation Plan and Procedures          Aug 2003       1384
 Contingency/Continuity
                        Contingency Plan for the DEA Merlin Program
 Plan                                                                               Jun 2006        259
 Test Report            Certification Results                                       Aug 2003       1385
                        COOP Test Report using VERITAS Replication
 Test Report
                        EXEC 3.1                                                    Mar 2006        260
                        System Security Authorization Agreement
 Test Report
                        (SSAA), DCISS                                               Aug 2003        272
 Performance            Earned Value Management (EVM) Merlin, Doc
 Evaluation             #12-35-41-55                                                 Jul 2006       262
 Performance
                        Merlin Dashboard - May
 Evaluation                                                                          Jun 2006       264




                                                113
          Organized Crime Drug Enforcement Task Force Fusion Center System
                        Office of the Deputy Attorney General

Other Components Involved: Executive Office for the U.S. Attorneys
                                  Bureau of Alcohol, Tobacco, Firearms, and Explosives
                                  U.S. Marshals Service
                                  Federal Bureau of Investigation
                                  Criminal Division
                                  Tax Division

        The mission of the OCDETF Fusion Center (OFC) is to fuse data from multiple disparate
sources and extract previously unidentified relationships and knowledge from the fused data
relating to persons and organizations. The OFC will support the OCDETF intelligence and
investigative activities task force with a fused database comprised of information from its
member agencies. The Fusion Center System is a web based application that will be used by the
OFC analysts and agents to search on information contained within this fused database.
OCDETF began spending funds on the Fusion center system in FY 2003.

                           OFC Studies, Plans, and Evaluations
    Document Type                              Title                           Date      Item #
                          Comparative Analysis of the FBIs SCOPE and
 Market/Other Research
                          DEAs NEDRS Systems                                  Feb 2003     1377
                          Comparative Analysis of the FBI's SCOPE and
 Market/Other Research
                          FTTTF                                              Apr 2003      1372
                          Draft Comparative Analysis of OCDETF
 Market/Other Research    Requirements with Existing DOJ Data
                          Warehousing Efforts                                Apr 2003      1371
 Market/Other Research    Third Party Tool Recommendations                   Jun 2005      1369
 Business Case Study      OMB Exhibit 300 for BY 2006                        Sep 2004       316
 Privacy Impact
                          Privacy Impact Assessment, OFC (Draft)
 Assessment                                                                  Aug 2004       320
 Risk Management Plan     Risk and Issue Management Master Plan              Jun 2005       328
                          Justification for Other than Full and Open
 Acquisition Plan
                          Competition                                        May 2004       306
 Project Plan             Project Management Plan, OFC Deployment            Sep 2005       321
 Project Plan             Project Plan, Software Version 1.0, OFC            May 2006       322
 Security Plan            System Security Plan, OFC Compass                                 334
                          Quality Management Plan (QMP), Office of
 Quality Assurance Plan
                          Information Systems (SI), Version 4.1               Sep 2005       83
 Test Plan                System Test Plan, OFC, Version 1.2                  Jan 2006      335
 Training Plan            Compass Training Plan, OFC, Version 1.0             Sep 2005      289
 Contingency/Continuity
                        IT Contingency Plan, IRSS, Version 2.2
 Plan                                                                        Mar 2005       305
 Test Report            System Test Plan, OFC, Version 1.2                   Jan 2006       335


                                            114
                                           eWorld
                          Executive Office for Immigration Review

         The Executive Office for Immigration Review's (EOIR) eWorld project began spending
funds in FY 2002 and is the agency's primary initiative in its capital planning and investment
control process. In this multi-year, multi-phased, multi-disciplinary project, EOIR will make the
transition from paper to electronic documents for its official adjudication records spanning from
initial filing through final appellate decisions.

                            eWorld Studies, Plans, and Evaluations
    Document Type                                 Title                           Date       Item #
                           Market Survey, EOIR, Digital Audio Recording
 Market/Other Research                                                           Apr 2006       854
                           Project, Version 0.16 (Draft)
 Business Case Study       OMB Exhibit 300 for BY 2007                           Jan 2006       112
 Privacy Impact            Privacy Impact Assessment, Executive Office for
                                                                                 Apr 2006       860
 Assessment                Immigration Review
 Project Plan              Project Management Plan, CASE Court Pilot             Apr 2006       851
                           Project Management Plan, Digital Audio
 Project Plan                                                                   May 2006        852
                           Recording Project, Version 0.05
                           System Security Plan (SSP) for JCON-II/CASE,
 Security Plan                                                                   Mar 2006       863
                           EOIR
 Configuration
                           Configuration Management Plan, EOIR                   Mar 2006       856
 Management Plan
 Configuration             Configuration Management Plan, eWorld,
                                                                                 Feb 2006       857
 Management Plan           Version 1.0 (Draft)
 Contingency/Continuity    IT Contingency Plan, EOIR, JCON-II/CASE,
                                                                                 Nov 2005       855
 Plan                      Version 2.0




                                              115
                         Biometric Reciprocal Identification Gateway
                              Federal Bureau of Investigation

        The FBI's IAFIS is a 10-rolled fingerprint identification system that is used by federal,
state, and local law enforcement and authorized non-criminal justice agencies to identify subjects
with criminal histories. The DHS IDENT is a 2-flat fingerprint identification system originally
deployed by the Immigration and Naturalization Service as a database of criminal and illegal
aliens to assist Border Patrol in identifying aliens who repeatedly attempt illegal border
crossings. The DHS utilizes IDENT for search and enrollment purposes when non-US citizens
travel to the United States through an authorized port of entry. The Department of State (DOS)
Consular Posts utilize IDENT for search and enrollment purposes when determining suitability
for aliens traveling to the United States. Currently, IAFIS and IDENT are linked through limited
automated and manual processes.

                            BRIDG Studies, Plans, and Evaluations
    Document Type                                Title                             Date      Item #
                           Full Business Case, IDENT-IAFIS
 Business Case Study                                                              Jan 2006       455
                           Interoperability, iDSM Project
 Business Case Study       OMB Exhibit 300 for BY 2008                           Aug 2006      1036
 Privacy Impact            Privacy Impact Assessment for the DOJ/FBI-
                                                                                                 459
 Assessment                DHS Interim Data Sharing Model (iDSM)
 Risk Management Plan      Risk Management Plan, iDSM Project                     Jan 2006       462

       The FBI supports DHS and DOS through daily biographic-based extracts of wants and
warrants that have an associated FBI number and Known and Suspected Terrorists. The extract
process, however, does not provide real-time access to current information, includes only a
subset of information, and does not allow international, federal, state, and local fingerprint
contributors access to all immigration information. Various legislative acts demand that the FBI
and DHS ensure that the biometric systems are able to seamlessly share data that is complete,
accurate, current, and timely. Through this interoperability, the criminal and immigration
information will be accessible to and shared among other federal, state, and local law
enforcement agencies.

       In order to realize interoperability, investment is needed to develop the Biometric
Reciprocal Identification Gateway (BRIDG). BRIDG development is planned in three phases:
interim Data Sharing Model (iDSM); Initial Operating Capacity (IOC); and the Full Operating
Capacity (FOC). In FY 2008, investment is needed to support the operation and maintenance of
the iDSM and development of both the IOC and FOC portions of the BRIDG. The BRIDG
investment will allow the creation and maintenance of biometric-based links between the
biographic information contained in the IAFIS and IDENT systems, in near real time, as well as
provide the infrastructure necessary to exchange data between the systems to ensure that
biometric-based immigration and travel history information and criminal history record
information is available to authorized personnel.




                                              116
                 Computer Analysis Response Team Storage Area Network
                            Federal Bureau of Investigation

        In the aftermath of the September 11, 2001 terrorist attacks, the FBI collected digital
evidence from businesses, personal computers and loose media from across the US. The FBI did
not possess a storage/examination/review system that could efficiently and consistently process
large quantities of digital evidence collected from multiple sources. The Computer Analysis
Response Team Storage Area Network (CARTSAN) System is a unique state-of-the-art "Digital
Forensic Network" that allows for the efficient forensic processing and review of computer
evidence. This system was certified and accredited on August 15, 2005. It offers the Computer
Analysis Response Team (CART) Examiner and FBI Case Agent a resource that ensures
accurate and timely handling of computer evidence acquired in support of Criminal, Cyber,
Counterintelligence and Counterterrorism matters in a forensically secure environment.

                           CARTSAN Studies, Plans, and Evaluations
     Document Type                              Title                               Date    Item #
 Business Case Study        OMB Exhibit 300 for BY 2008                            Dec 2006   1023
 Privacy Impact
                            Privacy Impact Assessment, CARTSAN, (Draft)                               446
 Assessment
 Risk Management Plan       Risk Management Plan                                    Jul 2005      447
 Security Plan              System Security Plan, CARTSAN                          Aug 2005       449
 Configuration              Configuration Management Plan, Version 0.1
                                                                                                  438
 Management Plan            (Draft)
                            Digital Evidence Laboratory Quality Assurance
 Quality Assurance Plan                                                            Apr 2006           439
                            Manual Supplement, CART
 Test Plan                  Certification Test Report, CARTSAN                     Aug 2005       436
 Implementation Plan        CARTSAN Review Network Installation Plan               Jun 2005       434
 Test Report                Certification Test Report, CARTSAN                     Aug 2005       436
 Performance
                            Earned Value Management Worksheet                       Jul 2005      441
 Evaluation
 Performance
                            Investment Management/Project Review Board             Aug 2005           443
 Evaluation

       Each CARTSAN System has the ability to temporarily store large quantities of digital
computer evidence. This system establishes digital connectivity between the CART forensic
examination and review processes, eliminating the need to store forensic examination data on
multiple hard drives. The system greatly reduces the time required to process and disseminate
computer related evidence.

       In FY 2006, CART anticipates completing more than 10,000 examinations of computer
media, equating to more than one Petabyte of digital evidence. One Petabyte of information is
equivalent to 250 billion pages of text; enough to fill 20 million, four-drawer filing cabinets. As
the amount of data average businesses collect and store is doubling each year, this amount of
data will be what many businesses will be managing within the next 5 years. As this growth


                                               117
occurs, the FBI is required to expand its capability to process and temporarily store these
increasing amounts of data.

       Phase I of the CARTSAN project, initiated in FY 2002 and concluded in FY 2006,
included the design, acquisition, and deployment of CARTSAN Systems to 25 major FBI Field
Office and Regional Computer Forensic Laboratories (RCFL) locations. Phase II is scheduled to
begin in BY 2007 with the allocation of personnel resources to begin planning for the next
deployment of systems. Phase II includes the purchase and deployment of 20 new CARTSAN
Systems as well as operation, maintenance and upgrade costs for the existing 25 systems.




                                               118
                                Combined DNA Index System
                               Federal Bureau of Investigation

        The Combined DNA Index System (CODIS) is an automated DNA information
processing and telecommunications system that supports the National DNA Index System, State
DNA Index System, and Local DNA Index System. The concept behind CODIS is to create a
database of the States' convicted offender profiles to help solve violent crimes for which there
are no suspects. CODIS enables Federal, State, and local forensic laboratories to exchange and
compare DNA profiles electronically, thereby linking serial violent crimes to each other and to
known offenders. CODIS uses two indexes to generate investigative leads in crimes where
biological evidence is recovered from the crime scene. The Convicted Offender Index contains
profiles of individuals convicted of felony offenses and other crimes. The Forensic Index
contains DNA profiles developed from crime scene evidence, such as semen stains or blood.

       This investment began in 1990 and is scheduled to be completed by January 2010.

                         CODIS Studies, Plans, and Evaluations
     Document Type                            Title                              Date    Item #
 Business Case Study    FY 2008 Full Business Case                              Dec 2005    467
 Privacy Impact         Privacy Impact Assessment, National DNA Index
                                                                                 Oct 2004          471
 Assessment             System (NDIS) Database
                        Risk Management Plan, CODIS, Draft
 Risk Management Plan                                                           May 2006           473
                        Version 01
                        Single Acquisition Management Plan for the
 Acquisition Plan                                                                Feb 2006          475
                        Combined DNA Index System
                        Product Management Plan, CODIS Bridge
 Project Plan                                                                    Sep 2005          472
                        Contract Extension
 Security Plan          System Security Plan, CODIS                              Jan 2005          476
 Contingency/Continuity Three Part Contingency Plan, CODIS Bridge
                                                                                 Oct 2005          477
 Plan                   Contract Extension




                                              119
                                      Data Centers Unit
                                Federal Bureau of Investigation

        The Data Centers project began spending funds in FY 2004. The project consists of:
(1) operations and maintenance of installed computing platforms, data storage devices, and a
channel extension network; (2 ) modernization of computing platforms, operating systems, data
storage devices, and channel extension; (3) enhancement of existing hardware / software (for
example, for storage expansion, greater processing capacity, process improvement, and systems
integration); and (4) periodic development for new technology or projects such as robotic tape
libraries and channel extension (past) and an enterprise backup solution (future). The mission of
the Data Centers Unit is to provide an IT infrastructure and effective, efficient, and timely
technical support that is the foundation for supporting the FBI's priorities. The major goal of the
Data Center Unit is to provide continuous, effective automated production workload support and
business continuity for all FBI investigative and administrative missions.

                          DCU Studies, Plans, and Evaluations
     Document Type                            Title                                  Date    Item #
 Business Case Study    OMB Exhibit 300 for BY 2008                                 Jul 2005    489
                        Contribution of the Mainframe to the Bureau's
 Project Plan                                                                      Feb 2006       481
                        Mission, FBI
 Project Plan           Project Plan, Global Mirroring Project                     Dec 2005       490
                        System Security Plan, FBI, Enterprise Servers,
 Security Plan                                                                     Oct 2004       492
                        Version 1.2
 Contingency/Continuity Continuity of Operations Plan, FBI, ITOD,
                                                                                   Jan 2005       480
 Plan                   Operations Section
 Performance            Project Summary Report, ITOD Mainframe
                                                                                                  491
 Evaluation             System Upgrade




                                               120
                                  Digital Collection System
                               Federal Bureau of Investigation

        The Digital Collection project began spending funds in FY 1997. Digital Collection
consists of the DCS-3000, DCS-5000, and DCS-6000, which provide digital collection tools,
foreign counterintelligence gathering, and law enforcement evidence collection, respectively.

                             DCS Studies, Plans, and Evaluations
     Document Type                                Title                          Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                          Aug 2006   1024
 Privacy Impact            Privacy Impact Assessment, SPIDERNET and
                                                                                Aug 2001        510
 Assessment                DIGITAL STORM
 Privacy Impact            Privacy Impact Assessment, Upgrade from
                                                                                Dec 2005        511
 Assessment                SPIDERNET to Red Wolf
                           Risk Assessment and Management Plan (RAMP),
 Risk Management Plan      DCS-6000, Systems Security Plan, Appendix L,         May 2006        521
                           Version 2.0
                           Project Plan, Digital Collection System, Digital
 Project Plan                                                                   Nov 2004        516
                           Collection - 05
                           Project Plan, Digital Collection, Digital
 Project Plan                                                                   Aug 2003        517
                           Collection - 03
                           Project Plan, Digital Collection, Digital
 Project Plan                                                                    Jan 2004       518
                           Collection - 04
 Project Plan              Project Plan, Digital Storm                          Jun 1998        519
 Security Plan             System Security Plan, DCS 3000, Version 2.0          Apr 2006        524
 Security Plan             System Security Plan, DCS-5000, Revision 3.5         Dec 2005        525
                           System Security Plan, DCS6000 Voice Box III,
 Security Plan                                                                  May 2006        526
                           Version 3.1
 Test Plan                 Test Plan, Digital Storm, Version 1.0                 Feb 1999       527
 Performance
                           Project Status Report, DCS-5000                       Jun 2006       520
 Evaluation
 Post-Implementation       Phase Review Report, Phase 1/2, Project Digital
                                                                                Aug 1998        509
 Evaluation                Storm,
 Post-Implementation       Project Closeout Report, Digital Collection - 04,
                                                                                 Jul 2005       514
 Evaluation                Version 1.1

         Today's information technology capabilities afford terrorists and criminals many avenues
to coordinate and commit offenses against US citizens and interests. Traditional phones were the
primary avenue criminals used to communicate information regarding unlawful acts. Today,
more incidents are committed and facilitated by terrorists using high-tech, non traditional
communications methods. Communications methods are dramatically increasing in number and
complexities, resulting in the continual and evolving need for advanced methods of electronic
surveillance of voice communications - methods of electronic surveillance have limited-life
utility in intercepting newer, more secure types of publicly offered communications.


                                              121
        The expansion of electronic surveillance activity in frequency, sophistication, and
linguistic needs continues to increase the level of support required. An important factor behind
this expansion is the changing demographic of targets that must be monitored by investigators.
The FBI must supply equipment and analytical tools to uniquely qualified language specialists to
speed the translation and transcription process to meet the investigators' needs. Further, the life
span of today's technology is often much shorter than older technologies, resulting in more
frequent need for solution development. Terrorist and criminal activity has expanded across
international boundaries. Current United States-based intercept technologies and collection
capabilities are not always sufficient to meet global requirements. Increased coordination and
cooperation with other government agencies and governments of other countries place are
needed.

       Digital collection must continue to clearly define electronic surveillance requirements
and closely track manufacturers' approaches and solutions. Collection equipment manufacturers
continue toward complying with technical standards as a result of the Communications
Assistance to Law Enforcement Act (CALEA). One result of the CALEA standard is more
information is available for collection. This increase in data coupled with the increased
complexity of computer-based electronic surveillance information management systems will
impose a requirement for efficient distribution to users and their respective collection systems.




                                               122
                      Electronic Surveillance Data Management System
                               Federal Bureau of Investigation

        The Electronic Surveillance (ELSUR) Data Management System (EDMS) project began
spending funds in FY 2004. The system ensures the timely and proactive collaboration, analysis,
and integration of Title III and Foreign Intelligence Surveillance Act (FISA) intelligence and
evidence collected from lawfully authorized digital intercepts and seizures.

                            EDMS Studies, Plans, and Evaluations
     Document Type                             Title                             Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2007                          Sep 2005    540
 Business Case Study       OMB Exhibit 300 for BY 2008                          Aug 2006   1025
 Privacy Impact
                            Privacy Impact Assessment (PIA), Draft               Sep 2005       529
 Assessment
 Risk Management Plan      Risk Management Plan, EDMS                           Aug 2000        547
 Risk Management Plan      Risk Management Plan, EDMS, Version 3.0                              548
                           Project Plan, Project EDMS (ELSUR Data
 Project Plan                                                                    Feb 2004       544
                           Management System)
                           System Security Plan, EDMS, version EDMS
 Security Plan                                                                   Apr 2004       553
                           SSP Rev. 2.0
 Configuration
                           Configuration Management Plan, Revision b             Sep 2005       532
 Management Plan
 Test Plan                 Certification Test Plan                               Apr 2004       531
                           Test and Evaluation Master Plan, EDMS,
 Test Plan                                                                      Aug 2005        555
                           Revision A
                           Target EA and Transition, EDMS Enterprise
 Conversion Plan                                                                 Jan 2005       554
                           Architecture, Executive Summary, Version 1.0
 Contingency/Continuity
                           Continuity of Operations Plan                         Apr 2004       533
 Plan
 Performance               EDMS Briefing for the FBI Science and
                                                                                  Jul 2005      536
 Evaluation                Technology Advisory Board
 Performance
                           Project Status Report, ELSUR EDMS                     Apr 2006       546
 Evaluation
 Performance
                           Department Investment Review Board                                   535
 Evaluation
 Performance
                           Monthly Project Status Reporting                                     543
 Evaluation

        EDMS integrates and consolidates ELSUR products, such as wiretaps, telephone, email,
and seized media from multiple field collection systems. As ELSUR products are consolidated
into EDMS, the system performs multiple functions, including indexing, data minimization (for
legal compliance), language translation, data prioritization, and other functions. Most
importantly, EDMS provides the capability for agents, translators, and analysts to have increased
access to many types of ELSUR data extracted from multiple collection sources to view and


                                              123
analyze within a single system. This significantly increases the FBI's ability to manage, analyze,
and share ELSUR products and greatly improves the efficiency with which investigators can
develop leads and intelligence through integrating best-of-breed automated and interoperable
data analysis capabilities.

        While providing significant tactical value, EDMS cannot continue to support the FBI's
counterintelligence and counterterrorism mission objectives as it currently exists due to the
increase in data collection volume and user base. Since October 2004, EDMS experienced a 300
percent increase in average users per month. Over the past 3 years, the volume of ELSUR
collections has grown over 62 percent for audio wire-taps and over 3,034 percent for digital
collections such as email and seized media. The current system is unable to scale and meet these
growing demands. Because of the increased burden, the ability to share ELSUR data and
collaborate efficiently with other authorized federal, state, local law enforcement and federal
intelligence agencies will no longer be feasible unless the proposed enhancements are
implemented.

       The budget year 2008 primary objectives are to: provide additional disk capacity to
support current and anticipated storage needs; enhance current system security controls to
adequately protect data; upgrade interfaces and data loaders to provide for increases in data
volume inputs and more efficiently manage data; and acquire additional software licenses and
processors to accommodate anticipated increase in users.




                                              124
                            Foreign Terrorist Tracking Task Force
                               Federal Bureau of Investigation

        In 2001, Homeland Security Presidential Directive-2 established the Foreign Terrorist
Tracking Task Force (FTTTF) to provide actionable intelligence to law enforcement to assist in
the location and detention and ultimate removal of terrorists and their supporters from the US.

        In 2005, a White House Memorandum on Strengthening the Ability of the Department of
Justice to Meet Challenges of the Security of the Nation directed the Attorney General to
establish a "National Security Service" and to combine the missions, capabilities, and resources
of the counterterrorism, counterintelligence, and intelligence elements of the FBI under the
leadership of a senior FBI official. As a result, the FBI created the National Security Branch.
This Branch will enable FBI to meet information sharing Presidential Guidelines and Initiatives
such as the Intelligence Reform and Terrorism Prevention Act of 2004.

                            FTTTF Studies, Plans, and Evaluations
    Document Type                                 Title                           Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                           Dec 2006   1026
 Risk Management Plan      Risk Management Plan, Guardian, Version 1.0           Apr 2006    565
                           Project Management Plan (Software
 Project Plan                                                                    Mar 2006         564
                           Development Plan), Guardian 2.0, Version 9.0
 Systems Engineering       System Engineering Management Plan,
                                                                                 Mar 2006         567
 Management Plan           Guardian, Draft Version 11.0
                           Test and Evaluation Master Plan, Guardian,
 Test Plan                                                                       Mar 2006         568
                           Version 1.0
 Implementation Plan       Installation Plan, Guardian 2, Draft Version 5.0       Apr 2006        561

        In FY 2006, an FBI assessment determined that existing HPSD-2 national security and
counterterrorism operations would be enhanced by providing analysis and technology support by
capitalizing on FTTTF's existing operations in line with FBI's Enterprise Architecture. This will
enable multiple Divisions to consolidate technological and analytical resources to support the
combined activities of the counterterrorism, counterintelligence, and intelligence elements of the
FBI. As part of this mission, the National Security Branch must deliver new analytical
capabilities and operational products (such as activity reports, records, and information), real-
time to State, local law enforcement, Tribal, FTTTF, National Counterterrorism Center, and
other agencies. This data warehousing for search and retrieval capability will leverage best
information and querying practices for information sharing through FBI's architecture and
electronic directory services across domains. These technological solutions will increase the
efficiency in sharing information with State, local and Tribal law enforcement and make it easier
for the FBI to access and analyze the information. This solution supports consolidation of
resources to combine activities of the counterterrorism, counterintelligence, and intelligence
elements of the FBI.

       The FTTTF project began spending funds in FY 2005. This FY 2008 justification is
designed to address the core IT strategy of the FTTTF and the National Security Analysis Center

                                              125
(NSAC) while providing the framework for integration into the National Security Branch’s
Analytical Capabilities Program. This IT enhancement will support the core strategy of the
NSB.




                                             126
                  Integrated Automated Fingerprint Identification System
                              Federal Bureau of Investigation

        The Integrated Automated Fingerprint Identification System (IAFIS) is a rapid, electronic
fingerprint identification and criminal history system that responds to law enforcement agencies
within two hours and to authorized civil agencies within 24 hours. Prior to the IAFIS, fingerprint
identification was a manual, labor-intensive process which took weeks or months to complete.
The IAFIS provides identification, image exchange, and criminal history services to more than
80,000 law enforcement agencies and qualified civil agencies. The IAFIS is internationally
recognized as the biometric system leader and contains the largest fingerprint repository in the
world.

                             IAFIS Studies, Plans, and Evaluations
    Document Type                                 Title                            Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                           Aug 2006    1027
 Security Plan             Operational System Security Plan, AFIS                 Jan 1999    588
 Security Plan             System Security Plan, IAFIS, Version 2.1              Mar 2006     591
 Systems Engineering       Systems Engineering Management Plan,
                                                                                  Jul 2005      592
 Management Plan           Criminal Justice Information Services Division
 Systems Engineering       Systems Engineering Management Plan, SoSSS,
                                                                                 Nov 2005       593
 Management Plan           Revision 2.2 Final
                           Configuration Management Plan, Criminal
 Configuration
                           Justice Information Services Division,                Aug 2002       582
 Management Plan
                           Revision1.2
 Quality Assurance Plan    Quality Assurance Plan, CJIS Division                 Mar 2005       589
 Verification/Validation   Independent Verification, Validation & Testing
                                                                                 Nov 1993       586
 Plan                      (IVV&T) SOW, CJIS Division
                           Build E System Integration and Test Plan (SITP),
 Test Plan                                                                        Jan 1998      577
                           IAFIS
 Test Plan                 IAFIS System Acceptance Test Plan, Volume 1          Feb 1999        584
 Conversion Plan           Transition Plan, IAFIS, Second Iteration             Apr 1998        596
 Conversion Plan           Transition Plan, IAFIS, Third Iteration              Oct 1998        597
 Implementation Plan       Build D Installation Plan                            Nov 1997        574
 Implementation Plan       Build E Installation Plan                            Apr 1998        576
 Implementation Plan       Build F Installation Plan                            Mar 1998        579
 Implementation Plan       Build F Installation Plan (CWV Draft 3, as Built)     Jun 2000       580
 Implementation Plan       Early Build C Installation Plan                      May 1997        583
 Training Plan             ITN Training Plan                                      Jul 1999      587
 Training Plan             Training Plan, AFIS                                  Nov 1998        595
 Test Report               Build C Test Report, Volume 1                        Aug 1997        573
 Test Report               Build D Test Report, Volume 1                        Dec 1997        575
 Test Report               Build E Test Report, Volume 2                        May 1998        578
 Test Report               Build F1 Test Report, Volume 1                       May 1999        581
 Test Report               IAFIS System Acceptance Test Report                  Aug 1999        585


                                              127
        The IAFIS was deployed in July 1999 based on 12-year old technology. The IAFIS is
operating satisfactorily at this time; however, due to increased demand for new and existing
services continual upgrades are necessary. Workload projections for FY 2008 are expected to
exceed 168,000 fingerprint submissions per day. The current IAFIS design capacity is 170,000
per day. The following IAFIS enhancements are planned for FY 2008: (1) additional system
capacity due to increased fingerprint submissions; (2) additional system capacity related to
processing of flat fingerprint submissions in support of the Department of Homeland Security'
need to expedite fingerprint processing at Ports of Entry; and (3) the automation manual
processes related to update of criminal history records to streamline and improve existing
services and offer new services. Additionally, four regularly scheduled IAFIS Builds occur each
year for defect correction and system enhancements. Requests for change to the IAFIS baseline
may be initiated internally or externally at the request of contributing agencies.

       Congressional mandates, such as, the USA PATRIOT Act of 2001, the Enhanced Border
Security and Visa Entry Reform Act of 2001, the DOJ Entry/Exit Border Security Proposal,
propose new applications for the fingerprint-based identification services provided by the FBI's
IAFIS. To achieve the goals outlined in these Acts and Proposals, enhancements to existing
IAFIS functions and the development of new IAFIS related capabilities are required.




                                              128
                          Information Assurance Technology Infusion
                                Federal Bureau of Investigation

                             IATI Studies, Plans, and Evaluations
    Document Type                                Title                       Date      Item #
                           Feasibility Study, IATI Program, CARA,
 Business Case Study                                                        Mar 2005      605
                           Version 1.0
 Business Case Study       OMB Exhibit 300 for FY 2008                      Mar 2006      612
 Privacy Impact
                           Privacy Impact Assessment, CARA                  Apr 2006      613
 Assessment
                           Risk Management Plan (RMP), Technology
 Risk Management Plan                                                       Nov 2003      616
                           Infusion Program, Version .8
                           Program Management Plan, Technology Infusion
 Project Plan                                                               Nov 2003      614
                           Program, Volume I, Version .19
                           Security Attachment to the FBI System Security
 Security Plan                                                              May 2006      619
                           Plan (SSP), IATI Program, IODM, Version 2.0
                           System Security Plan (SSP), IATI Program,
 Security Plan                                                              May 2006      623
                           CARA, Version 6.0
                           System Security Plan (SSP), IATI, SSIAC, SAE,
 Security Plan                                                              Mar 2006      624
                           Version 7.0
 Systems Engineering       System Engineering Master Plan, IATI Program,
                                                                            May 2004      621
 Management Plan           Version 1.0
                           Configuration Management Plan (CMP),
 Configuration
                           Technology Infusion Program (TI), Volume 1,      Nov 2003      602
 Management Plan
                           Version 0.5
                           Quality Assurance Plan (QAP), IATI, Volume 1,
 Quality Assurance Plan                                                     Nov 2003      615
                           Version .9
                           System Test Plan, IATI Program, CARA,
 Test Plan                                                                  Jan 2006      625
                           Version 3.0
                           Test and Evaluation Master Plan (TEMP), IATI,
 Test Plan                                                                  Apr 2004      626
                           Draft
 Test Plan                 Test Plan, IATI Program, IODM, Version 3.0       May 2006      627
                           Transition Plan, IATI Program, CARA,
 Conversion Plan                                                            May 2006      629
                           Version 1.0
                           Installation Plan, IATI Program, IODM,
 Implementation Plan                                                        May 2006      608
                           Version 2.0
                           System Installation Plan, IATI Program, CARA,
 Implementation Plan                                                        May 2006      622
                           Version 3.0
                           Training Plan, IATI Program, CARA,
 Training Plan                                                              Apr 2006      628
                           Version 2.0

       The Information Assurance Technology Infusion (IATI) Program was initiated and began
spending funds in FY 2005; the system implementation was completed in FY 2006. IATI is a
Security Division initiative to design, develop, assess, and implement security technology


                                            129
safeguards in the FBI’s IT enterprise to mitigate risks to and reduce vulnerabilities of the
Bureau’s most critical information assets. IATI provides resources for research, evaluation,
design, development, implementation, and operations and maintenance of IT security solutions
that enhance the security for the Federal Bureau of Investigation’s 340 plus information systems.
Many of these systems directly enable the information sharing requirements for Intelligence,
Counterterrorism, and operational missions.




                                              130
                                Investigative Data Warehouse
                               Federal Bureau of Investigation

        The FBI’s Investigative Data Warehouse (IDW) began spending funds in FY 2002, and
system implementation was completed in FY 2005. The IDW system provides data storage,
database management, search, information presentation, and security services allowing FBI
investigative and analytical personnel to access aggregated data previously only available
through individual applications. The IDW system is the successor to the Secure Collaboration
Operational Prototype Environment (SCOPE), which originally was named the Secure Counter-
terrorism Operational Prototype Environment.

        The IDW receives, stores, processes data in a heterogeneous computing environment of
UNIX and Windows Servers. Data processing is conducted by a combination of Commercial-
Off-the-Shelf (COTS) applications, interpreted scripts, and open-source software applications.
Data storage is provided by several Oracle Relational Database Management Systems (DBMS)
and in proprietary data formats. Physical storage is contained in Network Attached Storage
(NAS) devices and component hard disks. Ethernet switches provide connectivity between
components and to FBI LAN/WAN. An integrated firewall appliance in the switch provides
network filtering.

       Users of the system are FBI investigative, analytical, and intelligence personnel. These
personnel are both FBI employees and contractors. Administrators of the system are FBI IDW
program contractors. Users are permitted to access the system from FBI accredited facilities in
the United States of America. IDW is not available to FBI Legal Attaché offices.

                             IDW Studies, Plans, and Evaluations
     Document Type                               Title                           Date    Item #
 Risk Management Plan      Risk Management Plan, IDW, Version 1.0               Feb 2005    631
 Security Plan             System Security Plan, IDW, Version 2.0               May 2006    633
 Conversion Plan           Transition and Deployment Plan, IDW                  Jun 2004    636
 Training Plan             Training Management Plan, IDW                        Jun 2004    635
                           Test & Evaluation Test Analysis Report
 Test Report                                                                      Jul 2004        634
                           (TETAR) for IDW, Version 1.1




                                              131
                                   Law Enforcement Online
                                Federal Bureau of Investigation

         LEO is a 24-hours-a-day, 7-days-a-week, on-line, controlled-access communications and
information-sharing data repository. It provides an Internet-accessible focal point for electronic
Sensitive But Unclassified (SBU) communications and information sharing for the federal, state,
local and tribal law enforcement agencies. LEO also supports anti-terrorism, intelligence, law
enforcement, criminal justice, and public safety communities nationwide. User anywhere in the
world can communicate securely using LEO. LEO is accessed by vetted and authorized entities
using industry-standard personal computers equipped with any standard Internet browser
software. LEO currently supports a user base of over 40,000 individuals, who access LEO either
via the Internet, dialup, or other dedicated connections. In addition to the current LEO user base,
there are 17,000 potential Regional Information Sharing Systems (RISS) users who may have the
ability to access LEO. LEO operates as SBU network under the Computer Security and Privacy
Acts. In summary, LEO provides a mechanism for law enforcement entities to share data
internally and externally.

                             LEO Studies, Plans, and Evaluations
    Document Type                                Title                              Date      Item #
 Business Case Study       OMB Exhibit 300 for BY 2008, CEI                                     1017
                           Implementation Plan for the LEO System
 Project Plan              Relocation of Primary Operations to the CJIS          May 2006        643
                           Division
                           Project Management Plan, LEO, Relocation and
 Project Plan                                                                      Jun 2006      653
                           Reengineering Project
                           FBI LEO System Security Plan, dated
 Security Plan                                                                     Jun 2006      642
                           9 June 2006
 Configuration             LEO Configuration Management (CM)
                                                                                   Jun 2004      647
 Management Plan           Processes, dated 21 June 2004
                           System Test Plan, LEO System Relocation of
 Test Plan                 Primary Operations to the CJIS Division (Final          Jun 2006      657
                           Draft)
                           Transition Plan, LEO System Relocation of
 Conversion Plan           Primary Operations to the CJIS Division (Final          Jun 2006      659
                           Draft)
                           Installation Plan, LEO System Relocation of
 Implementation Plan       Primary Operations to the CJIS Division (Final         Dec 2005       644
                           Draft)
 Contingency/Continuity
                        IT Contingency Plan, LEO, Version 1.0 (Draft)            May 2006        645
 Plan




                                               132
                             National Crime Information Center
                              Federal Bureau of Investigation

        The National Crime Information Center (NCIC) is a computerized criminal justice
information system available 24 hours a day, 365 days a year. NCIC is accessed by over 6
million Federal, State, and Tribal entities, including the Department of Homeland Security and
the Department of Defense. The NCIC database consists of 18 files, including seven property
files and eleven person files.

                             NCIC Studies, Plans, and Evaluations
    Document Type                                Title                           Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                          Aug 2006   1028
                           Risk Management Plan for NCIC 2000, \Revision
 Risk Management Plan                                                           Feb 1996         684
                           2
                           Plan for Early Delivery of the FMS Subsystem,
 Project Plan                                                                   Apr 1997         682
                           NCIC 2000 Program
 Security Plan             System Security Plan (SSP), NCIC                      Jul 2006        688
 Systems Engineering       System Engineering Management Plan for
                                                                               May 1996          687
 Management Plan           NCIC 2000
 Configuration             Configuration and Data Management Plan for
                                                                                Feb 1998         669
 Management Plan           NCIC 2000
                           Maintainability Test Plan and Procedure for
 Test Plan                                                                     May 1999          675
                           NCIC 2000
 Test Plan                 Maintainability Test Plan for NCIC 2000              Feb 1994         676
                           Successive Level Integration Test Plan for
 Test Plan                                                                       Jul 1996        686
                           NCIC 2000
 Test Plan                 Test and Evaluation Master Plan for NCIC 2000        Mar 1996         690
                           Preliminary Transition Plan for NCIC,Volume I
 Conversion Plan                                                                Apr 1997         693
                           of VII, Transition Overview
 Conversion Plan           Transition Plan for NCIC 2000                        Aug 1998         691
                           Facility Requirements and Installation Plan for
 Implementation Plan                                                             Jul 1998        670
                           NCIC 2000
                           Personnel Requirements and Training Plan for
 Training Plan                                                                  Nov 1998         681
                           NCIC
                            External Interface Checkout Test Report for
 Test Report                                                                   May 1999          665
                           NCIC 2000
                           Fingerprint Matching Subsystem Beta Test
 Test Report                                                                   May 1999          672
                           Report, NCIC 2000
 Test Report               FMS Reintegration Test Report for NCIC 2000          Mar 1999         673
 Test Report               Maintainability Test Report for NCIC 2000            Jun 1999         677
                           NCIC 2000 Security Certification and Testing
 Test Report                                                                     Jul 1999        678
                           Analysis




                                             133
        NCIC also contains the Originating Agency Identifier (ORI) file. The NCIC ORI File
contains contact information, such as the agency's address and telephone number, for agencies
that have an ORI. The NCIC may also be used to search and retrieve the criminal history records
of 50 subjects.

        The NCIC is considered a Sensitive But Unclassified system and is subject to all DOJ
and FBI policy, standards and practices governing the collection and dissemination of SBU data.
Access to the NCIC system is controlled at the agency level by ORI. Authorized users are
authenticated by user ID and password. Users are also required to be trained and tested on NCIC
policy and practices.

        The NCIC is an invaluable tool that aids law enforcement and criminal justice agency
officials in the successful completion of their day-to-day operations and protect the United States
from terrorist attack. The Terrorist Screening Center enters terrorist information in the Violent
Gang and Terrorist Organization File (VGTOF) and maintains the documentation to support the
terrorist watch-list. Additionally, the National Counterterrorism Center, the Joint Terrorism Task
Forces, and the Field Intelligence Groups have electronic access to NCIC through their
respective CJIS System Agency. Federal, State, local and tribal entities may search and retrieve
VGTOF, and other person records, electronically by name, and a unique numeric identifier such
as date of birth. Records may also be obtained as a result of a query of the Wanted Person File
and Stolen Vehicle File. Finally, NCIC will send a notification to the Terrorist Screening Center
whenever a fingerprint search results in a hit on a VGTOF record.

       NCIC is in the operations and maintenance phase of the Life Cycle Management
Directive. In FY 2008, the FBI CJIS Division will continue to upgrade hardware that has
reached the end of its life-cycle and add new services such as an enhanced ad hoc search
capability.




                                               134
                          Law Enforcement National Data Exchange
                              Federal Bureau of Investigation

        Information sharing is mission critical to today's public safety mandate. Most law
enforcement agencies (LEAs) utilize some type of computerized data base to collect incident and
investigative information. Moving this data across jurisdictional boundaries into the hands of
those who need to know is a significant challenge. The Law Enforcement National Data
Exchange (N-DEx) concept is to take the data provided by LEAs and criminal justice agencies
and convert it into valuable information to fight crime and terrorism. N-DEx services extract
specific information on people, places, things, the relationship between them, as well as crime
characteristics such as MO's and criminal signatures.

        N-DEx will: (1) share complete, accurate, timely and useful criminal justice information
across jurisdictional boundaries and provide new investigative tools that enhance the United
States’ ability to fight crime and terrorism; (2) provide fusion centers, the National
Counterterrorism Center, Field Intelligence Groups, Joint Terrorism Task Force, and other
agencies with access to N-DEx capabilities and services; (3) check all new suspects entered into
the system against terrorist watch lists or notify/alert users of addresses that are known to be
associated with other suspected terrorists; (4) provide the capability to share sensitive
investigative information while simultaneously protecting the investigative equities of
proprietary information; (5) provide an electronic catalog of structured criminal justice
information that provides a single point of discovery to assist in locating terrorism information
and people with relevant knowledge about that information; (6) leverage its national connectivity
environment to create a directory of LEAs and users to facilitate new methods of law
enforcement collaboration relevant to cases, investigations, or discovered data describing
terrorist activity; and (7) provide advance search capabilities to discover information when there
is a lack of key information for conducting a typical query search. N-DEx will provide insights
into previously unknown terrorist activity through automated discovery of patterns and linkages
to detect and deter crime and terrorism.

                            N-DEx Studies, Plans, and Evaluations
     Document Type                             Title                              Date        Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                           Dec 2006        1029
 Privacy Impact
                           Privacy Impact Assessment, N-Dex                      Mar 2006        1386
 Assessment
                           Risk Management Plan, Law Enforcement
 Risk Management Plan                                                            Aug 2006            700
                           N-DEx, Version 1.4
 Project Plan              Program Plan, Law Enforcement N-Dex                    Jul 2006           699
                           System Security Plan Attachment H - Risk
 Security Plan                                                                    Jun 2004           702
                           Assessment, N-Dex Prototype, Version 1.1
 Test Plan                 Certification Test Plan, N-DEx                         Oct 2004           694




                                              135
                                 Next Generation Identification
                                 Federal Bureau of Investigation

        The Next Generation Identification (NGI) project began spending funds in FY 2005. The
project will be a major upgrade to the current Integrated Automated Fingerprint Identification
System (IAFIS) that will provide new functionality, as well as improve upon current
functionality. The NGI was included in a previous IAFIS OMB 300 submission because it is a
major upgrade to the existing IAFIS. In 2005, the NGI was separated from the IAFIS exhibit
300 for management control purposes based on guidance from the FBI's Office of the Chief
Information Officer.

                              NGI Studies, Plans, and Evaluations
     Document Type                               Title                               Date    Item #
 Business Case Study        OMB Exhibit 300 for BY 2008                             Aug 2006   1030
 Privacy Impact             PIA, Advanced Fingerprint Identification
                                                                                                    719
 Assessment                 Technology (AFIT)
 Privacy Impact
                            PIA, Enhanced IAFIS Repository                                          720
 Assessment
 Privacy Impact
                            PIA, Interstate Photo System (IPS)                                      721
 Assessment
 Privacy Impact
                            PIA, National Palm Print System (NPPS)                                  722
 Assessment
 Risk Management Plan       Risk Management Plan, NGI                               Nov 2005        729
 Project Plan               Project Management Plan, NGI, Version 1.0                Jan 2006       726
 Configuration
                            Configuration Management Plan, NGI                       Apr 2006       709
 Management Plan
 Quality Assurance Plan     Quality Assurance Plan, NGI                             May 2006        727
 Performance
                            Investment Management/Project Review Board               Feb 2006       713
 Evaluation
 Performance
                            Program Management Review                               May 2006        725
 Evaluation

         The NGI Program is a compilation of initiatives that will either improve or expand
existing biometric identification services. The NGI Program will accommodate increased
information processing and sharing demands in support of anti-terrorism. As a result of the NGI
initiatives, the FBI will be able to provide services to enhance interoperability between
stakeholders at all levels of government, including local, state, federal, and international partners.
This will accommodate the increasing need for pre-employment background checks, licenses,
and will support the increase in border patrol and entry/exit checks. The NGI will allow the FBI
to: establish a terrorist fingerprint identification system that is compatible with other systems;
increase the accessibility and number of the IAFIS terrorist fingerprint records; and provide
latent palm print search capabilities.

       The NGI Study Contract was awarded to Intellidyne, L.L.C. on July 1, 2005. Intellidyne,
L.L.C. and CJIS NGI representatives jointly participated in User Requirements Canvasses which

                                                136
included onsite interviews, telephonic interviews and written surveys resulting in the
identification of over 1,000 new requirements, including high-priority, specialized requirements
in the Latent Services, Facial Recognition, and Multi-modal Biometrics areas.




                                              137
                   National Instant Criminal Background Check System
                              Federal Bureau of Investigation

        The National Instant Criminal Background Check System (NICS) prevents the transfer of
a firearm to persons who are prohibited from possessing or receiving a firearm while allowing
the timely transfer to those individuals that are not prohibited. Title 18, Section 922 of the
United States Code defines who is prohibited from shipping, transporting, possessing, or
receiving any firearm or ammunition in or affecting commerce. The NICS was created through
the collaborative efforts of the FBI; the Bureau of Alcohol, Tobacco, Firearms and Explosives;
the Department of Justice; local, state, and other federal law enforcement agencies; and private
contractor support.

                             NICS Studies, Plans, and Evaluations
    Document Type                                 Title                         Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                         Dec 2006   1031
 Security Plan             System Security Plan, NICS/ FBI                     May 1998    746
 Configuration             Configuration Management Plan, CJIS Division,
 Management Plan           Revision 1.2                                        Aug 2002        732
 Quality Assurance Plan    Quality Assurance Plan, CJIS Division               Mar 2005        743
                           Certification Test Plan, NICS/E-Checks/NICS
 Test Plan
                           Call Center                                          Sep 2005       730
 Test Plan                 Formal Qualification Test Plan, NICS                  Jul 1998      737
                           System Test Plan, NICS Efficiency Upgrade
 Test Plan
                           Project, Draft                                       Jun 2003       747
 Conversion Plan           NICS Rehost Transition Plan                         May 2004        742
 Conversion Plan           Transition Plan NICS Efficiency Upgrade Project     Oct 2003        749
 Implementation Plan       Installation Plan, NICS                              Jun 1998       740
 Implementation Plan       NICS Efficiency Upgrade Installation Plan, Draft    Sep 2003        741
                           Superdome System Administration and
 Implementation Plan
                           Installation Cookbook, NICS [Rehost]                  Jul 2005      745
                           Windows 2003 Server Installation Cookbook,
 Implementation Plan
                           NICS, Revision 3.0 [Efficiency Upgrade]              Mar 2006       750
 Contingency/Continuity
                        Contingency Plan, NICS
 Plan                                                                           Dec 2001       733
 Contingency/Continuity
                        Contingency Plan, NICS and E-Check
 Plan                                                                           Sep 2005       735
 Test Report            Formal Qualification Test Report, NICS                  Oct 1998       739

        The NICS Regulation, Title 28, Code of Federal Regulations, Part 25, Subpart A requires
the NICS to provide Federal Firearms Licensees (FFL) with an immediate response regarding the
person for whom the receipt of a firearm would violate the Code. Additionally, if the initial
response is a "delay," the NICS is required to provide the FFLs with a "proceed" or "deny"
response within three business days. The NICS Regulation provides the states with the option to
act as a point of contact (POC) for NICS transactions and allows the FBI to serve as the POC in


                                             138
those states that have chosen not to perform the checks. There are currently 13 full POC
states/territories, eight partial POC state/territories, and 35 non-POC state/territories.

        The NICS Regulation required development of other electronic means of contact as an
alternative to the telephone. Therefore, the NICS E-Check was developed. This function
enables the FFLs to initiate an unassisted NICS background check for firearm transfers via the
Internet. When the FFLs conduct a NICS check, a name search is conducted for matching
records in the following three databases: (1) the National Crime Information Center, which
contains information on wanted persons; (2) the Interstate Identification Index, which contains
criminal history records; and (3) the NICS Index, which contains the names of prohibited
persons as outlined in the Brady Act.

        During FYs 2006 and 2007, the NICS will undergo an extensive Business Process
Re-design study to seek opportunities to improve the NICS services. FY 2008 funding will be
used to finalize the results of the study, provide project management and business case support
and conduct requirements development efforts.




                                               139
           Multi-Agency Information Sharing Initiative Regional Data Exchange
                             Federal Bureau of Investigation

        The Multi-Agency Information Sharing Initiative (MISI) Regional Data Exchange
(R-DEx) project began spending funds in FY 2005. The R-DEx is designed to provide the
capability to share full text investigative information from federal, state, and local investigative
agencies. R-DEx will provide searching, link analysis, and geo-spatial capabilities to aid
investigators, analysts, and managers in analyzing criminal activity. It will facilitate the
elimination of suspects, setting leads, and establishing linkages in cases that wouldn't otherwise
occur. R-DEx is being developed in four phases. Phase I was the development of the concept of
Operations, System Requirements Document, and Tool Suite that meets those requirements.
Phase II was the implementation of the system as an operational prototype in St. Louis,
San Diego, and Seattle. Phase III was the implementation of up to ten additional sites.

        The DOJ Law Enforcement Information Sharing Program (LEISP) strategy facilities
improved capabilities for law enforcement agencies to collaborate across agency, jurisdictional
and geographic boundaries making that information available for use by all law enforcement
agents. R-DEX fits into the LEISP data fusion category by co-mingling data on a regional level.
R-DEX will provide for the collections and sharing of regional data between federal, state, local
and tribal law enforcement agencies, regional FBI sites, and other federal law enforcement
agencies. R-DEX development and deployment for Phase III will be coordinated with the
DOJ/OCIO to ensure that development as a part of the FBI Information Sharing Initiative,
designed to facilitate the sharing of information at the federal, state, and local levels, which
provides an integrated approach to the development or upgrade of systems designed to share
investigative information by providing powerful analytical tools for analyzing integrated datasets
and making the information available to users at all levels of government. LEISP will: leverage
existing system capabilities, architectural components, and business services where plausible;
redirect the management and execution of projects where performance failures or weaknesses
have been identified; and result in the development of a single enterprise wide information
sharing architecture for the Department. LEISP is the critical DOJ-wide initiative to facilitate
the sharing of what law enforcement knows about terrorism, criminal activity and threats to
public safety.

                             R-DEx Studies, Plans, and Evaluations
    Document Type                                  Title                            Date    Item #
 Business Case Study        OMB Exhibit 300 for BY 2008                            Dec 2006   1032
                            Risk Assessment and Risk Management Matrix
 Risk Management Plan                                                               Jul 2005       662
                            (RMM), RDEX, Version 1.0
                            System Security Plan, FBI Regional Data
 Security Plan                                                                     May 2006        664
                            Exchange (R-DEx), Version 4.2
 Test Plan                  Certification Test Plan, R-DEx, Version 1.6            Feb 2005        660
 Test Report                Certification Test Report, R-DEx, Version 1.6          Feb 2005        661




                                               140
                 Sensitive Compartment Information Operational Network
                              Federal Bureau of Investigation

       The Sensitive Compartment Information Operational Network (SCION) began spending
funds in FY 2003. The FBI is working to strengthen its capabilities to detect, analyze,
understand, expose, pre-empt, interdict, terminate, and prosecute terrorist activities before they
can reach the stage of causing harm to the United States. SCION will enhance these capabilities
by providing agents, counter-terrorism intelligence analysis, and their staffs with modern
information processing/extraction tools and unified access to relevant and appropriate data
sources at the TS/SCI level.

        SCION is a common TS/SCI network providing FBI users with standard applications,
data sharing, and through Joint Worldwide Intelligence Communication System (JWICS), access
to other intelligence community information systems. SCION primarily supports the FBI
Counter Intelligence (CI) and Counter-Terrorism (CT) divisions. SCION provides the means for
the divisions to access raw intelligence and intelligence products, perform analysis, and to
distribute intelligence product.

                            SCION Studies, Plans, and Evaluations
     Document Type                             Title                                Date      Item #
 Privacy Impact
                           Full Privacy Impact Assessment, TS/SCI LAN             Dec 2002       751
 Assessment
 Security Plan             System Security Plan, SCION                            Aug 2004       753
 Configuration
                           Configuration Management Plan, SCION                   Dec 2003       752
 Management Plan
 Test Report               Certification Test Results, TS/SCI LAN                May 2003        754




                                               141
                                           Sentinel
                                Federal Bureau of Investigation

      The Sentinel project began spending funds in FY 2005 with implementation projected for
FY 2010 The FBI is implementing Sentinel to replace legacy systems and to provide
improvements identified in the wake of the Oklahoma Bombing Case, the terrorist attacks of
September 11, and the Hanssen Espionage Case.

        The FBI’s investigative case management systems maintain more than 300,000 open and
closed cases per year, which together contain more than 100 million text documents. However,
only a subset of the information currently collected by the Bureau is being entered into the
Automated Case Support (ACS) for FBI-wide access. ACS data entry processes are manually
intensive, and a significant backlog for entering data into ACS exists in some locations. ACS
has extremely limited capabilities for structuring the information collected by the FBI. Agents
and analysts throughout the Bureau maintain case data and significant intelligence information
off-line in their own internally developed or commercial-off-the shelf (COTS) applications that
run on stand-alone desktops. The information residing in these systems is available only to those
users that have direct system access.

                          SENTINEL Studies, Plans, and Evaluations
     Document Type                             Title                                Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                             Aug 2006   1033
 Privacy Impact
                            Sentinel Phase 1 Privacy Impact Assessment             Feb 2006      1434
 Assessment
 Risk Management Plan       Risk Management Plan, SENTINEL, Version 1.2             Jul 2005       772
                            Acquisition Plan (FD-911), SENTINEL,
 Acquisition Plan                                                                  Aug 2005        755
                            Version 2.0
                            Source Selection Plan, FBI Sentinel Program,
 Acquisition Plan                                                                  Aug 2005      1037
                            Version 2.95
                            Program Management Plan, SENTINEL,
 Project Plan                                                                      Aug 2005        770
                            Version 1.2
 Systems Engineering        Systems Engineering Management Plan (SEMP),
                                                                                   Jun 2005        776
 Management Plan            SENTINEL
 Configuration              Configuration Management Plan, SENTINEL
                                                                                    Jul 2005       758
 Management Plan            PMO, Version 1.1
                            Quality Management Plan, SENTINEL,
 Quality Assurance Plan                                                             Jul 2005       771
                            Version 1.0
                            Test and Evaluation Master Plan (TEMP),
 Test Plan                                                                          Jul 2005       777
                            SENTINEL
 Performance
                            Lessons Learned, Sentinel, Version 1.0                  Jul 2005     1039
 Evaluation

       Sentinel will put critical information in the hands of agents and analysts in the field.
With few exceptions, Sentinel will provide its users with instantaneous access to all information
entered into a case file. It will improve the collection and availability of information by allowing

                                               142
users to create electronic documents using web-based forms. Sentinel will include a multimedia
capability that will rectify a longstanding information-sharing limitation with the FBI. Agents
will be able to scan documents, photographs, and other electronic media into the case file,
allowing evidence and other case-related information to be shared among agents working on a
case without the need to exchange physical copies of the information




                                             143
                           Security Management Information System
                                Federal Bureau of Investigation

        The Security Management Information System (SMIS) project began spending funds in
FY 2004. SMIS is a multi-year technology initiative employing knowledge management
concepts hosted on an Enterprise Service Bus compliant with the FBI’s Service Oriented
Enterprise Architecture to increase the ability of the FBI to develop, analyze, share, manage and
store security related data in order to reduce risk to people, facilities, operations and information.

                              SMIS Studies, Plans, and Evaluations
     Document Type                                 Title                               Date    Item #
 Business Case Study        OMB Exhibit 300 for BY 2007                               Jan 2006    797
 Privacy Impact             Initial Privacy Impact Assessment, Polygraph
                                                                                     Aug 2005        791
 Assessment                 Workflow Management Application
 Privacy Impact
                            Initial Privacy Impact Assessment, SMIS                  Aug 2005        792
 Assessment
                            Privacy Impact Assessment, Security Division
 Privacy Impact
                            Implementation the Financial Disclosure Forms            Feb 2006        798
 Assessment
                            Analyzer
 Risk Management Plan       Risk Management Plan, SMIS, Final 1.1                    Dec 2005        817
                            Project Plan, SMIS Facilities Certification and
 Project Plan                                                                        Mar 2006        812
                            Accreditation Component, Draft
                            Project Plan, SMIS Financial Disclosure Forms
 Project Plan                                                                        Feb 2006        813
                            Analyzer Component, Draft
 Project Plan               Project Plan, SMIS, Version 0.7, Draft                    Jul 2005       814
                            System Security Plan, Financial Disclosure
 Security Plan                                                                        Jan 2006       826
                            Forms Analyzer (FDF-A), Version 1.2
                            System Security Plan, Polygraph Workflow
 Security Plan                                                                       Apr 2006        827
                            Management System
 Configuration              Configuration Management Plan, SMIS, PMO,
                                                                                      Jul 2005       785
 Management Plan            Version 1.0
 Quality Assurance Plan     Quality Management Plan, SMIS, Version 1.0                Jul 2005       815
 Test Plan                  Certification Test Plan, FDF-A                            Jan 2006       782
                            Test and Evaluation Master Plan for the
 Test Plan                                                                           Aug 2005        829
                            Polygraph Workflow Management Application
                            Testing and Evaluation Master Plan Unit Testing
 Test Plan                                                                           Mar 2006        831
                            and Traceability Matrix, SMIS FCA Application
                            Training Plan for the Polygraph Workflow
 Training Plan                                                                       Sep 2005        833
                            Management Application
 Test Report                Certification Test Report, FDF-A                         Feb 2006        783
                            Test Analysis Report for the Polygraph
 Test Report                                                                         Nov 2005        828
                            Workflow Management Application
 Performance                Control Gate Review Exit Report, SMIS, FDF-A,
                                                                                     Mar 2006        786
 Evaluation                 Gate 6 - OAR


                                                144
     Document Type                            Title                                 Date      Item #
 Performance               Investment Management/ Project Review Board
                                                                                   Jan 2005         794
 Evaluation                (IMPRB), Summary Notes
 Performance               Investment Management/ Project Review Board
                                                                                  Aug 2005          793
 Evaluation                (IMPRB), Summary Notes

        The SMIS project will replace out-dated manual work processes and proliferating,
stand-alone spreadsheets and databases with an efficient, cohesive, highly automated capability
enabling authorized users to effectively and efficiently mine multiple security related
applications, databases, and other electronically assimilated sources of relevant data to provide
the Bureau with timely, actionable intelligence and security support information. Upon
completion, SMIS will contain all security-related information for the entire professional life
cycle of a person, facility or system. The enhanced capabilities will allow Security Division
(SecD) to share selected information with other divisions, law enforcement entities, and the
Intelligence Community (IC) in the most efficient manner.




                                               145
                               Technical Refreshment Program
                               Federal Bureau of Investigation

       The Technical Refreshment Program (TRP) project began spending funds in FY 2007.
The program is an orderly and planned replacement of the FBI's technical assets associated with
the FBI's FBINET and UNet enclaves, which are the primary backbones of the FBI's
communications and operations. The TRP will follow the FBI's enterprise architecture technical
reference model to support the technical framework. The standards, specifications, and
technologies that support the delivery of service components and capabilities will be
accomplished by replacing IT equipment at 20 percent per year.

        The FBI has experienced information technology growth because of the new tasks forces,
new data sharing initiatives, and new classified programs. The FBI currently has over 60,000
desktops, 27,000 laptops, 21,000 printers, and over 2,600 servers. The FBI requires funds to
refresh and upgrade network components, enhance network functions, incorporate new network
management software, and provide new features for monitoring and control. As mandated by
OMB, the FBI will plan to upgrade all components to implement the FBI to IPv6 for network
communications. Control and software tools will be constantly enhanced and integrated, and
improve the ability of EOC personnel to manage the FBI's IT infrastructure. The improvements
will enable the FBI to continue to improve the productivity and efficiency of the FBI's IT
infrastructure. The program is chartered to replace aging and out of date IT Hardware to
minimize obsolescence, in advance of loss of service or hardware failure. The impact, if not
funded, will put the FBI at risk. This is due to the fact that the hardware cannot be serviced, as
the IT industry will not support IT hardware beyond its 5th year of service.

                            TRP Studies, Plans, and Evaluations
     Document Type                             Title                              Date    Item #
 Business Case Study       OMB Exhibit 300 for BY 2008                           Dec 2006   1034
 Performance
                           Project Summary Report, TRP
 Evaluation                                                                                      836




                                              146
                                  Terrorist Screening Center
                                Federal Bureau of Investigation

        The Terrorist Screening Center (TSC) project began spending funds in FY 2004. The
project was formed by the Department of Justice in response to Homeland Security Presidential
Directive-6 (HSPD-6), dated 16 September 2003. The TSC originates and maintains the United
States’ only consolidated terrorist identities database, participates in and explores ways to
improve information sharing with all defense, national security, intelligence and law
enforcement partners, as well as select foreign partners, and initiates and leads the Federal
Search Working Group.

        The TSC supports national security by providing information on both international and
domestic terrorist identities on demand for agencies and/or Departments, including the
Department of State, the Department of Homeland Security’s Customs and Border Protection
and Transportation Security Administration, granting access on the basis of need-to-know to the
limit prescribed by the originating agency of record. The TSC's links with many communities,
including law enforcement at the state, local, tribal and territorial levels, are maintained around
the clock.

                              TSC Studies, Plans, and Evaluations
    Document Type                                 Title                             Date    Item #
 Business Case Study        OMB Exhibit 300 for BY 2008                            Dec 2006   1035
                            Risk Management Plan, Terrorist Screening
 Risk Management Plan                                                              Apr 2006           845
                            Center (TSC), Version 1.7 (Draft)
 Project Plan               TSDB Automated Ingest Project Plan                     Apr 2006           849
                            System Security Plan, TSDB Phase 1B,
 Security Plan                                                                                        846
                            Version 1.2
 Verification/Validation    Independent Verification and Validation (IV &V)
                                                                                                      848
 Plan                       Plan, TSC
                            Independent Verification and Validation (IV &V)
 Test Plan                                                                                            848
                            Plan, TSC
 Test Plan                  Test Management Plan, TSDB 1.7.1                      Mar 2006            847
 Test Report                IV & V Test Report, TSDB 1.8.0.2, TSC                 May 2006            843

        The TSC's basic philosophy is of information sharing with all partner agencies, and
participation in monthly information sharing sessions with partner agencies and foreign
government representatives. The TSC hosts regular training for all employees, to include
sensitive but unclassified classifications and privacy issues. Despite budget constraints,
improvements in efficiency and functionality are ongoing and necessary to obtain the full scope
of HSPD-6 and meet the mandate of the President's Management Agenda. The TSC uses the
very latest search and retrieval technologies to meet these requirements, and is pioneering search
technology in several areas, most notably search standards through development of a control
database, search "cocktails" by the use of a combination of multiple search engines, and the
federation of searches to search several databases at one time.


                                               147
       In budget year 2008, the TSC plans to develop an ability for external users to query the
Terrorist Screening Database (TSDB), as well as a portal for external users to better reach and
share and exchange information with the TSC call center, intelligence and nominations
personnel. The query capability will be in production by early FY 2008, with the portal to
follow. Future efforts will include improved data consumption of NCTC into the TSDB,
deployment of biometric capability, planned hardware and software interface with DHS,
Voiceprint and DNA data, and improved privacy and security features within EMA supporting
TSDB.




                                              148
                          Classified Information Technology Program
                                  Justice Management Division

Components Involved: All components except FBI

                              CITP Studies, Plans, and Evaluations
    Document Type                                 Title                       Date      Item #
                            Enterprise Proof-of-Concept Functional
Market/Other Research                                                        Dec 2003     154
                            Requirements, JSIT, Version 1.1
                            Fiscal Year 2005 Information Technology
Business Case Study                                                                       158
                            Concept Paper
Business Case Study         OMB Exhibit 300 for BY 2006                                   173
Privacy Impact
                            Initial Privacy Impact Assessment, JCON-S                     161
Assessment
Privacy Impact
                            Initial Privacy Impact Assessment, JCON-TS                    162
Assessment
Privacy Impact
                            Privacy Threshold Analysis, JCON-S                            175
Assessment
Privacy Impact
                            Privacy Threshold Analysis, JCON-TS                           176
Assessment
Risk Management Plan        Risk Assessment/Risk Matrix, JWICS               Dec 2003     180
                            Risk Management Plan, Enterprise SIPRNET,
Risk Management Plan                                                         Mar 2003     181
                            Draft
Risk Management Plan        Risk Management Plan, JIST, Version 1.0, Draft   Jul 2006     182
Acquisition Plan            Acquisition Plan, CITP, Version 1.0              Jan 2006     142
                            MOA between JCON and DTO Regarding
Project Plan                Operation and Support of the JCON Classified     Dec 2003     171
                            Infrastructure, Version 0.2, Draft
Project Plan                Program Guide, JCON-S, Version 2.1               May 2005     177
                            System Security Authorization Agreement
Security Plan                                                                Feb 2004     188
                            (SSAA), JCON-S
                            System Security Plan, JWICS Network,
Security Plan                                                                Dec 2003     189
                            JCON-TS
Configuration               Configuration Management Process, JCON-S,
                                                                             Dec 2003     147
Management Plan             Appendix V, Version 1.1
Configuration               Published Documents, Configuration
                                                                             May 2004     146
Management Plan             Management Plan, JCON-S, Version 1.0
Verification/Validation
                            Engagement Security Approach, JCON-S                          153
Plan
Test Plan                   Acceptance Test Plan and Report                  Dec 2003     168
                            Security Test and Evaluation Plan, JCON-S,
Test Plan                                                                    Feb 2004     186
                            Appendix E
Conversion Plan             Data Migration, ADNET to JCON-S                               150
Implementation Plan         Sample JSIT Deployment Plan                                   151


                                             149
    Document Type                              Title                             Date      Item #
                           Computer Security Awareness and Training
 Training Plan             (C/SAT) Plan, JCON-S Enterprise System,             Dec 2003       145
                           Version 2.1
 Contingency/Continuity
                        Contingency Plan, JCON-S, Appendix L                   Feb 2004       149
 Plan
 Contingency/Continuity
                        Contingency Plan, JWICS Network, Appendix M                           148
 Plan
 Test Report            Acceptance Test Plan and Report                        Dec 2003       168
                        Security Test and Evaluation Plan, JCON-S,
 Test Report                                                                   Feb 2004       186
                        Appendix E

        The Classified Information Technology Program (CITP) project began spending funds in
FY 2003. The mission is to develop a Department of Justice Classified Enterprise Architecture,
an initial operational infrastructure, and an Operations and Maintenance Model for processing
classified information. The scope of the project includes classified information technology for
all Department of Justice components except the Federal Bureau of Investigation. The project’s
objectives are to: (1) define requirements to support implementation of a Department Sensitive
Compartmented Information and Collateral Classified Information Processing Capability;
(2) implement initial capabilities for Top Secret/Sensitive Compartmented Information and
Collateral Classified Information Processing Capability; and (3) define an ongoing program for
Department of Justice Classified Information Technology.




                                             150
                                Integrated Wireless Network
                                Justice Management Division

Components Involved: All Components

        The Integrated Wireless Network (IWN) project began spending funds in FY 2001. The
project is a collaborative effort by the Departments of Justice, Homeland Security, and the
Treasury to provide a consolidated, nationwide federal wireless communications service that
replaces stovepipe stand alone component systems, and supports law enforcement, first
responder, and homeland security requirements with integrated communications services in a
wireless environment.

                             IWN Studies, Plans, and Evaluations
    Document Type                                Title                        Date    Item #
 Market/Other Research     Market Research Summary                           Apr 2004   1388
 Business Case Study       High Level Design Report                                      198
 Business Case Study       OMB Exhibit 300 for BY 2007                       Jan 2006    206
                           Risk Management Plan, DOJ Wireless
 Risk Management Plan                                                        Jun 2006         211
                           Management Office, Justice Wireless Network
 Acquisition Plan          Acquisition Plan, IWN JPO                         Aug 2004         195
                           Program Plan FY 2006, Joint Program Office,
 Project Plan                                                                Jun 2005         209
                           Draft
                           Strategic Plan 2005-2010, Integrated Wireless
 Project Plan                                                                Jun 2006     1004
                           Network (IWN), (Draft)
 Security Plan             System Security Plan, Beta Test System            Nov 2004         214
 Configuration
                           Configuration Management Plan, JPO IWN            Jun 2004         196
 Management Plan
 Quality Assurance Plan    Quality Assurance Plan, DOJ Wireless Network                       210
 Verification/Validation
                           Data System Functional Tests, JPO-Pilot System    Oct 2004         192
 Plan
 Verification/Validation
                           Network Management                                Oct 2004         193
 Plan
 Verification/Validation
                           Report Generation Tests                           Oct 2004         194
 Plan
                           Data System Functional Tests, JPO-IWN Pilot
 Test Plan                                                                   Oct 2004         192
                           System
 Test Plan                 Network Management                                Oct 2004         193
 Test Plan                 Report Generation Tests                           Oct 2004         194
                           Security Test and Evaluation Report: Beta Test
 Test Plan                                                                   Nov 2004         213
                           System
                           Organizational Readiness Transition Activities,
 Implementation Plan                                                         Sep 2004         203
                           IWN Seattle-Blaine Service Area
 Implementation Plan       Transition Plan                                   Oct 2004         215



                                             151
     Document Type                                 Title                               Date       Item #
                             Personnel Training for the Integrated Wireless
 Training Plan                                                                       Nov 2004        208
                             Network
 Contingency/Continuity
                             Contingency Plan, JPO IWN Northwest Zone
 Plan                                                                                 Jun 2005       197
 Performance                 Beta Benchmark Assessment, IWN
                                                                                                     202
 Evaluation                  Seattle/Blaine
 Post-Implementation         Beta Benchmark Assessment, IWN
                                                                                                     202
 Evaluation                  Seattle/Blaine

        The IWN will implement solutions to provide federal agency interoperability with
appropriate links to state, local, and tribal public safety, and homeland security entities. Justice,
Treasury and DHS personnel represent the majority of law enforcement personnel within the
Federal Government and are responsible for fulfilling numerous duties related to national law
enforcement, protective missions, and homeland security missions. These operations are made
more effective, efficient, and safe through the use of tactical communications. Unfortunately,
current legacy wideband networks do not have sufficient communications capabilities to support
the successful accomplishment of core activities. Many of the existing systems are 15 years old
or older and are increasingly unreliable and expensive to maintain. Furthermore, varying tactical
communications systems exist between field offices and organizations, preventing basic
interoperability and presenting logistical issues during the course of routine enforcement
activities. This incompatibility of systems makes communications interoperability difficult to
achieve.

        To meet these challenges, the IWN design is based on a very high frequency, Project 25
trunked system utilizing a packet switched Internet Protocol backbone. Additionally, the system
design provides for encrypted communications. The network is presently based on land mobile
radio services, and may be complemented by commercial wireless service solutions. The IWN
will also be designed to facilitate interoperability with other federal, state and local public safety
partners.




                                                152
                            Justice Consolidated Office Network
                               Justice Management Division

Components Involved: Antitrust Division, Civil Division, Civil Rights Division, Community
Relations Service, Criminal Division, Environment and Natural Resources Division, Executive
Office for Immigration Review, Executive Office for United States Attorneys, Federal Bureau of
Prisons, Justice Management Division, Office of Justice Programs, Tax Division, U. S. Marshals
Service, U. S. Trustee Program, U. S. National Central Bureau of INTERPROL, U. S. Parole
Commission

       The JCON program began in FY 1996. The program provides a standard, consolidated
DOJ Enterprise Office Solution, in partnership with DOJ components and the Office of Chief
Information Officer’s staff, through the delivery of standing technology products and services.
JCON is the critical infrastructure that provides a reliable and robust common office automation
platform upon which 16 of the Department’s litigating, management, and law enforcement
components operate their mission-critical applications. The cornerstone of the JCON is the
JCON Standard Architecture, which defines the basic information technology computing
framework, including networked workstations, servers, printers, a common set of core
applications, such as email and word processing, and a basic set of system administration tools.
JCON also provide the infrastructure for components to access case management and other
mission-related databases, e-Gov applications, and the Department’s law enforcement, litigation,
and administration systems. JCON provides the fundamental IT tools and services required by
Department employees and contractors to perform their daily work functions.

                            JCON Studies, Plans, and Evaluations
    Document Type                                Title                            Date    Item #
 Market/Other Research     JCON Architecture Study, Final Report                 Jan 1998    227
                           Request for Information (RFI), JCON PMO,
 Market/Other Research                                                          Apr 2006      1012
                           Version 1.0
 Business Case Study       OMB Exhibit 300 for BY 2007                          Dec 2005       387
 Privacy Impact
                           Initial Privacy Impact Assessment                                   380
 Assessment
 Privacy Impact
                           Privacy Threshold Analysis                                          390
 Assessment
 Risk Management Plan      Risk Management Plan, JCON PMO, Version 2             Jul 2003      400
 Acquisition Plan          Contract Administration, JCON                                       374
                           Project Management Plan Template, JCON PMO
 Project Plan                                                                  May 2005        391
                           SDLC, Version 2.0
                           Project Management Plan, Civil Rights Division,
 Project Plan                                                                   Dec 2005       392
                           JCON Implementation
                           Project Management Plan, EOUSA JCON IIA
 Project Plan                                                                  May 2005        393
                           Deployment
 Project Plan              Project Management Plan, JCON Modernization          Jun 2005       394
 Project Plan              Strategic and Tactical Plan, JCON                    Apr 2005      1005


                                             153
   Document Type                             Title                      Date      Item #
Security Plan          System Security Plan, JCON-COAR                 May 2006      404
Systems Engineering    Systems Engineering Process, JCON PMO,
                                                                       Jun 2006     407
Management Plan        Version 1.0
Configuration          Configuration Management Plan, JCON PMO,
                                                                       Mar 2006     372
Management Plan        Version 1.2
                       System Test Plan for DOJ EOIR, Version 1.0,
Test Plan                                                              Aug 2005     405
                       Draft
                       System Test Plan Template, JCON PMO SDLC,
Test Plan                                                              Mar 2005     406
                       Version 1.0
Implementation Plan    Implementation Plan, EOIR, Final Version 2.7    May 2006     379
                       JCON Implementation Plan Template and
Implementation Plan                                                    Mar 2005     382
                       Guidance, JCON PMO SDLC, Version 2.0
Contingency/Continuity
                       Contingency Plan, JCON COAR, Version 1.8        Mar 2006     373
Plan
Test Report            Security Test and Evaluation, JCON COAR         May 2006     401
                       System Analysis Report JCON Civil Rights
Test Report                                                            Apr 2006     403
                       Division Design, Version 1 - Final
Performance            Department Executive Review Board
                                                                       Feb 2005     375
Evaluation             Presentation
Post-Implementation    Civil Rights Division Lessons Learned Report,
                                                                       May 2006     371
Evaluation             JCON IIA Implementation Phase
Post-Implementation    Lessons Learned Report for the JCON Civil
                                                                       May 2006     385
Evaluation             Deployment Implementation Phase
Post-Implementation    Lessons Learned Report Template and Guidance,
                                                                       Jan 2005     386
Evaluation             JCON PMP SDLC, Version 1.0
Post-Implementation
                       Summary of Findings, Email Users Survey         Dec 2005     402
Evaluation




                                        154
                            Litigation Case Management System
                                Justice Management Division

Components Involved:         Executive Office for United States Attorneys
                             Antitrust Division
                             Civil Division
                             Civil Rights Division
                             Criminal Division
                             Environment and Natural Resources Division
                             Tax Division

         The Department’s major litigating components are highly decentralized, with information
stored in numerous disconnected systems. The Litigation Case Management System (LCMS)
initiative will develop and implement a common case management solution for the litigating
components that will support efficient, automated information sharing and streamlined reporting
capabilities. The project is part of the Department’s Case Management Common Solutions and
OMB’s Lines of Business Programs to develop business-driven, common solutions across
agencies. The LCMS will consist of a suite of solutions built on a common foundation, creating
a case management architectural blueprint, data standards, and other products that should be
reusable by other agencies. (The OMB-300 for budget year 2007 indicates that several
components were in various stages of pursing their own solutions, and are now participating in
the LCMS program.)

       The LCMS project began spending funds in FY 2003 and is planned to be phased in
incrementally, beginning with Phase 1 in FY 2007 in U.S. Attorney’s Offices. Phase 1 is
intended to incorporate case information management and reporting, workload management, and
time reporting. Litigation support tools that can be used by attorneys to organize and manage
individual cases are not part of Phase 1.

                           LCMS Studies, Plans, and Evaluations
    Document Type                              Title                             Date    Item #
 Market/Other Research    Final Market Research Report, LCMS                    Jun 2005    250
 Business Case Study      OMB Exhibit 300 for BY 2007                           Dec 2005    252
                          Technical Evaluation Report, LCMS Phase 1,
 Business Case Study                                                            Apr 2006       256
                          Version 0.9, Final
 Privacy Impact
                          Privacy Impact Assessment (Draft)                    May 2005      1383
 Assessment
 Project Plan             Project Management Plan, Version 1.2                 Aug 2005        254
 Configuration            Project Configuration Management Plan,
                                                                                Apr 2005       253
 Management Plan          Version 1.1




                                             155
                                  Public Key Infrastructure
                                 Justice Management Division

Components Involved: All Components

          The Department of Justice has established a Public Key Infrastructure Program (PKI) to
provide infrastructure-level trust services to enhance existing and planned business processes,
applications, and services. The PKI will enhance security in order to foster communication
between Department personnel across Components, other Federal, State, and Local Government
agencies, commercial business partners, and transactions involving private citizens. The PKI is
not in itself a security service, but instead is an underlying infrastructure-level service that
enhances the offerings of existing security services within the DOJ enterprise. To augment these
security services, the PKI Program will seek to establish an enterprise-wide public key capability
and look to enable key business processes to leverage the services provided by the DOJ PKI.

                             PKI Studies, Plans, and Evaluations
     Document Type                              Title                              Date    Item #
 Market/Other Research     Planning and Design Support, DOJ PKI                   Oct 2002    232
 Business Case Study       Business Case, DOJ Enterprise PKI, Version 1.0         Jul 2004    216
 Business Case Study       OMB Exhibit 300 for BY 2008, CEI                                  1017
 Privacy Impact
                           Privacy Threshold Analysis (questionnaire)                            235
 Assessment
 Project Plan           Project Management Plan, DOJ PKI                         Aug 2004        236
 Security Plan          System Security Plan, DOJ PKI, Revision 2                Mar 2006        244
                        Configuration Management Plan, DOJ PKI
 Configuration
                        Program and Technical Support, Version 1.1,              Mar 2005        220
 Management Plan
                        Draft
                        Test and Evaluation Master Plan, DOJ PKI,
 Test Plan                                                                        Apr 2005       245
                        Revision 1
                        Deployment Implementation Plan, DOJ PKI,
 Implementation Plan                                                              Jun 2005       222
                        Final
 Training Plan          Training Plan, DOJ PKI, Final                             Apr 2005       247
                        Chain of Custody Processes, DOJ PKI, Version
 Disposition Plan                                                                 Jun 2005       218
                        1.01
 Contingency/Continuity IT Contingency Plan, DOJ PKI, Appendix L,
                                                                                 Mar 2006        226
 Plan                   Revision 3
                        Security Test and Evaluation Plan (Final),
 Test Report                                                                     May 2005        242
                        DOJ PKI
 Test Report            Test Report, DOJ PKI, Draft                               Jun 2005       246
 Performance            Earned Value Management, DOJ Enterprise PKI
                                                                                                 223
 Evaluation             Infrastructure Service Office




                                              156
                            Unified Financial Management System
                                Justice Management Division

Components Involved: All components

       The Department of Justice has initiated an effort to implement a unified system that will
improve the existing and future financial management and procurement operations across DOJ.
The Department will address these needs via the implementation of the Unified Financial
Management System (UFMS), which is planned to replace six core financial management
systems and multiple procurement systems currently operating across DOJ with an integrated
commercial off the shelf solution.

                                UFMS Studies, Plans, and Evaluations
     Document Type                               Title                             Date   Item #
 Market/Other Research     Financial Vendor Response Summary Draft                          1418
 Business Case Study       OMB Exhibit 300 for BY 2007                           Dec 2005     99
 Privacy Impact            Privacy Impact Assessment, UFMS, Working
                                                                                 Dec 2006      1399
 Assessment                Draft
 Risk Management Plan      Risk and Issue Management Plan, Version 2.0           Sep 2004          101
                           Acquisition Plan UFMS Integration and
 Acquisition Plan                                                                Jun 2005          86
                           Implementation Services
 Acquisition Plan          Acquisition Strategy Paper, DOJ UFMS                  Jun 2002          87
                           DOJ Program Office Charter and Program
 Project Plan                                                                    Sep 2004          93
                           Management Plan, Version 2.0
                           Implementation and Integration - Project
 Project Plan                                                                    Jun 2006          94
                           Management Plan, Version 1.0
 Security Plan             Security Management Plan (UFMS), Version 2.0          Jan 2006          103
 Security Plan             System Security Plan (SSP) for DOJ UFMS               Dec 2005          105
 Systems Engineering       Integration and Implementation - Systems
                                                                                  Jul 2006         96
 Management Plan           Engineering Plan
 Configuration
                           Configuration Management Plan, Version 1.0            Aug 2005           88
 Management Plan
 Configuration
                           Configuration Management Plan, Version 2.0            Jun 2006          89
 Management Plan
                           Integration and Implementation - Quality Control
 Quality Assurance Plan                                                           Jul 2006         95
                           Plan, Version 1.0
                           Integration and Implementation Test and
 Test Plan                                                                        Jul 2006         97
                           Evaluation Master Plan
 Conversion Plan           Data Conversion Strategy, Version 1.0                  Jul 2006          92
 Implementation Plan       System Implementation Plan, Version 1.0                Jul 2006         106
 Training Plan             Training Strategy, Version 1.0                         Jul 2006         109

       The UFMS will allow the DOJ to streamline and standardize business processes and
procedures across all components, providing accurate, timely, and useful financial data to


                                              157
financial and Program managers across the Department, and produce component- and
Department-level financial statements. In addition, the system will assist the DOJ by improving
financial management performance and aid Department components in addressing the material
weaknesses and non-conformances in internal controls, accounting standards, and systems
security identified by the OIG. Finally, the system will provide procurement functionality,
consolidated management information, and the capability to meet all mandatory requirements of
the Federal Acquisition Regulation and the Justice Acquisition Regulations.




                                             158
                             Justice Grants Management System
                                  Office of Justice Programs

Components Involved: Office of Justice Programs
                     Office of Community Oriented Policing Services

        The Justice Grants Management System (JGMS) is a web based, data driven application
that provides end-to-end support for the application, approval, and management of grants for the
proposed Justice Grants Management Consortium. JGMS is adaptable to accommodate the
varying grants processes and grants types of its multiple users. JGMS supports the core missions
and grants processes of DOJ's Office of Justice Programs and Office on Violence Against
Women, and is targeted to incorporate the Community Oriented Policing Services (COPS)
program. The Office of Grants and Training, Department of Homeland Security is also an
established JGMS user and will continue to be supported by JGMS.

                            JGMS Studies, Plans, and Evaluations
    Document Type                                Title                           Date       Item #
 Business Case Study       OMB Exhibit 300 for BY 2007                                         364
                           Grant Adjustment Notice (GAN) Module Project
 Project Plan                                                                   Sep 2005          360
                           Management Plan, Draft
                           System Security Plan for Grants Management
 Security Plan                                                                  Feb 2006          340
                           System
 Configuration
                           Configuration Management Plan, OJP                  Nov 2004           341
 Management Plan
 Test Plan                 GAN Module Test Plan, OJP                                              347
                           GMS Grant Adjustment Notice Module Test
 Test Plan                                                                      Oct 2005          346
                           Cases
                           Grant Adjustment Notice Module Test Plan,
 Test Plan                                                                                        348
                           Phase 2
 Training Plan             GMS GAN Training Plan, (Draft)                      May 2005           359
 Contingency/Continuity
                        Continuity of Operations Plan, OJP                       Jul 2005         342
 Plan
                        Functional Requirements Document, Grant
 Test Report                                                                   Nov 2005           345
                        Adjustments, OJP, Version 1.1
 Test Report            GAN Test Problem Report (Spreadsheet)                                     357
 Test Report               Validation Test Script Forms, GMS                    Feb 2006     1390

        The Justice Grants Management Consortium formalizes the existing alliance of JGMS
users, with the addition of new users with like interests such as COPS. JGMS has the capability
to accommodate additional prospective agencies whose missions support first responder and
disaster grants programs, should they elect to join the Consortium as members. JGMS provides
an interface with the Grants.gov portal to allow potential applicants to conduct searches and
apply for DOJ and Department of Homeland Security grant opportunities using the Grants.gov
Find and Apply capabilities. JGMS will also build upon its interface with the financial

                                             159
management system which accounts for its DOJ users' grant funds and disburses funds to
grantees, and its capability to export financial-related grants transaction data to external financial
systems.




                                                160
                                                                APPENDIX VII

                           PRIOR OIG REPORTS

Performance Audits and Inspection Reports

  Report
                                            Report Title
  Number
              The Drug Enforcement Administration’s Management of Enterprise
   04-36
              Architecture and Information Technology Investments
              The Bureau of Alcohol, Tobacco, Firearms and Explosives and Federal
   05-01
              Bureau of Investigation’s Arson and Explosives Intelligence Databases
              Federal Bureau of Investigation’s Management of the Trilogy Information
   05-07
              Technology Modernization Project
   05-22      The Joint Automated Booking System
   05-27      Review of the Terrorist Screening Center
              Bureau of Alcohol, Tobacco, Firearms, and Explosives National Integrated
   05-30
              Ballistic Information Network Program
              Processing Classified Information on Portable Computers in the
   05-32
              Department of Justice
              Review of the Terrorist Screening Center’s Efforts To Support the Secure
   05-34
              Flight Program – Limited Official Use
              The Status of Enterprise Architecture and Information Technology
   06-02
              Investment Management in the Department in the Department of Justice
              The Federal Bureau of Investigation’s Pre-Acquisition Planning For and
   06-14
              Controls Over the Sentinel Case Management System
              Inventory of Major Department of Justice Information System
   06-25
              Investments as of FY 2006
              The Federal Bureau of Investigation's Implementation of the Laboratory
   06-33
              Information Management System
              Sentinel Audit II: Status of the Federal Bureau of Investigation’s Case
   07-03
              Management System Redacted
              Progress Report on Development of the Integrated Wireless Network in
   07-25
              the Department of Justice
I-2005-001*   Follow-up Review of the Status of the IDENT/IAFIS Integration
              Follow-up Review of the FBI’s Progress Toward Biometric Interoperability
I-2006-007*
              Between IAFIS and IDENT

* Denotes an inspection report prepared by the OIG Inspections Division.




                                      161
Federal Information Security Related Audits

  Report
                                         Report Title
  Number
            Independent Evaluation Pursuant to the Federal Information Security
   05-16    Management Act - Fiscal Year 2004 - United States Marshals Service’s
            Automated Prisoner Scheduling System
            Independent Evaluation Pursuant to the Federal Information Security
            Management Act - Fiscal Year 2004 - Drug Enforcement
   05-21
            Administration’s Investigative Management Program and Case
            Tracking System (IMPACT)
            Independent Evaluation Pursuant to the Federal Information Security
   05-23    Management Act - Fiscal Year 2004 - United States Marshals Service’s
            Information Security Program
            Independent Evaluation Pursuant to the Federal Information Security
   05-26    Management Act - Fiscal Year 2004 - Federal Bureau of Investigation’s
            Tactical Operations Unit Network (TOUNET) – Secret
            Independent Evaluation Pursuant to the Federal Information Security
   05-29    Management Act - Fiscal Year 2004 - Drug Enforcement
            Administration’s Information Security Program – Limited Official Use
            Independent Evaluation Pursuant to the Federal Information Security
   05-31    Management Act - Fiscal Year 2004 - Federal Bureau of Investigation’s
            Information Security Program – Limited Official Use
            Independent Evaluation Pursuant to the Federal Information Security
   06-01    Management Act – Fiscal Year 2004- Department’s Information
            Technology Security and Oversight Program – Limited Official Use
            Independent Evaluation Pursuant to the Federal Information Security
            Management Act - FY 2005 - Department of Justice’s Justice
   06-20
            Management Division Information Security Program and Oversight –
            Limited Official Use
            Independent Evaluation Pursuant to the Federal Information Security
   06-22    Management Act – Fiscal Year 2005 - Federal Bureau of Investigation’s
            Automated Case Support Application - Secret
            Independent Evaluation Pursuant to the Federal Information Security
   06-23    Management Act - FY 2005 - Federal Bureau of Investigation’s
            Information Security Program – Secret
            Independent Evaluation Pursuant to the Federal Information Security
            Management Act - Fiscal Year 2005 - The Department of Justice’s
   06-27
            Drug Enforcement Administration Information Security Program -
            Limited Official Use
            Independent Evaluation Pursuant to the Federal Information Security
   06-28    Management Act – Fiscal Year 2005 - The Department of Justice’s
            Federal Bureau of Prisons’ Inmate Telephone System II
            Independent Evaluation Pursuant to the Federal Information Security
   06-29    Management Act – Fiscal Year 2005 - The Department of Justice’s
            Federal Bureau of Prisons’ Information Security Program


                                   162
  Report
                                          Report Title
  Number
            Independent Evaluation Pursuant to the Federal Information Security
   06-31    Management Act – Fiscal Year 2005 - The Drug Enforcement
            Administration’s El Paso Intelligence Center Seizure System



Financial Statement Related Audits

 Report
                                          Report Title
 Number
  05-03    Department of Justice Annual Financial Statement Fiscal Year 2004
  05-05    Working Capital Fund Annual Financial Statement Fiscal Year 2004
  05-06    Offices, Boards and Divisions Annual Financial Statement Fiscal Year 2004
           Federal Bureau of Investigation Annual Financial Statement Fiscal Year
  05-08
           2004
           Federal Prison Industries, Inc., Annual Financial Statement Fiscal Year
  05-09
           2004
  05-11    Bureau of Prisons Annual Financial Statement Fiscal Year 2004
           Assets Forfeiture Fund and Seized Asset Deposit Fund Annual Financial
  05-12
           Statement Fiscal Year 2004
           United States Marshals Service Annual Financial Statement Fiscal Year
  05-13
           2004
           Drug Enforcement Administration Annual Financial Statement Fiscal Year
  05-14
           2004
           Bureau of Alcohol, Tobacco, Firearms and Explosives Annual Financial
  05-15
           Statement, Fiscal Year 2004
  05-17    Office of Justice Programs Financial Statement Fiscal Year 2004
           Review of the Federal Bureau of Investigation Headquarters’ Information
  05-35
           Systems Control Environment Fiscal Year 2004 – Secret
           Office of Justice Programs Annual Financial Statement Fiscal Year 2003 As
  05-36
           Restated
           Office of Justice Programs Annual Financial Statement Fiscal Year 2004 As
  05-38
           Restated
  06-04    The Department of Justice Annual Financial Statement Fiscal Year 2005
  06-05    Offices, Boards and Divisions Annual Financial Statement Fiscal Year 2005
           Federal Bureau of Investigation Annual Financial Statement Fiscal Year
  06-06
           2005
           Asset Forfeiture Fund and Seized Asset Deposit Fund Annual Financial
  06-07
           Statement Fiscal Year 2005
           United States Marshals Service Annual Financial Statement Fiscal Year
  06-09
           2005
           Drug Enforcement Administration’s Annual Financial Statement Fiscal
  06-10
           Year 2005
  06-12    Working Capital Fund Annual Financial Statement Fiscal Year 2005


                                    163
Report
                                        Report Title
Number
06-17    Office of Justice Programs Annual Financial Statement Fiscal Year 2005
         Federal Prison Industries, Inc., Annual Financial Statement Fiscal Year
06-18
         2005
06-19    Federal Bureau of Prisons Annual Financial Statement Fiscal Year 2005
         Bureau of Alcohol, Tobacco, Firearms and Explosives Annual Financial
06-21
         Statement Fiscal Year 2005
         Department of Justice Review of the Consolidated Information System
06-24
         General Controls Environment - Fiscal Year 2005 - Limited Official Use
07-08    Office, Boards and Divisions Annual Financial Statement Fiscal Year 2006
         Federal Bureau of Investigation Annual Financial Statement Fiscal Year
07-09
         2006
         Drug Enforcement Administration Annual Financial Statement Fiscal Year
07-11
         2006
07-21    Office of Justice Programs Annual Financial Statement Fiscal Year 2006




                                  164
                                   APPENDIX VIII

DEPARTMENT’S RESPONSE TO THE DRAFT REPORT




                   165
166
167
                                                                APPENDIX IX

    INSPECTOR GENERAL ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE REPORT

       The OIG provided a draft of this audit report to the Department for
review and comment. The Department’s response of July 24, 2007, included
in this report as Appendix VIII, concurs with the five recommendations and
proposes corrective action sufficient to resolve all the recommendations.
Our analysis of the response to the recommendations is provided below.

1. Resolved. We recommended that the Department’s CIO evaluate why
   project teams do not prepare certain plans and evaluations, reassess the
   utility of those documents, and consider revising the standards for
   producing studies, plans, and evaluations for individual IT projects. The
   Department’s response indicates the OCIO will review selected projects to
   determine the rationales for preparing certain studies, plans, and
   evaluations, and consider revising the current guidelines. This
   recommendation is resolved based on the planned action, but the
   Department did not provide a specific timeframe for the process to be
   completed. The Department should provide a specific timeframe for this
   process to be completed, and the recommendation can be closed when
   we receive documentation of the results of this review.

2. Resolved. We recommended that the CIO consider revising the
   guidelines for tailoring the work pattern for specific types of projects. The
   Department’s response indicated the OCIO will conduct an evaluation of
   the various IT project types and will develop standard work patterns and
   deviations or waivers for each project type. This recommendation is
   resolved based on the planned actions, but the Department did not
   provide a timeframe for the process to be completed. The OCIO should
   provide a specific timeframe for the process to be completed, and the
   recommendation can be closed when we receive documentation of the
   results of this effort.

3. Resolved. We recommended that the CIO ensure that post-
   implementation and post-termination reviews are conducted that focus on
   lessons learned for project planning and management. This
   recommendation is resolved based on the CIO’s plans to implement a
   post implementation review process that will follow guidance in the Office
   of Management and Budget’s Capital Programming Guide. The
   Department did not provide a specific timeframe for the process to be
   implemented. The Department should provide a specific timeframe for

                                      168
  this process to be implemented, and the recommendation can be closed
  when we receive documentation demonstrating that this process has
  been implemented.

4. Resolved. We recommended that the CIO ensure that staff receive
   training needed to direct and oversee contractor efforts adequately. This
   recommendation is resolved based on the CIO’s response that the
   qualifications of the IT project managers for major IT projects are now
   reviewed each year during the exhibit 300 review, and that all IT project
   managers are now required to be re-certified as contracting officers’
   technical representatives every 5 years. The recommendation can be
   closed when we receive documentation of: (1) the FY 2004 validation of
   project manager qualifications, (2) the procedures used for review of
   project manager qualifications, and (3) the requirement that project
   managers be certified and re-certified as contracting officers’ technical
   representatives.

5. Resolved. We recommended that the CIO implement targeted reviews
   to improve the use of business process re-engineering and requirements
   analysis early in concept development. This recommendation is resolved
   based on the Department’s plan to implement review criteria to ensure
   that business process re-engineering and requirements analysis are
   effectively incorporated early into the concept development phase of
   project planning, and that targeted reviews will be conducted at the
   discretion of the Department Investment Review Board. The Department
   did not provide a specific timeframe for these actions to be implemented.
   The Department should provide a specific timeframe for these actions to
   be implemented, and the recommendation can be closed when we receive
   documentation that the actions have been implemented.




                                    169
